<html>
<title> - SCIENCE AND RESOURCES MANAGEMENT IN THE NATIONAL PARK SERVICE</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
     SCIENCE AND RESOURCES MANAGEMENT IN THE NATIONAL PARK SERVICE

=======================================================================

                           OVERSIGHT HEARING

                               before the

            SUBCOMMITTEE ON NATIONAL PARKS AND PUBLIC LANDS

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                                   on

RESEARCH OF OUR NATIONAL PARKS TO DETERMINE THEIR CONDITION, TO ADDRESS 
   ANY THREATS TO PARK RESOURCES, AND DETERMINE THE BEST SCIENCE AND 
                     RESOURCES MANAGEMENT POSSIBLE

                               __________

                   FEBRUARY 27, 1997--WASHINGTON, DC

                               __________

                            Serial No. 105-3

                               __________

           Printed for the use of the Committee on Resources


                               <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 39-698 CC                   WASHINGTON : 1997



                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                EDWARD J. MARKEY, Massachusetts
JIM SAXTON, New Jersey               NICK J. RAHALL II, West Virginia
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland             Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH, Idaho               FRANK PALLONE, Jr., New Jersey
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
JOHN SHADEGG, Arizona                SAM FARR, California
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              ADAM SMITH, Washington
CHRIS CANNON, Utah                   WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               NICK LAMPSON, Texas
JIM GIBBONS, Nevada                  RON KIND, Wisconsin
MICHAEL D. CRAPO, Idaho

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director
                                 ------                                

            Subcommittee on National Parks and Public Lands

                    JAMES V. HANSEN, Utah, Chairman
ELTON, GALLEGLY, California          ENI F.H. FALEOMAVAEGA, American 
JOHN J. DUNCAN, Jr., Tennessee           Samoa
JOEL HEFLEY, Colorado                EDWARD J. MARKEY, Massachusetts
WAYNE T. GILCHREST, Maryland         NICK J. RAHALL II, West Virginia
RICHARD W. POMBO, California         BRUCE F. VENTO, Minnesota
HELEN CHENOWETH, Idaho               DALE E. KILDEE, Michigan
LINDA SMITH, Washington              FRANK PALLONE, Jr., New Jersey
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
JOHN B. SHADEGG, Arizona             ROBERT A. UNDERWOOD, Guam
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              WILLIAM D. DELAHUNT, Massachusetts
RICK HILL, Montana                   DONNA CHRISTIAN-GREEN, Virgin 
JIM GIBBONS, Nevada                      Islands
                                     RON KIND, Wisconsin
                        Allen Freemyer, Counsel
                    Steve Hodapp, Professional Staff
                    Liz Birnbaum, Democratic Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held February 27, 1997...................................     1

Statements of Members:
    Christian-Green, Hon. Donna, a U.S. Delegate from Virgin 
      Islands....................................................     5
    Cubin, Hon. Barbara, a U.S. Representative from Wyoming......    36
    Faleomavaega, Hon. Eni, a U.S. Delegate from American Samoa..     3
    Gibbons, Hon. Jim, a U.S. Representative from Nevada.........     5
    Hansen, Hon. James V., a U.S. Representative from Utah, and 
      Chairman, Subcommittee on National Parks and Public Lands..     1
    Hill, Hon. Rick, a U.S. Representative from Montana..........     4

Statements of witnesses:
    Boyce, Mark S., Professor, University of Wisconsin...........    33
        Prepared statement.......................................    87
    Fowler, Cliff, Assistant Director, National Parks Issues, 
      General Accounting Office..................................     6
    Hill, Barry T., Associate Director, Energy, Resources & 
      Science Issues, Resources, Community & Economic Development 
      Division, GAO..............................................     6
        Prepared statement.......................................    69
    Kay, Charles E., Adjunct Assistant Professor, Utah State 
      University.................................................    34
        Prepared statement.......................................    95
    Keigley, Richard B., U.S. Geological Survey..................    38
        Prepared statement.......................................    90
    Kennedy, Roger G., Director, National Park Service...........    53
        Prepared statement.......................................   100
    Linn, Robert M., Executive Director, The George Wright 
      Society....................................................    21
        Prepared statement.......................................    85
    Policansky, David, Associate Director, National Research 
      Council....................................................    20
        Prepared statement.......................................    83
    Pritchard, Paul C., President, National Parks and 
      Conservation Association (prepared statement)..............    72
    Schaefer, Mark, Deputy Assistant Secretary for Water and 
      Science, Department of the Interior........................    56
        Prepared statement.......................................   103
    Wagner, Frederic H., Associate Dean, Utah State University...    39
        Prepared statement.......................................    92

Additional material supplied:
    DOI:
        Biological Resources Division scientists.................    59
        NPS Budget in constant 1983 dollars......................   107
        Working Relationships Between The National Biological 
          Service and the National Park Service: A Survey of 
          Managers and Scientists................................   135
    Hill, Barry: National Park Units GAO Visited in 1995 and 
      Studied in 1996............................................   105
    Kay, Charles: Attachment A--Do livestock or wild ungulates 
      have a greater impact on riparian areas?...................   108
    Pritchard, Paul: Summary of Recommendations..................    78
    Science and Ecosystem Management in the National Parks 
      (review), by W.L. Halvorson and G.E. Davis.................   129
 SCIENCE AND RESOURCES MANAGEMENT IN THE NATIONAL PARK SERVICE

                                ----------                              


                      THURSDAY, FEBRUARY 27, 1997

        House of Representatives, Subcommittee on National 
            Parks and Public Lands, Committee on Resources
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 12:05 p.m., in 
room 1324, Longworth House Office Building, Hon. James V. 
Hansen (Chairman of the Subcommittee) presiding.

 STATEMENT OF HON. JAMES V. HANSEN, A U.S. REPRESENTATIVE FROM 
 UTAH; AND CHAIRMAN, SUBCOMMITTEE ON NATIONAL PARKS AND PUBLIC 
                             LANDS

    Mr. Hansen. I welcome my new ranking member, Eni 
Faleomavaega, from American Samoa. He is a good man even though 
he did go to BYU. We will not hold that against him. And we are 
grateful to have all of you here with us. We welcome you to the 
first hearing by the National Parks and Public Lands 
Subcommittee for the 105th Congress. I look forward to another 
productive, and bipartisan session of the Subcommittee.
    While we were able to finish work on a number of important 
bills pending before the Subcommittee last session, we will 
have a number of major issues unresolved to work on in the 
105th Congress. I only said that because the University of Utah 
and BYU are rivals and I went to U. of Utah.
    I cannot think of a more important task for this 
Subcommittee than ensuring our natural and cultural heritage, 
as contained in our parks, is properly managed and protected. 
In order to accomplish those lofty goals, a strong 
interdisciplinary program of research is essential. Without 
research, it is simply impossible to determine the condition of 
our parks, or to address any threats to park resources.
    It is well documented that the National Park Service has 
never had a strong research program. Over the last three 
decades, there have been no less than 15 major reports 
recommending an increased role for research in parks. Authors 
of several of those reports are here today.
    For that reason, most observers were shocked in 1994 when 
Secretary Babbitt abolished the research function of the 
National Park Service after his legislative initiative to 
create a new agency to survey everything which ``walks, crawls, 
flies or swims'' blew up on Capitol Hill.
    The Secretary moved about $20 million and 168 scientists 
and technicians from NPS to the new National Biological Survey. 
Today we will examine the aftermath of that reorganization.
    Of course, the research program represents only a small 
portion of the overall funds available to the National Park 
Service to carry out its resource stewardship responsibilities. 
Over the last five years, Congress has appropriated over $900 
million to the NPS for resource stewardship. Yet, according to 
GAO, NPS knows precious little about the resources entrusted to 
it by the American people.
    Only 86 parks have complete lists of animal species, only 
11 parks have complete vegetation maps, and not a single major 
park has a comprehensive resource monitoring program. As a 
result, NPS cannot determine the health of the parks, can only 
sporadically address threats to park health, and park managers 
are not held accountable for the condition of resources they 
manage.
    These problems are not new, and not the sole responsibility 
of the current Administration. We realize that. But this 
Administration does not have a responsibility to correct these 
problems. Instead, the Administration has attempted to 
undermine the oversight efforts of this Subcommittee. The 
Administration refused to permit U.S. Biological Research 
Division employee, Dr. Richard Keigley, to appear as a witness 
as requested by the Subcommittee.
    I believe that his testimony is critical to help members 
understand the importance of protecting the independent voice 
of research, as well as ensuring that park superintendents are 
not empowered to arbitrarily prevent research simply because 
they fear it may lead to conclusions inconsistent with their 
park policies. For this reason, the Committee was compelled to 
subpoena, and pay for the appearance of Dr. Keigley today.
    Similarly, the Department's testimony is filled with 
hyperbole about the wonderful new research agency and how well 
it supports the research mission of the Interior bureaus. 
However, the testimony of park superintendents presents a very 
different picture. In a 1996 survey of park superintendents 
conducted by the NPS, the vast majority reported that creation 
of the new agency has hindered their access to science, and 
that many former NPS scientists have been discouraged from 
supporting parks they previously worked for.
    I ask unanimous consent that this survey be made part of 
the record. Hearing no objection, so ordered. NPS personnel are 
also concerned about the overhead of up to 50 percent they will 
have to pay in order to get research help from the U.S. 
Geological Survey. For these reasons and others, the NPS is 
already beginning to backfill research positions vacated by the 
establishment of the new research program.
    The Administration budget request includes $2.5 million to 
establish cooperative park study units which duplicate the role 
of USGS field stations in 45 States. One of the primary 
justifications for establishing this new research agency, 
avoiding duplication among bureaus, is already being 
undermined. Over time, I expect that we will see complete 
duplication, just as the NPS already has established its own 
water resource division, with substantially duplicates another 
USGS program.
    Finally, I must mention that we have taken an opportunity 
to read some of the statements that will be presented today. It 
is not the place in this committee for any witness to take on 
any other witness. You can have your own opinions. You can say 
what you want to say. But I have noticed in the statements by a 
few of you that you are trying to personally attack other 
witnesses. That is not tolerated in this Committee or any 
committee around here. And as I head the Ethics Committee, I 
can tell you that is part of our rule.
    And so if you have got that in your report, take it out or 
you are going to be called on it. I recognize that there is not 
a consensus among all scientists in regard to Yellowstone Park 
management. I welcome witnesses to provide evidence in support 
of their positions but please avoid any personal attacks on one 
or the other. This is not the arena to do that.
    There are many questions here and a great deal of concern 
on behalf of this Member and most members of the committee. In 
the coming weeks, I will be seeking to work with others to 
address these very serious deficiencies of research in the 
National Park System.
    Our witness list is made up of very distinguished people 
and I want to thank each and every one of you for taking the 
time and effort to be here, and I know a lot of work has gone 
into your reports.
    Mr. Hansen. Now I will turn to my ranking Member, the 
gentleman from American Samoa.

   STATEMENT OF HON. ENI FALEOMAVAEGA, A U.S. DELEGATE FROM 
                         AMERICAN SAMOA

    Mr. Faleomavaega. Thank you, Mr. Chairman. I appreciate 
your kind comments. The fact that I am a graduate of Brigham 
Young University, it is interesting to note that the University 
of Utah now has more Polynesian football players than BYU so 
you must be doing something better than BYU these days.
    Mr. Hansen. They are all related to you.
    Mr. Faleomavaega. I think we probably export more sumo 
wrestlers than football players and rugby players probably than 
any other region of the country. But, Mr. Chairman, let me say 
at the outset that as the new ranking Democratic Member of the 
Subcommittee on National Parks and Public Lands, I do look 
forward to working with you and other members of the 
Subcommittee here of the 105th Congress.
    Today's oversight hearing deals with an important topic. 
All of us love our national parks and we want to see the best 
possible care for them. The development and use of science and 
research are important matters to the management of the 
National Park System. It does not matter whether the scientific 
information is developed by the National Park Service, the 
Biological Research Division, or independent scientists.
    What is important is that the National Park Service has 
available to it scientific information relating to the national 
parks and makes use of such information in developing and 
implementing management decisions affecting the National Park 
System.
    As is so often the case different people can draw different 
conclusions from the same information. I hope we do not get 
into a debate of one scientific theory versus another. That I 
do not believe would be very productive. Instead, I do hope 
that we can focus on the need for the good science of our 
national parks and the use of that research in the management 
of our National Park System.
    I look forward to hearing from our witnesses this afternoon 
and certainly welcome the members of our Subcommittee as well. 
Thank you, Mr. Chairman.
    Mr. Hansen. Thank you. I ask unanimous consent that all 
members of the committee may be given the opportunity to have 
an opening statement. Is there objection? Hearing none, the 
gentleman from Montana, our new member, Mr. Hill.

STATEMENT OF HON. RICK HILL, A U.S. REPRESENTATIVE FROM MONTANA

    Mr. Rick Hill. Thank you, Mr. Chairman, and thank you for 
calling this hearing today on the nature of the current 
National Park Service science research program. This is an 
important opportunity to address the very serious problem that 
has been facing Montana for a very long time. Along the land 
bordering Yellowstone Park, we are seeing the results of poor 
scientific research in the form of bison being slaughtered as 
they attempt to escape an over-grazed Yellowstone Park.
    The time is both right for good science and corrective 
action. Montana has received an undeserved black eye as the 
result of poor management practices within Yellowstone Park. 
Based on testimony we will hear today, I believe this committee 
will reach the conclusion that the bison slaughter is just a 
symptom of a much larger wildlife management problem within our 
park system.
    It appears that the ``let-it-burn policy'' that led to the 
disastrous 1988 Yellowstone fire is now being repeated in the 
current ``let-them-starve policy'' regarding wildlife. For over 
30 years Yellowstone Park has adopted a philosophy of natural 
regulation that in effect has resulted in a hands-off policy 
toward the growth in bison population and of coincident 
deterioration of our park resources.
    This type of voodoo environmentalism has resulted in 
serious degradation of habitat within the park. It is troubling 
that an acknowledged expert in this field was not given full 
support by the Department of Interior in his desire to testify 
here today. This raises concerns as to whether the Department 
is interested in truly objective studies within the park.
    I want to call on the park director to seek an independent 
review of the environmental conditions within our parks. I hope 
this hearing can be the beginning of a more cooperative 
atmosphere between the Park Service, the States, and the 
Congress. We need to work together to preserve the 
environmental beauty of our national parks.
    I for one plan to devote as much time and resources as 
needed to see that the quality of our parks are maintained for 
all visitors. Mr. Chairman, we cannot leave these national 
treasures to the whimsy of chance. I look forward to listening 
to the panel today and trust we will find this effort a new 
responsible policy. Thank you, Mr. Chairman.
    Mr. Hansen. Thank you. The gentlelady from the Virgin 
Islands.

 STATEMENT OF HON. DONNA CHRISTIAN-GREEN, A U.S. DELEGATE FROM 
                       THE VIRGIN ISLANDS

    Mrs. Christian-Green. Good morning, Mr. Chairman. I really 
do not have an opening statement. I would just like to welcome 
the witnesses and say how glad I am to have this opportunity to 
sit on the Subcommittee. With the parks in the Virgin Islands, 
parks are very important and dear to me and with a science 
background I know the importance of good solid research in 
helping us to make the kind of decisions that are necessary for 
proper management of our parks.
    Mr. Hansen. Thank you very much. The gentlelady from 
Wyoming.
    Mrs. Cubin. Mr. Chairman, I do not have an opening 
statement at this time.
    Mr. Hansen. The gentlelady from Oregon.
    Mrs. Linda Smith. No opening statement, thank you, Mr. 
Chairman. I am just very interested in hearing the testimony. I 
found some of the preliminary information quite interesting.
    Mr. Hansen. I apologize for moving you from Washington to 
Oregon.
    Mrs. Linda Smith. But I knew where I was from. Thank you. 
Let us get to the hearing. I am anxious to hear the testimony.
    Mr. Hansen. The gentleman from California, Mr. Radanovich.
    Mr. Radanovich. No.
    Mr. Hansen.. No opening statement. The gentleman from 
Nevada, Mr. Gibbons.

   STATEMENT OF HON. JIM GIBBONS, A U.S. REPRESENTATIVE FROM 
                             NEVADA

    Mr. Gibbons. Thank you, Mr. Chairman. As a freshman 
colleague at this end of the bench, I know you are glad when it 
always reaches this end to find that our opening statements are 
very short. However, I do look forward with a great deal of 
interest to serving on this committee and hearing the testimony 
we are about to receive today.
    I want to thank you for your interest in bringing this 
issue forward. As many of you know, Nevada has a great interest 
in what goes on in this country with regard to our government 
interest. We have over 87 percent of our land publicly owned 
land and it drastically affects how we in Nevada conduct our 
lives.
    So we share with Montana and other western States the 
concerns about how government is managing our public lands and 
I look forward to hearing the testimony from those people in 
the audience today. Thank you, Mr. Chairman.
    Mr. Hansen. Thank you. Our first panel is Mr. Barry T. 
Hill, Associate Director, Energy, Resources & Science Issues, 
Resources, Community & Economic Development Division, General 
Accounting Office. Mr. Hill, we welcome you here. We are 
grateful for your presence. Mr. Hill, may I ask you how much 
time you need?
    Mr. Barry Hill. Mr. Chairman, with your permission I will 
submit my formal statement for the record and just briefly 
summarize my remarks in four or five minutes.
    Mr. Hansen. Four or five minutes, all right. Mr. Hill, you 
will notice in front of you is a traffic light. When it goes on 
it is green and you start. When it turns yellow wind up, and if 
it turns red then you have to wind it up. So we would 
appreciate it if you would adhere to that.
    Now I am going to ask all the witnesses to please adhere to 
that. Now on the other side of the coin if you have something 
that just has to be said and you need an additional minute or 
two, please let me know and I will give you the minute or two. 
Thank you, Mr. Hill. It is very kind of you to be here. We will 
turn the time to you, sir.

    STATEMENT OF BARRY T. HILL, ASSOCIATE DIRECTOR, ENERGY, 
  RESOURCES & SCIENCE ISSUES, RESOURCES, COMMUNITY & ECONOMIC 
 DEVELOPMENT DIVISION; ACCOMPANIED BY CLIFF FOWLER, ASSISTANT 
   DIRECTOR, NATIONAL PARKS ISSUES, GENERAL ACCOUNTING OFFICE

    Mr. Barry Hill. Thank you, Mr. Chairman, and members of the 
Subcommittee. It is a pleasure to be here. Before I begin, let 
me quickly introduce my colleague. With me today is Mr. Cliff 
Fowler, who is assistant director for national parks issues. 
Cliff has primarily responsible for much of the work that we 
will be discussing today in our testimony.
    We are pleased to be here today to discuss our views on the 
National Park Service's knowledge of resource conditions within 
the park system. My testimony today is based primarily on 
reports that GAO has issued in response to a variety of 
resource management concerns raised by this and other 
Congressional committees over the years.
    I will direct my remarks specifically to the following four 
points. First, sound scientific information about park 
resources is essential for effective resource management. 
Second, data on the inventory and current condition of many 
park resources are insufficient. Third, information on the 
extent and severity of threats to park resources is also 
limited. And, fourth, enhancing knowledge about resources will 
involve difficult choices about funding and management 
priorities.
    Let me start by briefly discussing the importance of sound 
information on park resources. The Park Service is caretaker of 
many of the nation's most precious, natural, and cultural 
resources, ranging from the natural areas of Yellowstone and 
Yosemite National Parks to the urban areas of Gateway National 
Recreation Area in New York.
    Over the past 30 years more than a dozen major studies of 
the park system have pointed out the importance of guiding the 
management of these resources through sound scientific 
knowledge. The recurring theme of these studies has been that 
to manage parks effectively managers need baseline data on the 
current condition of resources and information that allows for 
the detection and mitigation of threats and damaging changes to 
resources.
    Without these data, the Park Service cannot adequately 
perform its mission of preserving and protecting these 
resources. Our work has shown that while acknowledging the 
importance of such information the Park Service has made only 
limited progress in developing it. Frequently, baseline 
information about natural and cultural resources is incomplete 
or nonexistent, making it difficult for park managers to have 
clear knowledge about what condition the resources are in and 
whether the condition of those resources is deteriorating, 
improving, or staying the same.
    At the same time, many of the parks face significant known 
threats to their resources. These threats range from air and 
water pollution to vandalism and the development of nearby 
land. However, our studies have found that sound scientific 
information on the extent and severity of these threats and 
their impact on effective resources is limited, yet preventing 
or mitigating these threats and their impact is at the core of 
the Park Service's mission to preserve and protect park 
resources.
    As you mentioned, these concerns are not new to the Park 
Service and in fact the agency has taken steps to improve the 
situation. However, because of many competing needs that must 
be addressed, the Park Service has made relatively limited 
progress to correct this information deficiency.
    Our '95 study found that recent Park Service funding 
increases have been mainly used to accommodate upgraded 
compensation for park rangers and to deal with additional park 
operating requirements such as safety and environmental 
regulations. In addition, we found that to some extent these 
funds were used to cope with higher number of park visitors.
    Making more substantial progress in improving the knowledge 
base about resources in the park system will cost money. 
However, the park system continues to grow with 37 new units 
having been added since 1985. In addition, the Park Service 
faces an estimated multi-billion dollar backlog of costs 
relating to just maintaining existing park infrastructure such 
as roads, trails, and visitor facilities.
    We believe that to improve the knowledge about our national 
park resources, the Park Service, the Administration, and the 
Congress will have to make difficult choices involving how 
national parks are funded and managed. Given today's tight 
fiscal climate and the unlikelihood of substantially increased 
Federal appropriations, our work has shown that the choices for 
addressing these conditions include the following.
    One, increasing the amount of financial resources made 
available to parks are increasing opportunities for parks to 
generate more revenue; two, limiting or reducing the number of 
units in the park system; or, three, reducing the level of 
visitor services. Regardless of which, if any, of these choices 
is made, without an improvement to the Park Service's ability 
to collect the data needed to properly inventory park resources 
and monitor their condition over time, the agency cannot 
adequately perform its mission of preserving and protecting the 
resources entrusted to it.
    This concludes my statement, Mr. Chairman. I would be more 
than happy to respond to any questions that you or others 
members of the Subcommittee may have.
    [Statement of Mr. Hill may be found at end of hearing.]
    Mr. Hansen. Thank you very much. We appreciate your 
statement. The gentleman from American Samoa.
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    Mr. Hansen. Just a minute. I want my colleagues to realize 
on the questions we will recognize you for five minutes and you 
are going to do the same thing when you see the lights come on. 
If you would stay within your time, I would appreciate it. The 
gentleman from American Samoa.
    Mr. Faleomavaega. Thank you. Mr. Hill, you mentioned in 
your statement that in your best opinion you feel that the Park 
Service has not adequately addressed those issues that you 
raised. How do you suppose that the Park Service was not able 
to fulfill its commitment to those things that you have 
addressed in your statement?
    Mr. Barry Hill. How was it they were not able to?
    Mr. Faleomavaega. Yes.
    Mr. Barry Hill. Well, the Park Service, I am sure that Mr. 
Kennedy who will come up here will tell you that it is 
basically because of the competing demands that they have had 
to face with the budgets they have been operating under. Over 
the years the park system has had generally an increase in 
visitation to some extent.
    That is somewhat debatable based on whose numbers you are 
looking at, but certainly the parks that we audited during our 
recent studies about two-thirds of the parks that we were at, 
there was an increase in visitation and along with that 
increase in visitation comes a rise in costs of operating the 
parks and maintaining the types of things that the visitors 
need while they are there.
    Mr. Faleomavaega. So you would agree basically it is not 
the fault of the Park Service at all, it is the fact that you 
have limited resources to try to meet the high demands of the 
number of visitors that have made visitations to our National 
Park System.
    Mr. Barry Hill. I would say that is a contributing factor. 
I would not say that the Park Service is totally not without 
fault. I think our position has been that this is a real 
problem and this really gets to the essence of the mission of 
the Park Service to preserve and protect the resource as well 
as to allow the public to enjoy them.
    It is really their responsibility. They have to find a way 
to manage their budget and to direct enough resources into this 
area to address the situation. And, quite frankly, with the 
situation they have it is nothing that they are going to 
resolve overnight. This will take them some time to do but we 
would like to see a more concerted effort on their part in 
terms of focusing and directing staff and financial resources 
in to getting better scientific information.
    Mr. Faleomavaega. I note in your report that you say there 
is approximately a $4 billion backlog of costs. Do you suppose 
that perhaps this $4 billion reporting--in the first place, 
does the Park Service agree with your assessment that there is 
approximately a $4 billion backlog of needful appropriations or 
funds for them in order for them to accomplish their mission?
    Mr. Barry Hill. Let me clarify that. That $4 billion 
estimate is not ours. That is the Park Service's estimate. We 
have never done any work that validates or refutes that that is 
the correct amount. There is no doubt there is a backlog of 
maintenance but that basically is their estimate.
    Mr. Faleomavaega. Has the GAO made an approximate 
assessment of the needed funds that the Park Service would need 
in order to complete its----
    Mr. Barry Hill. We have not made a system wide estimate of 
the total expenses but I will say based on the work we have 
done at individual parks, we have seen the problem of 
backlogged maintenance at those parks.
    Mr. Faleomavaega. OK, the fact that now you have corrected 
the situation the $4 billion figure that we have was the figure 
developed by the National Park Service. Has GAO made an 
assessment or analysis of this $4 billion assessment?
    Mr. Fowler. We have not but we would like to do that work. 
I think that needs to be looked at.
    Mr. Faleomavaega. How soon do you think GAO might be able 
to be helpful to this Subcommittee by conducting this analysis 
or assessment? Well, you know, gentlemen, I am serious, it is 
very easy for us to be pointing fingers at the Park Service for 
whatever deficiencies that they may have but it would also be 
helpful, I am sure, to the members of the Subcommittee if we 
know whether or not this $4 billion is truly an accurate figure 
if the Congress is to look forward in authorizing and 
appropriating more funds for the Park Service to complete its 
assignment or whatever.
    Mr. Barry Hill. May I interject something here? I think you 
are raising a legitimate point in terms of the Park Service and 
the Congress needs to get a handle on just to what extent there 
is a problem with maintenance. In terms of funds that are 
available, I might point out that the Congress in the past five 
years have appropriated funds specifically for the resource 
information stewardship effort.
    So they may have a problem in terms of in their estimation 
of having sufficient funds to manage their backlog problem but 
I think it was the intent and the direction of the Congress in 
authorizing those additional funds that the greater level of 
effort be directed toward developing the scientific information 
needed to manage and provide stewardship over the resources.
    Mr. Faleomavaega. Has your recommendation included 
recommendations to the National Park Service on how to improve 
its ability to collect scientific data?
    Mr. Barry Hill. The recommendations we made to them back 
in, I believe it was in our '95 report, focused on the need for 
them to incorporate into their resource management plans more 
effort and more attention toward identifying the specific 
internal and external threats that parks are facing and in turn 
by using that information to get a better handle on the 
condition of the resources which would then allow them to 
better prioritize the limited funds they do have into the areas 
demanding and requiring the greatest attention.
    Mr. Faleomavaega. Thank you, Mr. Hill and Mr. Chairman, my 
time is up.
    Mr. Hansen. Thank you. The gentleman from Montana, Mr. 
Hill.
    Mr. Rick Hill. Thank you, Mr. Chairman. I just have one 
question: in your report you make reference to the lack of a 
benchmark that would help us determine whether the park is 
deteriorating or improving.
    Would you say that establishing a benchmark should be the 
priority if we are going to invest additional dollars on 
research? Is it your judgment that this effort should be a 
funding priority?
    Mr. Barry Hill. Your question is if additional funds were 
invested should it go there. I think a greater level of 
emphasis should be going there. To what extent that would 
require additional funds and how much that would be, I really 
cannot address. Our point is that there is not sufficient 
emphasis going into developing that baseline scientific data 
and information to really get a good handle on just what 
threats are being imposed upon the resources at parks, what are 
the conditions of our natural and cultural resources at the 
parks, which ones are being threatened, why are they being 
threatened, and what do we do about preserving and protecting 
them for future generations.
    Mr. Rick Hill. Thank you.
    Mr. Hansen. The gentlelady from the Virgin Islands.
    Mrs. Christian-Green. I have no questions at this time, Mr. 
Chairman. Thank you.
    Mr. Hansen. The gentlelady from Wyoming, Mrs. Cubin.
    Mrs. Cubin. Thank you, Mr. Chairman. I just have a few 
brief questions. Over the last seven years, I believe it is, 
the Congress has increased funding to the National Park Service 
by 69 percent. Yellowstone's share of that has been about 21 
percent approximately.
    Did you look in your study at how the funds were allocated 
to different park entities because some parks got a lot more 
obviously and usually it is the smaller parks and they need 
more. You cannot compare on a dollar for dollar basis, I 
understand that. But I just wondered if you looked at the 
allocations between the different park units.
    Mr. Barry Hill. We did not look at the relative parks.
    Mrs. Cubin. OK. Due to the good staff work of Subcommittee 
staff member, Mr. Hodapp, last year, he went to Yellowstone and 
looked at the books and brought back a study for us and then I 
went to Yellowstone, met with the superintendent and all of the 
heads of the different divisions over there and had a lot of 
questions answered.
    I am not making a judgment on this particular issue whether 
or not the Park Service was right because I discovered that I 
think if they are not right at least their actions were 
defensible. And the action I am talking about is we had 
appropriated money for certain services and the money was not 
used in the way we had instructed it to be used.
    And as I said when I questioned specifically about those 
issues, I did not agree but they were defensible. It was not my 
decision to make and so I did not think it was something I 
could scream about terribly a lot. But do you think that runs 
rampant through the Park Service, and if you do, do you think 
the Congress needs to do something about fixing that?
    Mr. Fowler. We run into that quite a bit. The park 
managers, park superintendents, are given a lot of discretion, 
intentionally so, by the Park Service on how they spend the 
money that flows down to the parks. And day to day, week to 
week they are making priority decisions on where to best spend 
that money to meet the goals of the park.
    They have a lot of things to balance and it is a tough job. 
As we have thought about that issue the gap seems to be not 
that they have a lot of discretion and sometimes do not spend 
the money where others think perhaps they should spend the 
money, but more making them accountable for how the money is 
spent.
    What are they doing with the money, what are we as 
taxpayers getting for the money that they are spending and 
holding them responsible for that. That is the piece to us that 
seems to be missing.
    I might say on that point a recent congressional initiative 
as we all know, I think, is the law called the GPRA, Government 
Performance Results Act. As that proceeds, and the Park Service 
is now implementing that as other Executive Branch agencies 
are, that is certainly a tool that will afford the opportunity 
to address this kind of thing. The nature of that legislation 
and what it is about is to hold agencies accountable for how 
the money is spent and more importantly what they are 
accomplishing with that money.
    And in the case of the Park Service it is going to flow 
down to the park level where most of the action occurs. So 
there is a tool there and there is potential there and in 
theory that could work.
    Mrs. Cubin. Thank you, Mr. Chairman, I have nothing 
further.
    Mr. Hansen. Thank you. The gentleman from Massachusetts.
    Mr. Delahunt. I have no questions, Mr. Chairman.
    Mr. Hansen. Thank you. The gentlelady from Washington, Mrs. 
Smith. The gentleman from Michigan, Mr. Kildee.
    Mr. Kildee. I have no questions, Mr. Chairman, thank you.
    Mr. Hansen. The gentleman from California, Mr. Radanovich, 
has no questions. Oh, I know the next gentleman will have a 
question. The gentleman from Minnesota, the distinguished 
gentleman is recognized for five minutes.
    Mr. Vento. I would not want to disappoint you, Mr. 
Chairman. I have not had a chance to read the entire GAO 
statement but a lot of the questions being asked by the GAO are 
based on some of the requests that we had previously made in 
past Congresses.
    I think it is very good a basis to talk about the need for 
information. The point is, in terms of the discretion of the 
Park Service, that the individual superintendent I think is a 
good thing that all of the decisions are being made in 
Washington as we look at increases.
    In the Park Service we have to recognize that some of that 
is earmarked money for various projects. And so there may be 
some units that receive more or less. I guess you would have to 
know what the assessment is. I think that there has been an 
outstanding request for information with regards to--on the 
Park Service information regarding the Alaska lands and the 
vast increase in terms of parks that occurred in Alaska, as an 
example, in terms of getting baseline data so that the Park 
Service and Congress could make assessments of the current 
situation as they move forward.
    Now the issues that are raised in places like the 
Everglades. We have a lot of crisis situations going on in 
terms of information gathering, don't we, Mr. Hill? We have a 
lot of crisis funding for information going on, for instance, 
in the Everglades or in the Dry Tortugas or in Alaska?
    Mr. Barry Hill. Yes, there have been a number of special 
appropriations made to those types of things, yes.
    Mr. Vento. And so that money has, I guess, generally been 
expended properly to get the baseline data. Do you have a 
separate--since you are talking about baseline data here and 
getting information on everything from biological to cultural 
to the other physical resources that make up these magnificent 
landscapes, did you come up with any type of a budget or any 
assessment? What is the Park Service's estimate for dollars 
they need to bring this information system up to speed?
    Mr. Fowler. I have not seen any such figures, sir. I do not 
have an estimate.
    Mr. Vento. Is that included in the $4 billion backlog?
    Mr. Fowler. No.
    Mr. Vento. It is not.
    Mr. Fowler. It is separate. That is a separate issue.
    Mr. Vento. The backlog really deals with certain capital 
projects and so forth, doesn't it?
    Mr. Fowler. It includes a lot of things.
    Mr. Vento. The Director is saying yes. Let the record show 
the Director is saying yes. In fact, almost half that backlog I 
think is roads or something.
    Mr. Fowler. I am sorry? Roads, a lot is roads.
    Mr. Vento. Rehabilitation and new construction.
    Mr. Fowler. Right.
    Mr. Vento. So I think it is important for the committee 
members that went back and worked on this backlog at one time, 
Mr. Chairman, if you recall, someone suggested it was $7 
billion. Part of it is for purchase of in holdings, I know 
something that is near and dear to our hearts, and filling out 
and purchasing those lands.
    But the information base, have you looked at this since the 
National Biological Survey or the Biological Research Division 
was instituted?
    Mr. Fowler. In terms of the impact they have had on this?
    Mr. Vento. Yes.
    Mr. Fowler. We have not.
    Mr. Vento. Because many of the questions raised in your 
testimony seem to indicate a biological focus which would 
obviously now be a responsibility that would flow to the 
Biological Research Division.
    Mr. Fowler. As I understand it, sir, it is the 
responsibility of the Park Service to do this with the advice 
and consultation from the people from Biological----
    Mr. Vento. I do not know, maybe they can describe that more 
fully. I would just make the observation, Mr. Chairman, that I 
do not know that the witnesses are going to come forth to talk 
about this, but of the land management agencies, in terms of 
those committed to science, the Park Service probably had the 
smallest corps before the Biological Resources Survey or 
Biological Survey was instituted.
    They have the smallest number of individuals. One of the 
issues here, of course, is in the preservation of landscapes 
you embrace a lot of different qualities in terms of fauna, 
flora, geologic and other features and cultural resources that 
make up these units.
    And the consequences, if you understood it all perfectly in 
preservation of that entire landscape is you hopefully embrace 
and protect most of it until you can further understand it. I 
suppose if we want to allocate a lot of dollars we could 
probably get--we need that baseline information but how far we 
go, I guess, is always an open question.
    I know you have got other witnesses, Mr. Chairman, and I 
know the focus today is apparently on Yellowstone which is one 
of our most magnificent units so let me just yield back the 
time. Thank you.
    Mr. Hansen. The gentleman from Nevada, Mr. Gibbons.
    Mr. Gibbons. Thank you, Mr. Chairman. I have just a couple 
of brief questions. I know not all parks have the same 
attendance. Did you look at attendance at individual parks and 
the rise or the change in attendance levels at parks when you 
did your assessment?
    Mr. Barry Hill. Yes. And here again I mentioned earlier I 
think the visitation figures are much debatable in terms of 
what figures are being used, what has been happening, but the 
specific parks we went to, I would say about two-thirds of them 
were experiencing increases. For example, for eight of the 12 
parks we went to during the '95 review eight of the 12 parks 
experienced increases. The average increase was about 26 
percent in those eight parks.
    It ranged up to 54 percent of an increase. Individual 
parks, some individual parks, are showing quite dramatic 
increases. For example, Mr. Hansen, the Arches National Park 
has become very popular with an increase of about 130 percent 
since 1985. So I think what you are finding is there are some 
very, very popular parks that have experienced some dramatic 
increases.
    Mr. Gibbons. Of course some new parks are also going to 
experience a dramatic increase in their visitation simply 
because they are new to the scene, aren't they? Great Basin 
National Park in Nevada. That has only been around for what, 
ten years? As soon as people find out about it the visitation 
numbers start rising. But not all parks are rising, are they?
    Mr. Fowler. No, sir, they are not.
    Mr. Gibbons. And the other one-third, what about the third 
we did not talk about?
    Mr. Fowler. The visitation has gone down.
    Mr. Gibbons. It has gone down? So overall across the board 
in America's park system, has visitation dramatically risen, 
stayed average, slightly decreased? What is your opinion?
    Mr. Fowler. According to Park Service figures that I have 
seen most recently it has pretty much stabilized in the last 
few years.
    Mr. Gibbons. So it has.
    Mr. Fowler. But there is difficulty with that figure and it 
has been a source of a lot of discussion and the Park Service 
constantly sort of revises its counting methodology and 
improves its counting methodology and revises the figures.
    Mr. Gibbons. It counts people who have gone into the park 
and not come out twice?
    Mr. Gibbons. Maybe, I do not know.
    Mr. Gibbons. When you look at rising population or rising 
attendance figures of national parks, did you compare the fees 
assessed for those parks with the needs of the park system 
based on the demand or the utilization of the park?
    Mr. Fowler. The entrance fees?
    Mr. Gibbons. Yes.
    Mr. Fowler. We had some numbers on those on what it would 
take, for example, to cover the operating costs of the park in 
terms of fees.
    Mr. Gibbons. Was there any relationship that you found in 
terms of the fees, were they adequate to sustain the operation 
of the park?
    Mr. Fowler. No sir.
    Mr. Gibbons. Is there any fee that would be adequate at 
this time that America would be settling or would be satisfied 
with to visit a park?
    Mr. Barry Hill. You would have to ask the Americans that. 
Certainly the Park Service is now experimenting in 100 parks 
with increased entrance fees, essentially doubling the fees. 
Whether that amount that they are charging is too much, not 
enough, we cannot say, but certainly for the next three years 
they will be experimenting with increased entrance fees and a 
portion of those fees would be staying within the park which is 
certainly different than has been happening in the past and 
that should really help them, I think, in terms of fulfilling 
some more of their needs but it will not cover the deficit.
    Mr. Gibbons. Thank you, Mr. Chairman.
    Mr. Hansen. Thank you. Regarding your last question, we are 
still working on park fee legislation. NPS was given the right 
to collect fees at a few select parks which they have done. I 
think it is a healthy step forward. I think we will have to 
come up with a park fee bill. I think it has got to be. I do 
not know how else we can avoid that.
    Mr. Hill, as I look at your testimony it just seems to come 
down that they need--the parks need this information and we 
just do not know the current condition of the parks. That seems 
to be the problem. We just do not seem to know where they are. 
And in the current year NPS has been allocated about $200 
million for resource stewardship, is that correct?
    Mr. Barry Hill. That is correct.
    Mr. Hansen. And I do not know if Congress has placed any 
limits on the expenditure of these fund. To me if I may 
respectfully say so it is a matter of priorities with the Park 
Service and they really have not made a priority of using it 
for that area, therefore, they probably do not know the 
condition of the parks.
    Now in relation to the gentleman from Minnesota he talked 
about the Biological Survey, doing reasearch in lieu of the 
NPS. Our studies indicate the Park Service is back filling 
themselves coming up with park people so they would have a 
better handle on this rather than having the Biological Survey 
do it. I personally have not seen the Biological Survey be a 
real successful situation and I think it was better when the 
National Park Service conducted their own research.
    Your testimony, and this is just kind of a statement on my 
part, but your testimony indicates the national park visitation 
has increased. Well, this comes right from the Park Service. 
Here is their own facts on this, their own figures, and you 
notice that in '88 was the high point, much higher than it is 
from '89 up through '95.
    Mr. Barry Hill. Mr. Chairman, and correct me, Cliff, if 
this is not correct, but I believe they made an adjustment to 
the way they calculate the visitation around that period so it 
really is difficult to say what the trend has been.
    Mr. Hansen. Would not it be a more correct statement to say 
that it has kind of flattened out over the last four or five 
years? Now here is the thing that bothers this committee. We 
see the amount of money going in increasing but we do not see 
visitation, I mean the lines do not go together. They do not 
parallel each other. One stays flat and the other goes up.
    On the other hand, as everyone has pointed out, we got some 
tremendous problems with the park. As the gentleman from 
Minnesota said, we do have a road problem. We have problems 
with in holdings. All these thing we have not squared away. A 
lot of that is the reason for this hearing so we can find out 
exactly the condition of the parks and where the money really 
ought to go. Do you agree with that?
    Mr. Barry Hill. I agree with that and I also point out that 
the work we have done has shown that since '85 there has been a 
real increase in their operations budget of 52 percent. That is 
adjusted after inflation. And certainly regardless of what 
figures you use visitation would not be keeping pace with that 
rate so I think your assessment in terms of the Congress has 
been providing additional funds compared to the increase in 
visitation is a correct one.
    Mr. Hansen. We are concerned about additional funds for the 
parks so we find ourselves in a situation where Mr. Kennedy, if 
we wanted to drill him, he could tell us all kind of horror 
stories and he could be right. It is the idea of using the 
money smarter, I guess, but we will get into that at another 
time and probably additional hearings.
    I notice that the gentlelady from Idaho has joined us. Does 
the gentlelady from Idaho have any questions for the witness?
    Mrs. Chenoweth. Thank you, Mr. Chairman, I have no 
questions.
    Mr. Hansen. Thank you. Thank you, Mr. Hill, gentlemen, we 
appreciate you being here. Oh, the gentleman from--hand on just 
a minute. The ranking member has another question.
    Mr. Faleomavaega. I just have one more question. And, Mr. 
Chairman, I do like to particularly note the presence of our 
distinguished friend and gentleman from Minnesota certainly 
having served as the Chairman for the Subcommittee for ten 
years I certainly trust and have a confidence in his opinion in 
our operations here of the Subcommittee.
    I do want to follow up on a question that was raised by the 
gentlelady from Wyoming, as well as the gentleman from 
Minnesota, and that is on the question of whether or not as a 
matter of public policy and law to continue the authorization 
of some 350 park superintendents, authorizing them the 
discretion of basically how to reprogram or reassess the 
priorities once the funding is given for the usage of that 
particular park.
    And I would like to ask Mr. Hill if that is still good 
public policy or do you wish to allow Washington to set the 
priorities. I think that seems to be one of the basic 
fundamental problems that some of the members have is that when 
money is given to that particular park the superintendent turns 
around and says, no, I have a different set of priorities 
because the circumstances have changed.
    Do you think we should continue to allow that policy to be 
in force, give discretion to the park superintendents and let 
us not hassle with it in terms of how he can best utilize the 
use of those funds for that park?
    Mr. Barry Hill. I will not totally agree with that. I do 
believe that the park supervisors--we have to allow the park 
supervisors to manage the parks. They know their park better 
than anybody. They know what the needs are and what the daily 
challenges and demands that they face.
    What we are concerned about is the lack of accountability 
in terms of the park supervisor reporting back how he is 
managing that park, and let me give you an example. The $200 
million that has been authorized for the past few--on a yearly 
basis for the past few years to do the resource stewardship 
work, when that gets translated down to the park level those 
funds are intermingled with other park resources. They are not 
kept separate.
    We cannot track just to what extent those resources which 
the Congress intended to go toward the resource stewardship 
area, how much of that is actually going there and how much is 
being used for other demands that the park supervisor is facing 
on a daily basis. So we would like to see a little more 
accountability in the process.
    I think the Park Service supervisors need to manage the 
parks but they have to be accountable to how they are managing 
it and report that back both to the Washington Park Service 
headquarters, as well as to the Congress.
    Mr. Faleomavaega. Do you think it might be more practical 
that perhaps by executive order for the Secretary of Interior 
to do it or do you need legislation from the Congress to do the 
very thing that you suggest? I mean point well taken.
    Mr. Barry Hill. I think there has been plenty of 
legislation and Mr. Fowler mentioned earlier the GPRA 
requirements which will certainly strengthen that, the chief 
financial officer's requirements that supposedly will 
strengthen the financial management and accounting systems.
    There has been plenty of legislation passed. I think what 
is needed now is some additional oversight and some attention 
being directed----
    Mr. Faleomavaega. So in your best opinion we have 350 
little kingdoms going around the country without any 
accountability, neither to the Congress nor to the people. Is 
that your basic assessment?
    Mr. Barry Hill. I would not call them kingdoms but I would 
certainly like to see like strength in accountability being 
exercised throughout the system.
    Mr. Vento. If the gentleman would yield.
    Mr. Faleomavaega. I gladly yield to the gentleman.
    Mr. Vento. Mr. Chairman, with your indulgence I would just 
suggest that the process of reassessment and levying, taking 
money back by the Director has not been unknown in the Park 
Service. Finding a balance between the on-the-ground hands-on 
superintendent and the role in terms of public policy here is a 
very big task.
    I am certain that whether it is in Minnesota or California 
or Utah that the superintendent has to have some responsibility 
on the ground. This balance is one that I would suggest you pay 
a lot of attention to because it gets into concessions and a 
lot of other activities.
    Furthermore, of course, the issue here is one of 
collaboration in terms of collecting this data. We have had--
this is not the only thing. It was not just the National 
Biological Survey, now the Biological Resource Division, that 
had responsibility for a certain sector of science. It is also 
that the Park Service itself reorganized how they do the 
science so that they do not have a scientist in the park but 
they have a cluster of scientists that serve because of the 
greater degrees required.
    And the other aspect was that we passed legislation dealing 
with the cooperative research program so that the Park Service 
now is working with universities across the country, including 
some in Minnesota, and I am sure some in your States. Montana, 
I am certain, would have a big responsibility with the Forest 
Service and the Park Service.
    And so the whole issue of this data collection and baseline 
data is a collaborative one with the States. We all get into 
our fixation about the feds and the confrontation but there is 
a lot more collaboration here and there probably needs to be 
even more.
    As we know, the Park Service does not manage the fish and 
game within the State. They do within the parks supposedly but 
not within the State. That is something the States zealously 
guard and have done a pretty good job with it. I just wanted to 
add that. Other than this if you look at these reports a lot of 
the responsibilities of these parks are not longer de facto. 
They are cutting right up to the borders of them.
    We have got external threats. The reports that the GAO did 
pointed out that the leading number of threats are external 
threats to the park. The activities going on, the dams that are 
being built, the cultivation that is going on, the pesticides 
that are being used, all of this of course is dramatically 
impacting the parks.
    You need more than simply to do research on it. Of course, 
the whole supposition here as you get information is that you 
are going to do something with it. I think that most of us 
probably have sort of a pause in terms of trans-boundary types 
of activities in terms of what the parks are going to do with 
it.
    We could all ask for more information but the question is 
are we going to act on that information. We are going to get it 
but what are we going to do about it when we get it.
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    Mr. Hansen. I appreciate the gentleman's comments. The time 
of the gentleman is up. Let me point out to the members of the 
committee that we are going to go out of this room in two hours 
and five minutes and we have got three panels ahead of us and 
we are out and another group is in. It is really warm in here. 
Take your coats off, it will make you more comfortable. For 
some reason it is really heated up in Washington today.
    Thank you, Mr. Hill, gentlemen. We appreciate so much your 
being with us. We will ask our next panel: Dr. David 
Policansky, Associate Director, National Research Council; Mr. 
Paul C. Pritchard, President, National Parks and Conservation 
Association; and Dr. Robert M. Linn, Executive Director, The 
George Wright Society, if you gentlemen would please come up. 
Paul, if it is OK with you, we will start with you and go 
across, is that all right?
    Mr. Pritchard. Yes, sir. Thank you very much.
    Mr. Hansen. Everybody knows the rules. Five minutes. Does 
anybody have a strong objection to that? Hearing nothing, we 
will accept the five minutes as the time period. Mr. Pritchard, 
again thanks for being with us. We will turn the time to you, 
sir.

 STATEMENT OF PAUL C. PRITCHARD, PRESIDENT, NATIONAL PARKS AND 
                    CONSERVATION ASSOCIATION

    Mr. Pritchard. Thank you, Mr. Chairman. Let me begin by 
saying how much I appreciate the leadership that you and Mr. 
Vento have long shown on this issue. If the committee and all 
the people who are here and all of us who have been concerned 
about this issue are not aware of it, you both have shown a 
continuing commitment and concern about the need for science, 
and the National Parks and Conservation Association is aware of 
that and appreciates this particular role of leadership that 
you have shown.
    I represent 500,000 private citizens. We do not seek, we do 
not accept government funds. We are a private citizen group 
that was founded in 1919 to preserve the National Park System 
and we are proud of that legacy. And one of our original goals 
in 1919 was to thoroughly study the national parks and to make 
known to the public the information gained from the national 
parks.
    Mr. Chairman, I would like to submit my testimony for the 
record and an appendix in detail so I would just summarize that 
testimony.
    Mr. Hansen. Without objection.
    Mr. Pritchard. Thank you, sir. Over the past 35 years there 
have been 15 studies that have been dealing with this issue. 
Two of them funded by my association largely have dealt with 
the issue of what we need to properly manage the National Park 
System. The most important, I think, the most recent one for us 
was in 1989. The Chair of the Yale School of Forestry, I wish 
it would have been Brigham Young or one of the more western 
schools, but Yale was the school renowned in forestry and Dr. 
John Gordon chaired that.
    And in that report which was very well done by a cross 
section of historians, naturalists, all sorts of talents, they 
came to a simple conclusion which I would like to suggest to 
you today is paramount in your deliberation. And that is you 
cannot manage what you do not understand. The Park Service does 
not have the capacity today to manage what it does not 
understand.
    That study was followed up by another study which you will 
hear about in a few minutes, a study which paralleled the 
recommendations from the Gordon Commission. In 1996 the Park 
Service looked at the impact of having transferred its 
scientists to the National Biological Survey. I would just like 
to summarize one conclusion from the Park Service's own study.
    That conclusion was that managers before the transfer were 
likely to have interface with scientific information in over 32 
percent of the research decisions that they make with the 
scientific community. Today they have less than 11 percent of 
an opportunity to have any scientific input into management 
decisions, a drop from 32 percent to 11 percent in just a 
matter of a few years, and the details of that study are 
further pointed out.
    Mr. Chairman, we believe that legislation which is outlined 
on page two of my testimony and in detail would clearly show 
that this would be beneficial and must be established for the 
Park Service; that it will help avoid conflict; it will save a 
great deal of money, now wasted dollars; and that it will give 
the sense to the public that there is proper management being 
carried out in the national parks.
    I would like to specifically refer you all to that page two 
because there are six points there which we would suggest, but 
they basically are highlighted, that we need a scientific 
mandate, that we need a science management program, that we 
need to have scientists used for decisionmaking in the Park 
Service, that the public has a right to know that information, 
that we need to have a continuing budget.
    These are the recommendations that we would make to this 
committee. And every park that we are talking about here today, 
you have talked about the Everglades and the death of the 
Florida Bay. Critical issues needing study. You have talked 
about your home State and the problems just across the border 
in Death Valley.
    I was there. We have a terrible problem with the water 
supply and the regime flowing into Death Valley from Nevada. We 
need to know what is happening there. We need to know in a 
number of other parks information on clean air. We did a study 
on the status of global warming. We found that 49 of the 54 
units of the National Park System are threatened by global 
warming.
    This study was done by NPCA in cooperation with the Climate 
Institute. There is no research that we know of that is going 
on in the Park Service that can clearly help us plan for this 
very significant and disturbing conclusion that was found by 
the scientists who worked on this study.
    And finally in Yellowstone. Over 1,000 of the bison have 
died, yet the Park Service's own study, which we understand is 
coming out, says there is no overpopulation of bison in 
Yellowstone and yet 1,000 bison have been killed, slaughtered 
or have died for no logically scientifically based reason. 
There is no scientific documentation that brucellosis is 
transferred to cattle in the wild.
    We need to know the answers to this and that is what the 
American people deserve. Mr. Chairman, we believe that there is 
bipartisan support for this, there is conservation support for 
this. The academic, the research institutions, the American 
people would support the leadership of the committee in 
carrying out this mandate.
    Without this, this crisis that exists in the National Park 
Service will continue because the Park Service cannot manage 
what it does not understand. Thank you, Mr. Chairman.
    [Statement of Mr. Pritchard may be found at end of 
hearing.]
    Mr. Hansen. Thank you, Mr. Pritchard. Dr. Policansky. I 
hope I pronounced that right.
    Mr. Policansky. Yes, sir.
    Mr. Hansen. We will turn the time to you, sir.

  STATEMENT OF DAVID POLICANSKY, ASSOCIATE DIRECTOR, NATIONAL 
                        RESEARCH COUNCIL

    Mr. Policansky. Chairman Hansen, and members of the 
Subcommittee. I am David Policansky. I am the Associate 
Director of the Board on Environmental Studies and Toxicology 
at the National Research Council. Your name tag gives me way 
too much credit. And the National Research Council, as you all 
know, is a private nonprofit organization which is the 
operating arm of the National Academies of Sciences and 
Engineering and the Institute of Medicine.
    I have testimony on the report that the National Research 
Council prepared ``Science and the National Parks,'' which was 
published in 1992. Copies of the report are available to you. I 
will briefly summarize the testimony and ask that this be put 
in the record.
    Mr. Hansen. Without objection.
    Mr. Policansky. And I would just remind you that the study 
was done in the early 1990's before many of the researches at 
the National Park Service were transferred to the National 
Biological Service. Many people this morning have talked about 
the need for science and research in the national parks so I 
will not spend more time on that.
    I will tell you that the National Research Committee 
concluded that there was not a clearly defined science program 
at the National Park Service. It was combined with the resource 
management program and other aspects of the management of the 
parks and so it was not separate. And this lack of a defined 
science program hampered research planning, tracking of 
expenditures and accountability for results.
    The lack of formal structure and clear NPS leadership also 
made assessing the program difficult. The National Research 
Council committee spent much time deliberating on appropriate 
recommendations, recognizing that so many reports had made 
recommendations before without any significant changes.
    One particular problem was controversial to the committee 
as it had been in the past and that was the question of whether 
the leadership of the Park Service's science program should be 
centralized or decentralized. The committee came down on the 
side of more centralization because the decentralized approach 
is often inefficient and because, as Mr. Pritchard has just 
alluded to in an example of this, many scientific challenges 
have a broader scope than individual parks or even in the whole 
NPS individual region.
    The committee made three major recommendations. The first 
was that there be an explicit legislative mandate for a 
research mission. Others have said this many times and it seems 
clear that without it, it is going to be difficult to get an 
adequate scientific basis in the National Park Service for 
science.
    The committee made this recommendation to eliminate once 
and for all any ambiguity in the scientific responsibilities of 
the Park Service. In addition to needing this for understanding 
the parks themselves, the national parks because of their 
relative lack of human disturbance and long-term protection 
provide excellent opportunities for scientific research.
    Thus, the committee recommended an approach that included 
what it called ``science for the parks'' and ``the parks for 
science.'' Science for the parks is what a lot of people have 
been talking about here today, what science do we need to 
understand and manage the properties in the National Park 
Service.
    The parks for science was using the national parks as 
wonderful, undisturbed laboratories to answer broader and 
longer term scientific questions that are puzzling the 
community and the globe, and our committee felt that this was a 
very important opportunity that was essential to take advantage 
of.
    The second recommendation was that the science program 
should have separate funding and reporting autonomy. The Park 
Service should elevate and give substantial budgetary autonomy 
to its science program. This should include both research 
planning and the resources needed to conduct a comprehensive 
program of both natural and social science research. The 
program should be led by someone who really understands 
science.
    And the third recommendation was that the credibility and 
quality control of the science program both need enhancement. 
To achieve this, the committee recommended that the Park 
Service elevate and reinvigorate the position of chief 
scientist. The incumbent should be a scientist of high stature 
in the scientific community and the sole responsibility of that 
position should be the administration and leadership of the 
science program. This should not just be one of many duties of 
the individual.
    The committee also recommended that the Park Service in 
cooperation with other agencies establish a competitive grants 
program in order to encourage more external, i.e., non-Park 
Service scientists to do research in national parks. And, 
finally, the committee recommended that the Park Service 
establish a high-level scientific advisory board to provide 
long-term guidance in planning, evaluating, and setting policy 
for the science program.
    The parks are national treasures. As the report pointed 
out, pressures on the parks are increasing even if not 
necessarily visitation. It would be a waste of a unique 
resource not to use the parks with the proper safeguards to 
help understand and address the scientific challenges faced 
throughout the biosphere. Thank you, Mr. Chairman, and members 
of the Subcommittee.
    [Statement of Mr. Policansky may be found at end of 
hearing.]
    Mr. Hansen. Thank you, Doctor. Dr. Linn.

  STATEMENT OF ROBERT M. LINN, EXECUTIVE DIRECTOR, THE GEORGE 
                         WRIGHT SOCIETY

    Mr. Linn. Thank you, Mr. Chairman. We have already covered 
the fact, I guess, that the values of parks are outstanding and 
must be somehow preserved in perpetuity. If we really expect 
the Park Service to maintain these values in perpetuity, the 
Park Service must be given the tools and abilities needed for 
the job. At a bare minimum, the Service should have the 
authorization to carry out or obtain research needed for 
protection in perpetuity of lands and objects and funding 
needed to do that.
    Now one of the subjects I wanted to cover, perpetuitous 
research, was done in the 1950's and the 1960's in Sequoia 
National Park. It was proven by several researchers that the 
putting out of low ground fires in Sequoia National Park would 
be responsible for the eventual disappearance of the Giant 
Sequoias and that was just perpetuitous research. I do not know 
if it had not been done at the time or whether it has been done 
since.
    There are a number of things like that and it is 
unfortunate. We have been seeing these things in various kinds 
of words and reports for years. I think it is just simply time 
we get down to making it work. I sincerely recommend that there 
be an explicit legislative mandate for the National Park 
Service to perform or obtain somehow necessary research to 
carry out its Organic Act mandate, and supplying the National 
Park Service with sufficient funds to carry out or contract for 
required research.
    And, three, supporting the USGS Biological Resources 
Division in its important mission of strategic research in 
cooperative activities with the National Park Service. That is 
the end of my statement, Mr. Chairman.
    [Statement of Mr. Linn may be found at end of hearing.]
    Mr. Hansen. Do you need another minute?
    Mr. Linn. Pardon me?
    Mr. Hansen. Did you need some more time?
    Mr. Linn. No, I do not. I think everything has been said 
that I wanted to say.
    Mr. Hansen. Thank you very much. The gentleman from 
American Samoa. You are recognized for five minutes.
    Mr. Faleomavaega. Thank you, Mr. Chairman. Mr. Pritchard, I 
have heard every word you mentioned earlier about the National 
Park Service cannot manage what it does not understand, and I 
am sure you have a wealth of experience in dealing with these 
issues, and I noted in your statement that this has been an 
ongoing effort on the part of your council and the association.
    It seems to give me a sense that the committee has not been 
listening to your recommendations or am I correct that the 
committee has taken seriously some of your recommendations and 
have in effect enacted legislation to accommodate those 
concerns that the council has advocated for all these years?
    Mr. Pritchard. Congressman, I would say that we always want 
more than what we get from the committee. That is the very 
nature of our business and we understand that. I think the 
commitment of the committee in the 1980's was to focus on this 
issue and in particular our call for greater commitment to not 
the physical capital in the parks, we find these numbers to be 
elusive, never have been documented, and so we would raise the 
question to the committee, what is this $4 billion, $5 billion. 
We have no idea what it is.
    What we are concerned, sir, is for the intellectual capital 
of the National Park System. The scientists, the interpreters, 
the resource managers, that is the crisis in the national 
parks. And we would suggest that unless there is a health and 
safety issue that this Congress not spend one more dollar on 
the infrastructure of the National Park System until you have 
the proper science and until you have the talent in there, the 
three fields that the Park Service represent. We feel very 
strongly about that and we think that would lead to good public 
policy.
    Mr. Faleomavaega. So it is your honest opinion on behalf of 
the 500,000 citizens, good citizens of our country that 
represents the council that the scientists, if we have any in 
the national parks, you are seriously questioning the fact that 
they can adequately do the job that you are suggesting here?
    Mr. Pritchard. Yes, sir, I do--I am sorry.
    Mr. Faleomavaega. You are suggesting that the NPS just does 
not have the scientific caliber that you feel they ought to 
have to provide the scientific data that the Park Service 
seriously needs in order to carry out its functions.
    Mr. Pritchard. Yes, sir. What happened, I think, was a move 
in the right direction after the Gordon Commission and the 
National Research Council's report, and the Park Service began 
to build a scientific staff. When the Park Service staff were 
transferred to the National Biological Survey we saw the end of 
a fledgling program that really had never existed since George 
Wright tried to make it happen back in the 1930's.
    We would argue that it is time to carry out this 
legislative mandate that all three of us have called for and 
decreed a clear mandate that no decision be made in the Park 
Service without well-documented science.
    Mr. Faleomavaega. You are also suggesting that the Congress 
should establish an independent research division or arm within 
the National Park Service? I am not clear on your suggestion 
here. Independent in the sense that it should be on its own and 
not be subject to any supervision or administration of the Park 
Service or what do you suggest?
    Mr. Pritchard. No, sir. Our recommendation is that you have 
the chief scientist which you had in the past and that that 
scientist report directly to the Director of the National Park 
Service, and that that person be accountable in an annual 
report which I referred to in my testimony on how well the Park 
Service is using science to make the decisions so that you, the 
members of the committee, know that these dollars are being 
properly invested.
    Mr. Faleomavaega. How do we go about in the selection 
process that you know that these scientists are not only of the 
caliber of their expertise but are not taken or prejudiced by 
the politicians or even by the bureaucrats, to suggest that 
these people are simply going to do the instructions or, you 
know, the kind of pressure that says, hey, I want you to bend 
this way.
    It is just like a computer, garbage in and garbage out. I 
am not suggesting our scientists are a bunch of garbage but I 
am suggesting how would you go about selecting a panel of 
scientific persons that the Congress as well as the 
Administration can feel comfortable that they truly will work 
and act as an independent group giving objective and truthful 
scientific information and data that is needed?
    Mr. Pritchard. It is a crucial question you ask. We 
recommend several solutions. First of all, another part of the 
problem--I spoke with the Dean of one of the prominent research 
park study programs in the country. He said you also have to 
worry about today calcification just of knowledge, that many 
scientists you might hire are not going to be able to keep up 
on things.
    I believe the universities can offer tremendous asset. I 
believe they should be engaged. I believe also the private 
sector should be. It must be an advisory council that oversees 
this process. And, finally, I think that we should have an 
annual report and all those decisions that are made should be 
well documented before they are made.
    I think the problems we have at Yellowstone today are 
because we have not had that process in place so I am in full 
agreement with the direction of your questions and I hope I 
have given you some thoughts on how we would resolve it.
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    Mr. Hansen. Thank you. The gentleman from Montana.
    Mr. Rick Hill. Thank you, Mr. Chairman. Mr. Policansky.
    Mr. Policansky. Yes, sir.
    Mr. Rick Hill. You made some reference to Yellowstone Park 
in your testimony and in your answer, and I would just like to 
probe that whole area a little more since I represent Montana. 
In your testimony you make reference, and in fact the 
statements says one-third of Yellowstone National Park's 
buffalo have been sacrificed because the National Park Service, 
the U.S. Department of Agriculture and the State of Montana----
    Mr. Policansky. Excuse me, sir. I think that you are 
confusing my testimony with somebody else's.
    Mr. Rick Hill. I am sorry. Mr. Pritchard. I apologize.
    Mr. Policansky. I would be happy to have him answer though.
    Mr. Rick Hill. I apologize. Well, refused to base the 
management on facts. I will finish my question. What facts have 
the National Park Service and the State of Montana refused to 
recognize in your opinion?
    Mr. Pritchard. Sir, you are asking me that question. A 
number of facts. First of all, we have no winter use plan. The 
governor has called for it. We believe there should be a winter 
use plan. I think that is a very important missing link. 
Secondly, I think the relationship of the bison and the snow 
grooming and the trails are a very important issue that has not 
been fully understood, and that is what is causing a lot of the 
conflict with the private property owners.
    Thirdly, the whole scientific issue which is not the Park 
Service's responsibility, the APHIS issue though is one that 
must be looked at. I think this is a very confused and 
nonscientific slaughter that is occurring today, sir, and I 
think it is a disgrace. So I would be happy to go on but those 
are the key facts.
    Mr. Rick Hill. Yesterday Mary Meagher, who has studied the 
bison for 38 years, basically said that what has occurred will 
ensure the herds' future. The drop in numbers exactly is what 
the system needs, she said. About half of Yellowstone's bison 
herd has been decimated so far. There is no cause for any fear 
of immediate extinction of the animals.
    And she went on to basically support the fact that the 
bison herd needs to be managed to a level of less than 2,000. 
Would you agree with her comments or disagree with those 
comments?
    Mr. Pritchard. Dr. Meagher and I have talked several 
weekends in a row. I find her opinion very important. I think 
it is a shame that she is not able to be more involved in the 
day to day management decisions. I am not a scientist. I am not 
going to suggest to you that her opinion is right or wrong. I 
think there are other scientific opinions.
    For example, the interior herd has not been studied and the 
death right there is phenomenal. We have no idea what is 
causing it and we have no way of solving the problem. The 
assumption, Congressman, that we can leave nature to itself to 
manage itself today is foolhardy. I think we all realize that 
mankind has had such significant intrusion in the natural parks 
that we need to have more science and that is simply all we are 
asking for.
    But one scientist does not make a valid decision or 
opinion. And what has happened is we have far exceeded the 
level of death of that herd that she even agreed to so even 
within those numbers we are still going to see that number drop 
well below the 2,000 level.
    Mr. Rick Hill. Thank you, Mr. Chairman.
    Ms. Christian-Green. Thank you, Mr. Chairman. I do not have 
a question but I want to thank the witnesses for their 
testimony. I commend all of you for your steadfastness to a 
mission and for coming in today to reiterate recommendations 
that have been made time and time again.
    And I would like to highlight the fact that in your report, 
Mr. Pritchard, you point out 15 recommendations that were made 
in 1988 and repeated in 1992. And of those 15 recommendations 
three had some action. One actually became worse, and 11 of 
those 15 no action was taken and I hope that we can change that 
with this Subcommittee.
    Mr. Pritchard. May I respond, Doctor? Well, first of all, 
let me--I am very pleased, may I say that you have an excellent 
opportunity in the Virgin Islands, some of the most leading 
researchers in the whole issue of the very important park 
system you have there. And I hope that we can get them the 
resources to properly not only learn from the Virgin Islands 
but also transfer that to the other islands.
    And I am glad that you are part of this committee 
especially with your personal background in this area. So thank 
you for being so attentive to that issue.
    Ms. Christian-Green. Thank you.
    Mr. Policansky. May I make a brief response? I would just 
like to point out, and thank you for your comments, that in the 
Natural Research Council's report it identified several 
researchers at the National Park Service that are considered to 
be outstanding national class researchers.
    And so based on the way the Park Service was in 1992 
certainly there was a nucleus to be built on. It did point out 
that the Park Service had a smaller proportion of its staff in 
research than other land management agencies, only being about 
2 percent compared with about 8 or 9 or 10 percent for others. 
But it was not that there were not outstanding individuals in 
the Park Service. There were.
    Mr. Hansen. The gentlelady from Wyoming.
    Mrs. Cubin. Thank you, Mr. Chairman. I am going to address 
Mr. Pritchard first. I represent the State of Wyoming. We have, 
as you know, about 90 percent of Yellowstone National Park in 
our State. And I want you to know that I agree with you, with 
all three of you, much, much more than I disagree with you. But 
there are a few points that I would like to clarify.
    You stated earlier that the National Park Service manages 
the wildlife within the park while the States manage the 
wildlife outside the park. Now where did you get that 
information, and the only reason I am asking that is because in 
Yellowstone the management of the bison has been called natural 
regulation which is nothing more than letting nature taking its 
course.
    And while I think it appeared from your testimony you 
thought that or think that the brucellosis problem is the only 
one that comes into play with those bison leaving the park, I 
would submit that there is a lot bigger problem than that and 
that is overpopulation. And I do not know if you have ever seen 
a starving animal but I have seen those buffalo and they are 
starving. They have been starving for months.
    And there just is not enough resource there to sustain that 
many buffalo, that many bison, in the park. So I just wondered 
if that was in statute or what, where you came up with that 
that the National Park Service manages all of the wildlife 
within the park, and would you consider natural regulation 
managing wildlife?
    Mr. Pritchard. If I may, I would like to go to the second 
question first. I do not believe natural regulation makes sense 
today and so I agree and I think we have terrible problems that 
we have not even addressed with the elk and truly probably, I 
am not a scientist, but I assume with overpopulation. And I 
think that is an issue which I would like to see the Park 
Service look quickly at.
    Regarding the bison themselves, the Park Service has done 
some research. I hope it will be divulged today but their 
feelings are that the bison are not overpopulating the 
resource. That is what we have been told. We look forward to 
seeing that study so you may wish to ask the Park Service and 
possibly I was told incorrectly.
    Regarding the issue of who manages wildlife in the national 
parks, of course it depends on the legislation that the 
Congress passes. In many park units it is in fact the State 
wildlife agency that does, for example, in Alaska. We believe 
the Park Service should be responsible for it and Yellowstone 
is responsible for the wildlife there.
    But I think the Chairman's introductory comments were very 
important and that is the lack of real understanding of the 
wildlife regimes, the ecosystems, the lack of monitoring that 
information in the National Park System. And so really what it 
comes down to is the opinion of those who are in the park and I 
think that is an unfortunate assumption based upon that natural 
regulation which was based upon a commission many years ago 
that that was the way it was best to leave them be. I do not 
believe we can go forward with that theory.
    Let me also commend Wyoming. I think your approach to 
brucellosis makes a lot of sense. As a cattle rancher myself 
having grown up in that family knowing some, Bill Resor, and 
others in the Jackson area, I have talked to them also, Wyoming 
has a logical approach.
    I wish that APHIS would recognize that in Montana also. I 
think we could have solved this problem. And we as an 
association even offered to pay for the inoculation in Montana, 
so we have been trying to find solutions.
    Mrs Cubin. Unfortunately, I do not know if you are aware, 
the State of Alabama put a quarantine on any cattle from 
Wyoming today or the announcement was today, which is kind of 
ironic when Wyoming is brucellosis free and Alabama is not 
brucellosis free, but they have not accepted or given credit to 
the efforts that we have made in inoculating the elk and our 
program has proven that it really does work.
    Mr. Pritchard. May I just add, I think that that points out 
what I said earlier and that is that I think the Yellowstone 
brucellosis issue is one of the most confusing unscientific 
actions that has ever been perpetrated on the wildlife in the 
national parks and on the American people and I think it is a 
shame.
    Mrs. Cubin. Well, I have to take up for the State of 
Montana here because the State of Montana is caught right in 
the middle of two Federal agencies and on the one hand, well, 
they are damned if they do and they are damned if they do not. 
And I am anxious to--I hope I am here when the superintendent 
of the Park Service comes up because I feel a great 
responsibility for those 1,000 bison that have been killed but 
I understand that we have to respect private property rights 
and that when you are caught between two agencies of the 
Federal Government you are just in a real tough situation. And 
I hope that the Park Service can feel some sense of 
responsibility about that too. Thank you.
    Mr. Hansen. The gentleman from Massachusetts.
    Mr. Delahunt. Thank you, Mr. Chairman. And just briefly I 
would provide some geographical balance here. It is interesting 
to hear about Yellowstone and the issues of the bison. However, 
I would be interested, and I direct this to Mr. Pritchard and 
other members of the panel, in terms of the science and 
resource management as it relates to our national parks, would 
you or any of you, for that matter, have any observations or 
comments how it relates to parks such as the National Seashore 
Park on Cape Cod and in terms of our new initiative back in 
Massachusetts, the Boston Harbor Islands initiative.
    Mr. Policansky. Mr. Delahunt, our report mentions the Cape 
Cod National Seashore as an example where science was 
successful at helping bring a reasonable resolution to the 
question of off-road vehicles, protection of beaches, and other 
such examples, and that is an example that I think the Park 
Service should be pleased with.
    There are other examples both of successful application of 
science and areas where more science is needed in the east. 
But, as you know, sir, most of the properties in terms of the 
land area are in the west so the number and scale of problems 
are larger in the west for that reason.
    Mr. Pritchard. May I add, sir, that one of our 
recommendations is the tremendous need for more science 
regarding cultural resources which of course is the backbone of 
all the parks nationwide, every park. Cape Krustenstern on the 
western shore of Alaska all the way to the great seashores and 
all the historic sites to the Virgin Islands and Salt River 
Bay. The whole system, there is very little knowledge about the 
cultural resources.
    It was not until Mr. Vento and the committee several years 
ago called this in the case of the Park Service that we finally 
had an inventory of--just a basic inventory of--the cultural 
resources in the National Park System. That has been done in 
the last ten years. Before that, you could literally walk into 
a building across the street, the U.S. train station when it 
was under the Park Service, and walk into rooms that were not 
locked and pick up artifacts from Abraham Lincoln.
    This is woefully and inadequately a crying need in the 
National Park System. It begins with inventories and it begins 
with dealing with cultural resources as much as it does natural 
resources.
    Mr. Delahunt. In my own experience with the National 
Seashore, the National Park Service has done an extremely good 
job of identifying historic and cultural artifacts and points 
of interest in terms of at least that particular entity.
    Mr. Policansky. Let me just mention another example, if I 
may, sir. The Cape Hatteras National Seashore, the Cape 
Hatteras lighthouse, was and is facing risk from being washed 
into the sea and you from Massachusetts are familiar with that 
with the older lighthouses, particularly Great Point on 
Nantucket.
    The Park Service did what I think it should have done. It 
sought scientific advice, actually came to the National 
Research Council, and we recommended that the lighthouse be 
moved. Now that hasn't happened. I am not convinced that that 
was the Park Service's fault, but at least there is another 
example where they did use science in identifying both the 
natural and the cultural resources and how to manage them.
    Mr. Delahunt. I think that also happened twice on Cape Cod 
in terms of Nauset Light and Highland Light.
    Mr. Policansky. Highland Light was moved. Cape Poge was 
moved. Many of them up there.
    Mr. Delahunt. Very good. Thank you.
    Mr. Hansen. The lady from Idaho.
    Mrs. Chenoweth. Thank you, Mr. Chairman. I join the lady 
from Wyoming. I appreciate your statements. I do have some 
questions though that appear to be--well, I think maybe I just 
better ask because I need more information. Mr. Pritchard, in 
your testimony you talk about the cultural resources in the 
southwest portion of our country being damaged by the Park 
Service and so therefore we need more science and an 
investigation into this. What has the damage been?
    Mr. Pritchard. I am sorry if my testimony suggested there 
has been damage by the Park Service. I certainly did not mean 
to say that. What has happened is the damage has occurred by 
the lack of the money, the funds to do the research to 
understand the proper mortar, to do the maintenance on those 
structures, and the Park Service has initiated a program in 
that area to deal with those.
    Those cultural resources depend on having a year round 
staff of technicians who largely come from the pueblos and the 
communities and many of them are retiring or leaving the Park 
Service. And so this is a good example and a good question that 
you ask because the need is to train the next generation of 
individuals who will maintain those structures, who will 
understand the very delicate nature of those structures, will 
use the right implements, the tools, the mortar, all those 
various items.
    It is a very fine art and one in which the Park Service 
cannot skip a generation. It must continue to have that 
knowledge. And without that it will be lost forever.
    Mrs. Chenoweth. You may want to make a correction for the 
record to your testimony. It is on page nine. But specifically 
what has been the damage that has occurred to these prehistoric 
places?
    Mr. Pritchard. Well, this is--may I ask just for a second?
    Mrs. Chenoweth. Is this on my time, Mr. Chairman?
    Mr. Pritchard. Fortunately for me I have a very competent 
staff and they suggest that in fact there is no need for us to 
amend our testimony, that in fact in the excavation of the 
archaeological resources there was damage done, that the 
damages that were done were in part felt to have been done 
because of improper excavation procedures. And so that is the 
reason why the term ``damage'' is referred to here.
    Mrs. Chenoweth. By the Park Service, right? The Park 
Service did the excavation?
    Mr. Pritchard. Yes. In some cases these are done by 
contractors working for the Park Service under supervision of 
the Park Service. I would say this is a minor--as far as I am 
aware in my 25 years of working with the Park Service, I think 
the issue is one which as I said before the Park Service is 
very concerned about the preservation of the vanishing 
treasures. The excavation is a major problem because of the 
lack of tutorial facilities for the restoration and the 
maintenance of that.
    Mrs. Chenoweth. And was this just one incident with regard 
to excavation?
    Mr. Pritchard. We would be happy to come back to you with 
documentation on other incidents.
    Mrs. Chenoweth. Would you. Also on page nine of your 
testimony you talk about the fact that the basic research on 
areas in Death Valley with regards to the area's hydrology has 
not been done and if landowners and park lovers are at odds 
over the allocation of water in the area that there is little 
that we can do to resolve the conflict unless we have more 
baseline information.
    Does not the Department of Water Resources in California 
have very well-qualified hydrologists who have studied the 
groundwater if there is much in California, and in Death Valley 
how many adjacent landowners live in Death Valley to compete 
for the scarce resource, the water? How much development is 
going on in Death Valley?
    Mr. Pritchard. It is a very good question. There is no 
development in Death Valley. Of course, it is a park that 
straddles the State line. The water issue is largely to the 
northwest of Las Vegas and a very important aquifer that is 
being sought for water for the tremendous growth that is 
threatening in the Las Vegas area.
    And there are native communities that are making claims for 
that water into those areas. I visited that area, met with the 
Park Service scientists, and there is grave concern about the 
aquifer which is largely in Nevada as it flows into California. 
That is the assumption. Again, that is not well documented, but 
it is needed to keep replenishing those areas of endangered 
species, especially the pup fish and the other plants and 
animals that are in that area.
    Mrs. Chenoweth. In Death Valley?
    Mr. Pritchard. In Death Valley, yes, ma'am. The water 
coming from Nevada into Death Valley.
    Mrs. Chenoweth. And then also you talk about the recent 
informal review conducted by the NPCA has shown that 49 of our 
54 national parks could lose their most significant features to 
global climate change and you say this is due to global 
warming. I think that--I see my red light but I think that in 
the art of forming words to get ideas across that the 
overstatement is something that we need to worry about.
    I share with you the concern that we make good decisions 
based on good science but there is so much conflict about 
whether there really is global warming or not and to base an 
allocation of a large amount of money on the fact that 49 of 
our 54 national parks may lose their most significant features 
sometimes may appear to be an overstatement. It does to me, 
sir.
    And I do want to work with you. I want to learn from you 
what you know because you have spent so many years working with 
the national parks and your association is very dedicated. But 
one of your organizations that you--one of the grass roots 
organizations in Yellowstone called Yellowstone Park Watchers' 
Network. Are you familiar with that?
    Mr. Prichard. Yes, ma'am, I am.
    Mrs. Chenoweth. Well, in their most recent newsletter they 
state that Yellowstone is facing some of the greatest threats 
ever to its world famous geothermal wonders including Old 
Faithful that are vulnerable to development and we do want to 
study that.
    But they also go on to say that in the winter the air is so 
polluted by snowmobilers that park rangers have to wear gas 
masks and that is in their own newsletter. And it is just not 
true unless Mr. Kennedy has some testimony to shed some light 
on it.
    Mr. Hansen. Do you want to briefly respond? We will have to 
go on.
    Mr. Pritchard. I think that is exactly what we are talking 
about is that we need to have scientific information. The study 
you refer to on global warming which we stand by was done in 
cooperation with a very prestigious group, Climate Institute, 
and we would be happy to share that, but we would ask the Park 
Service to begin monitoring to see the impacts of global 
warming.
    And regarding the water use plan as we were talking about 
before, and I think the governor of Montana and I are in full 
agreement that there needs to be a winter use plan and until we 
see that but there are pollution problems there in other parks 
and they are very serious. So I welcome the opportunity to work 
with you and I appreciate your questions and I think they are 
appropriate ones that we will respond to.
    Mr. Hansen. The gentleman from Minnesota.
    Mr. Vento. Thank you. The air pollution problems in parks, 
of course we have held hearings on ozone damage in Yosemite 
Valley and so I do not know if there is any relationship 
between geothermal air quality in combination with the exhaust 
of snowmobiles but there are a lot of other problems, I can 
tell you that.
    One of the basic mandates of the Park Service is to do 
research science. If you look at the Organic Act they are 
supposed to. I think the issue is how far can they do it in 
terms of the cutting edge. I think it should be clear to all of 
us that we are going to march forward with the other planning 
and management agencies who hold knowledge on how we can best 
facilitate that process and then use the information.
    And we have here a pretty distinguished scientist from 
Wisconsin at Superior. I was a student incidentally of Dr. 
Lasko at River Falls, one of your other ecologists from 
Wisconsin in the State university system so we are very 
pleased. The testimony that you have, I would just direct my 
colleagues' attention to that on their table from pages three 
through four and five. I am sure you will find it a lot more 
exhaustive than his brief statement that Dr. Linn made.
    He of course invites us to utilize the science of ecology. 
We have for about the last three or four years run into major 
battles over something called ecosystem management. And that is 
going to continue because we are not just dealing with the 
fauna and flora, the biological aspects of it, but I think the 
many other physical aspects of what takes place.
    We have been asking questions about that. I suppose if we 
put it under the umbrellas of ecosystem management or eco 
setting ecology that that causes problems for some of us. But 
his testimony really comes before the next panel and 
anticipates some of it. And since there is a focus on 
Yellowstone, I guess one of the purposes today is to take an 
example of how it is working, although I think that the issue 
with regard to the southwest is good within the Park Service.
    We understand when you take a building and expose it to the 
air quality and other problems of 1997 you do end up with 
problems. You are better off leaving them encased unless you 
are going to use them for interpretation. In any case, he goes 
on to point out, and I just want to give you an opportunity, 
Dr. Linn, to explain that telling that science in the 60's is 
not appropriate as it applies to the 1990's with regard to how 
we manage the populations of bison, elk, bear, and 
reintroduction of the wolf.
    And so he points out three factors that are criticized, 
that is, the vegetative modification by the various populations 
in Yellowstone, principally bison and elk, the brucellosis 
problem which he refers to that the preposterous uniform 
methods of rules under United States Department of Agriculture, 
APHIS, plus he goes on to point out the full nature--the issue 
of historically what man did in Yellowstone.
    So, Dr. Linn, I would like to give you a minute or so to 
amplify what I have outlined here with regards to the 
Yellowstone management and the concept of the necessity to 
call.
    Mr. Linn. If I recall, I hired Mary Meagher, Dr. Mary 
Meagher, who I regard as an extremely careful and honest 
scientist. In the 1960's the same brucellosis scare existed in 
Montana and it was proven by Mary Meagher and one other 
scientist in the Yellowstone area at the time that brucellosis 
can be carried by elk or deer or even flies.
    But whether it ever takes or not in cattle is another 
question. I do not think there has been very much proven that 
it does so that is my experience with the brucellosis thing.
    Mr. Vento. Well, I appreciate your comments, the written 
comments, that you have made with regard to vegetation and with 
regard to that modification of vegetation and historic activity 
based on paling the logical evidence with regard to pollen 
studies for mud flies. It gets into a lot of details.
    But I think what this points out is that we need a broader 
based science. We need to use the information and accept it. I 
am pleased, Dr. Linn, that you follow in the footsteps of many 
other from Wisconsin from Sand County and other environs in 
Wisconsin, a guy by the name of Leopold. And I am very pleased 
to have that association with the system as an undergraduate 
and graduate student and to have your testimony today. I think 
it will be very useful to us in trying to deal with the other 
testimony today. Thank you.
    Mr. Hansen. Thank you. The gentleman from Nevada.
    Mr. Gibbons. Thank you, Mr. Chairman. I did have some 
issues with regard to Mr. Pritchard's comments about the 
hydrologic studies under the State of Nevada. However, in view 
of the time and the effort of us to move this hearing along, I 
am going to defer that and possibly personally talk to him 
later, but I will yield back my time on this to you, Mr. 
Chairman.
    Mr. Hansen. Thank you. Let me point out that we are halfway 
through the testimony and we are more than halfway through the 
time. Let me just ask Paul Pritchard one quick one if I may, a 
quick answer. Do you believe that the research function should 
be returned to the National Park Service or do you think it 
ought to be left with USGS?
    Mr. Pritchard. Returned to the Park Service, sir.
    Mr. Hansen. Thank you. I like good short answers and 
appreciate that very much. And thank you panel for being with 
us. It is very kind of all three of you to be here. We will 
excuse you and ask the next panel to come up.
    Mr. Pritchard. Thank you, Mr. Chairman.
    Mr. Hansen. Dr. Mark Boyce, Professor, University of 
Wisconsin; Dr. Charles Kay, Utah State University; Dr. Richard 
B. Keigley, United State Geological Survey; and Dr. Frederic H. 
Wagner, Utah State University. If you would come forward. I am 
going to take you in the order that I called your name, is that 
all right. So first is Dr. Boyce, then Dr. Kay, Dr. Keigley, 
and Dr. Wagner.
    OK, you all know the rules. There is the thing in front of 
you there. I would appreciate it if you would follow it. Dr. 
Boyce, are you ready to go?

  STATEMENT OF MARK BOYCE, PROFESSOR, UNIVERSITY OF WISCONSIN

    Mr. Boyce. Mr. Chairman, members of the committee, thank 
you for inviting me to comment on the important issue of----
    Mr. Hansen. For some reason we do not hear that mike as 
well as others. Can you pull that up a little closer? It is 
like if you used to be a pilot. They used to tell you to kiss 
the microphone.
    Mr. Boyce. Is this better? Mr. Chairman, members of the 
committee, thank you for inviting me to comment on the 
important issue of science in our national parks. My name is 
Mark Boyce. I have been conducting ecological research on large 
mammals in the greater Yellowstone area for 20 years.
    I am currently editor-in-chief of the Journal of Wildlife 
Management, and I am on the faculty of the University of 
Wisconsin, Steven's Point. I have had experience working for 
the Park Service as well as independently in the greater 
Yellowstone area.
    For four years I was Director of the University of Wyoming-
National Park Service Research Center where I was responsible 
for administering competitive research contracts in the Rocky 
Mountain region. We solicited proposals from scientists for 
topics selected by park resource managers. I am an advocate for 
science in our national parks. I am glad to support the 
objective of this hearing for a new science initiative in the 
National Park Service.
    At the same time I would not want my comments to detract 
from the Biological Resources Division of USGS. Reducing 
redundancy and increasing efficiency through the establishment 
of the Biological Resources Division really made sense, and the 
BRD needs your support.
    I like Mark Schaefer's idea of a system of ecosystem 
science centers. I like the idea of a National Park Service 
research mandate. If such direction were given by Congress I 
would encourage the use of a peer reviewed competition to 
insure good science. Prioritizing projects for research should 
involve park management, and I believe most scientists would 
agree that the National Science Foundation model for funding 
research insures rigor and solid methods.
    Yellowstone is not bankrupt. The northern range is not 
overgrazed. I do not know if there are too many elk in 
Yellowstone National Park but I would prefer to let the wolves 
determine if there are too many elk in Yellowstone National 
Park. Park research is not bankrupt. As evidence I would cite 
the vast body of scientific peer-reviewed literature that has 
appeared in the last five years, largely funded by 
congressionally mandated studies on overgrazing, fire research, 
and in anticipation of wolf recovery.
    I generally support the National Park Service resource 
management policy which I call ecological-process management 
allowing natural ecological processes of predation, fire, 
herbivory, nutrient cycling, births and deaths to function with 
minimal human intervention. I believe that the National Park 
Service needs good science for solid management but perhaps 
even more importantly science needs parks.
    Let me reinforce this last point. Good science is paramount 
to insuring sound management in our national parks but the 
opposite is true as well. How our parks are managed influences 
the ecologist's ability to do good science. Scientists need 
parks as controls to perform the basis for evaluating what we 
do with the rest of the world. We should encourage the National 
Park Service to continue with its policy of managing to 
minimize the influence of humans on ecological process and 
function.
    Thank you, Mr. Chairman, and members of the committee for 
the opportunity to share my views on science in the National 
Park Service. I will be happy to answer any questions.
    [Statement of Dr. Mark S. Boyce may be found at end of 
hearing.]
    Mr. Hansen. Thank you very much. Dr. Kay.

STATEMENT OF CHARLES E. KAY, ADJUNCT ASSISTANT PROFESSOR, UTAH 
                        STATE UNIVERSITY

    Mr. Kay. Yes, I will need approximately seven minutes. 
Steve Hodapp wanted me to include some additional material in 
my oral testimony. First, I would like to thank the Chairman 
and the committee for inviting me to testify today. I will only 
summarize what I have already presented in my written 
testimony.
    Mr. Hansen. We will give you seven minutes.
    Mr. Kay. OK. I have a Ph.D. in wildlife ecology and I am 
presently an Adjunct Assistant Professor in the Department of 
Political Science at Utah State University. I am the only 
independent, independently funded scientist to have conducted a 
detailed evaluation of Yellowstone's ``natural regulation'' 
management program. I have also conducted extensive ecological 
research in the southern Canadian Rockies for Parks Canada.
    As you know, Yellowstone is presently managed under what is 
termed ``natural regulation.'' This, though, is more than 
simply letting nature take its course for it entails a specific 
view of how nature operates. According to the Park Service, 
ungulate populations will self regulate without overgrazing the 
range. Predation is not important.
    The Park Service is fond of saying that it has $3 million 
of research that supports ``natural regulation.'' 
Unfortunately, most of those studies have not directly tested 
``natural regulation'' and have largely been a waste of 
taxpayer's money. Furthermore, the Park Service has refused to 
fund research that may prove ``natural regulation'' wrong and 
they have generally awarded contracts only to people who 
produce results that support agency management.
    In the rare circumstance where a contractor has produced a 
report critical of park management, he has never received 
additional funding and his credibility has been personally 
attacked by the agency. In the equally rare circumstance where 
a Park Service employee has dared challenge established agency 
dogma, they have been reassigned, force-transferred, or 
suffered disciplinary action. The next witness will address 
this latter point.
    Having admitted to spending at least $3 million of 
taxpayer's money on research in Yellowstone, you would think 
the Park Service would have a detailed study plan of how all 
that work was designed to formally test ``natural regulation.'' 
That, though, turns out not to be the case.
    In 1989, for instance, the Department of Interior's 
Inspector General conducted an audit of research in Yellowstone 
and three other national parks. The Inspector General found 
that Yellowstone National Park did not have study plans for 23 
of 41 research studies performed by its research staff. In 
addition, the study plans that existed for the other 18 
research studies were generally deficient with respect to 
content.
    The only time the Park Service has told the public exactly 
what is meant by ``natural regulation,'' and laid out a 
detailed plan for its study was 1971, and the agency 
subsequently never followed its own study plan.
    Riparian management has recently been a hot political topic 
in the West, with environmentalists blaming ranchers for 
overgrazing these critical habitats. So, as an example of what 
``natural regulation'' means on the ground, let us look at the 
condition and trend of willow communities on Yellowstone's 
northern range. Now if ``natural regulation'' management 
represents the epitome of land management, as claimed by the 
Park Service and various environmental groups, then surely 
Yellowstone's riparian areas should be in excellent condition.
    But based on 44 repeat photosets of riparian areas on the 
northern range that I have made, tall willows have declined by 
more than 95 percent since Yellowstone Park was established in 
1872. In 28 repeat photosets that I made outside the park, tall 
willows have not declined, but, if anything, have increased, 
despite yearly grazing by either sheep or cattle.
    That these differences are due to excessive browsing by 
Yellowstone's burgeoning, naturally-regulated elk population, 
not other environmental factors, as postulated by the Park 
Service, is shown at the park's exclosures. On permanent plots 
outside exclosures, willows averaged only 13 inches tall, had 
only 14 percent canopy cover, and produced no seeds.
    In contrast, protected willows averaged nearly nine feet 
tall, had 95 percent canopy cover, and produced over 300,000 
seeds per square meter. Not only are Yellowstone's willow 
communities severely overgrazed, they are among the most 
overgrazed in the entire West. Also, aspen has declined by more 
than 95 percent since the park was established due to 
overbrowsing, and beaver are now ecologically extinct on the 
northern range for the same reason. This has also had a 
dramatic impact on songbirds and other species that are 
associated with those habitats.
    The roots of willows, aspen, and cottonwoods are also 
critical in maintaining streambank stability, and as elk have 
eliminated these woody species, this has produced major 
hydrologic changes. Dr. David Rosgen, one of North America's 
leading hydrologists, for instance, reported 100 times more 
bank erosion on Yellowstone's denuded streams than on the same 
willow-lined streams outside the park.
    Last summer, I took Dr. William Platts, one of the West's 
leading riparian experts, and Dr. Robert Beschta, a hydrologist 
at Oregon State University, on a three-day field tour of sites 
inside and outside Yellowstone Park. What they saw shocked 
them. And this is a quote from Dr. Beschta. ``I couldn't 
believe the Lamar,'' Beschta said. ``I've seen plenty of 
examples of streams degraded by domestic livestock but this is 
among the worst. It boggles my mind. It's changing the entire 
riparian flood-plain system. It could take centuries to repair. 
I left Yellowstone feeling terrible depressed. I could not 
believe that this is happening in a national park.''
    What Beschta and Platts saw is the type of resource damage 
occurring under ``natural regulation'' management. I submit 
that not only must ``natural regulation'' management be 
rejected, but that what has happened in Yellowstone Park is a 
clear violation of the park's Organic Act, the Endangered 
Species Act, and other Federal legislation.
    Thus, I respectfully offer the following recommendations 
for Congress' consideration. Congress should mandate an 
independent park science program. This is the same conclusion 
that has been reached by every panel that has ever reviewed 
park management, as the previous witnesses have testified to. 
Since the Park Service has never followed any of those 
recommendations, I submit that Congress must legislate the 
needed changes, for the agency has repeatedly demonstrated its 
refusal to comply with anything less.
    Because of the politics in Yellowstone, I also suggest that 
Congress appoint an independent panel of eminent scientists to 
set priorities for park research and to review/approve 
competitive research proposals for funding.
    In addition, I suggest that Congress appoint an independent 
commission to review ``natural regulation'' management and park 
science in Yellowstone, similar to what has just happened in 
Canada. What I am asking is for a fair impartial hearing of the 
available evidence. If we cannot straighten out Yellowstone, 
Mr. Chairman, there is little hope for the rest of our national 
parks.
    Furthermore, I suggest that if you want independent 
scientists to critically evaluate various aspects of park 
management, then Congress must establish a mechanism to 
directly fund that research. This need not come from new 
appropriations but from a reapportionment of existing funds. 
Without adequate funding there will be no independent 
evaluation of park management.
    And finally, Mr. Chairman, I invite you and other members 
of the committee, especially the representatives from Montana, 
Idaho, and Wyoming, who are most concerned about the problem, 
to personally tour Yellowstone with me this coming summer. It 
is quite an educational experience to be standing on a site and 
to be handed a photograph of how that area looked back in 1871. 
I wager, Mr. Chairman, that you will never view park management 
in the same light again.
    Thank you for your time and consideration.
    [Statement of Mr. Kay and attachments may be found at end 
of hearing.]
    Mr. Hansen. Thank you, Dr. Kay.
    Mrs. Cubin. Mr. Chairman, I regret that I have to be 
leaving. I would like to ask you----
    Mr. Hansen. You want to go out of order and you just got a 
question you have to----
    Mrs. Cubin. No, I just want to submit a statement for the 
record.
    [Statement of Mrs. Cubin follows:]

  Statement of Hon. Barbara Cubin, a U.S. Representative from Wyoming

    Thank you, Mr. Chairman. As we discussed earlier, there is 
currently a considerable problem with bison leaving Yellowstone 
National Park.
    Dr. Kay stated in his testimony that Yellowstone National 
Park is currently being managed under what is termed ``natural 
regulation.'' I am concerned with this type of management 
practice because I believe it directly lends itself to what we 
are currently witnessing in Yellowstone with mass exodus of 
bison.
    My educational training, Mr. Chairman, is in chemistry; not 
biology or ecology, but I know enough to figure out when 
wildlife are starving because of a lack of forage they will 
probably migrate out of that area to look for food.
    Bison are leaving Yellowstone Park in huge numbers. The 
threat of brucellosis looms large because of this mass 
migration into States like Montana--Wyoming has not largely 
been affected by this migration.
    As a result, many have been slaughtered to keep the threat 
of brucellosis from spreading into neighboring States that are 
currently brucellosis free; Wyoming being one of those States 
that currently enjoys its brucellosis free status. Bison don't 
happen to be a problem in Wyoming--the overpopulation of elk in 
the northwest part of my State is the biggest threat to our 
brucellosis free status.

    Mr. Hansen. Oh, fine, without objection. If you want to, we 
would be happy to have you to talk to--is there anything 
additional?
    Mrs. Cubin. Thank you, Mr. Chairman. I will just make it 
very brief because my Subcommittee is going to always start on 
time, right? Dr. Kay, does your research show or is there 
evidence that suggest that there is an overpopulation of elk 
and bison in Yellowstone National Park, and, if so, how does 
the natural regulation management practice contribute to that 
overpopulation?
    Mr. Kay. ``Natural regulation'' management created the 
problem. Basically what you have is a view of nature which 
suggests that ungulate populations will self regulate before 
they will have a significant impact on the vegetation. This is 
what the park terms ecological carrying capacity and the Park 
Service has said, I believe, that bison are already at 
ecological carrying capacity and probably elk are too, which 
means by definition, if you understand the ecological lingo 
that the agency uses, that the animals are short of forage.
    And also according to natural regulation, the Park Service 
views the main limiting factor on the bison population as 
starvation. According to the Park Service, thousands of bison 
starving to death during winter and thousands of elk starving 
to death is natural.
    It was very interesting to hear Mark Boyce's comments about 
wolves because this runs contrary to everything that has been 
done as far on wolf recovery because the agency has adamantly 
denied that we need wolves in Yellowstone to control elk. And 
as a matter of fact, one of the contentions of the ``natural 
regulation'' hypothesis is that predation is a non-essential 
adjunct to the regulation of ungulates by food limitation.
    According to the ``natural regulation'' view of the world, 
if wolves are present they only take the elk and bison slated 
by naturer to die by other causes, primarily starvation, and 
thus wolves will not lower the ungulate populations. I am sure 
you have read the wolf recovery plan and wolf EIS. They 
adamantly deny that wolves are going to have any significant 
impact on the park and especially on the ungulates outside the 
park in the States of Montana, Wyoming, and Idaho.
    Mrs. Cubin. Just this one last--I am going to make two 
statements and if you will just agree or not just, you know, in 
deference to time. Number one, would you say it is accurate for 
me to state that overpopulation does cause reduced forage in 
the park? And, number two, would it be correct for me to say 
that typically herds that normally stay in a certain area when 
they are starving to death will migrate out of that area and 
feel compelled to find forage in other places?
    Mr. Kay. Sometimes they will migrate, sometimes they will 
not. Sometimes they will sit there and starve to death.
    Mrs. Cubin. Thank you very much.
    Mr. Hansen. Thank you. Dr. Keigley, you are recognized for 
five minutes.

   STATEMENT OF RICHARD B. KEIGLEY, UNITED STATES GEOLOGICAL 
                             SURVEY

    Mr. Keigley. In 1991 I was assigned to investigate the 
effect of elk on riparian ecosystems in Yellowstone. In my 
position description, I was given the responsibility for 
defining the research problem and I was called upon to exercise 
independent and original thinking. But from 1992 to 1994, I 
experienced a great deal of interference with my ability to 
address the research issue.
    In fact, by 1995 Yellowstone even refused to issue me a 
research permit to conduct research in the park. Now this was 
research that I was assigned to conduct under my NBS 
performance evaluation standard. In my opinion, the reason that 
I was removed from Yellowstone's research program was that I 
came up with scientific evidence that would not support 
Yellowstone's resource management policies.
    Now I would like to ask the question: Why was this research 
done? Yellowstone's resource management plan makes management 
by natural regulation contingent upon there not being a 
deteriorating ecosystem. My research was aimed at investigating 
that possibility. What did I find? Well, I found that in 
general, as far as I know, no cottonwoods are regenerating on 
the northern range.
    Young cottonwoods are trimmed off to a height of about a 
foot. Slightly larger ones are being killed back to the ground. 
And in my opinion, cottonwoods will be locally eliminated from 
the northern range within a period of some decades. Now my 
research found this does not correspond with a change in 
climate. Cottonwoods grew in the '30's.
    What would I likely have documented had I been allowed to 
conduct the research? Well, I think I could have documented 
that virtually every species of woody plant is in decline, and 
of particular interest are the conifers because these are taken 
as a last resort. These only grow to be about a foot tall, the 
very youngest of the conifers.
    What is the significance of this? Well, in the early '70's 
it was said that the reason for the decline in woody plants was 
due to fire suppression. That these were decadent communities 
that needed fire. Well, we had fire in 1988 and aspen still 
does not grow. It has also been suggested that climate change 
is responsible.
    What my research would have documented is that species that 
are widely different in physiology: conifers, aspen, willow, 
birch, alder, are all in decline; it is very unlikely that each 
of these species would have been affected similarly by climate. 
Yellowstone is losing, in my opinion, much of its component of 
woody plants.
    Now it has been said that Yellowstone is not overgrazed. I 
ask the question: In a national park should we really be 
comfortable with this proposition? And I think we can examine 
that by asking ourselves if we would be willing to let BLM and 
U.S. Forest Service grazing allotments look like the northern 
range. I suggest that most of us would not be.
    Now my research has, I think, an impact on the management 
of Yellowstone in that I do not think we are allowed or have 
been allowed to really aggressively look at the effect of 
natural regulation. But this kind of influence also has an 
impact on the credibility of all science and I think that is 
unfortunate. In my prepared statement that I have not had time 
to present here, I included five recommendations that I believe 
need to be followed.
    And I think regardless of what research organization 
ultimately follows out of this, those five points that I raise 
there are going to be necessary for any successful science with 
respect to national parks and the surrounding areas. Thank you.
    [Statement of Mr. Keigley may be found at end of hearing.]
    Mr. Hansen. Thank you, Dr. Keigley. Dr. Wagner.

  STATEMENT OF FREDERIC H. WAGNER, ASSOCIATE DEAN, UTAH STATE 
                           UNIVERSITY

    Mr. Wagner. Thank you, Mr. Chairman. I have four points in 
the time that you have allotted me in this discussion on 
science and resource management in the national parks. At least 
two of them have been made previously so I will just hurry past 
them. The first has been said, is obvious to the committee, and 
I think need not be dwelt upon, and that is that sound research 
is essential to effective resource management.
    The second point is that the Park Service, as has also been 
stated here today, has not had a strong science tradition. It 
has been repeatedly advised, as we have heard, to develop a 
large and credible research program, but has not done so. There 
has been no formal policy or structure for science in the Park 
Service. What research has been done has been administratively 
disparate. In some cases it has been administered out of 
regional offices. In other cases it has been administered by 
park superintendents. So it has been a small program developed 
at the grass roots and not by a matter of policy from the top.
    My third point is that this weak commitment to science has 
resulted in spotty research and management. There has been good 
science done in some of the parks. A recent book by Halvorson 
and Davis has outlined 12 case studies where solid science has 
been done and capable management programs based on it. The 
Beard Research Center in the Everglades has turned out 
excellent science for the tough management problems there.
    But there has been bad science and bad management 
decisions, as a result. I think the natural regulation science 
in the first place and the policy that was based on it are 
prime examples. And additionally, I think that what the weak 
science mandate has produced is in some cases a climate for 
administrators to ignore contrary evidence that was not 
convenient for policy.
    There have been cases that we have already heard about 
where researchers have been threatened who turned up evidence 
from their science that was contrary to policy or inconvenient 
for managers. And some people have been threatened with their 
jobs, some transferred. As we have heard, the scientist sitting 
on my left has been denied access to one of the parks which is 
of course public property, so there has been that problem.
    So my fourth point is central to these hearings: what is 
the best structure for science in the National Park System? I 
think there are three points that bear on that question.
    One is that in my opinion research is a service to 
management in a management agency, and therefore the research 
needs to be relevant to management problems. That argues for 
administrative proximity. I think it is important that the 
researchers understand the management problems and commit their 
efforts to the solution of those problems. So that argues for 
proximity.
    Secondly, the managers have to trust the researchers and I 
think that too is a function of administrative proximity. The 
managers have to see that the researchers understand their 
problems and are addressing their efforts to assist in the 
solution of those problems.
    But thirdly, a matter that argues for distance between 
research and management is that research has to be free of 
political, bureaucratic, and policy pressures to turn out 
unvarnished truth, wherever the chips may fall. And so that 
then argues, I think, for administrative distance. I think it 
is a very bad idea to have the people who are administering 
management also administer science.
    So where should it then go? We are talking about some kind 
of a compromise between these two considerations. When my 
colleagues and I started writing our book on wildlife policies 
in the national parks, we were prepared to recommend that a 
division of research be established in the Park Service with 
its own associate director, its own discreet budget lines, and 
its own administrative lines free of management, but 
nevertheless in the agency. But before we could finish our 
book, the National Biological Survey was formed and so everyone 
knows where that has ended up with the research now in the 
Biological Resources Division.
    That does meet the distance aspect. If it is decided by 
this committee and the Congress that research should go back to 
the national parks, I absolutely recommend that it not go back 
in the structure which existed prior to the formation of the 
National Biological Survey. It did not fare well there and I do 
not think it will again. So I think that is something to be 
avoided.
    As far as leaving it in BRD, we know that it has been a 
political football for three or four years now. It has been 
kicked around from one place to another. That can't contribute 
to productivity and high morale in the organization. We know 
that it has a new director who is setting up operating 
procedures for the division, so that is surely something to 
consider. So that argues for leaving where it is.
    If it is left in BRD, I think two things are needed. One is 
some very strong liaison between BRD and the higher-level 
administrators in the Park Service so that this can insure that 
Park Service higher administrators can direct down to park 
management that research evidence be accepted into the 
management programs of those parks.
    And I absolutely think there ought to be a prohibition 
against forbidding biologists from BRD to do research on 
national parks which are public property, doing research which 
they were assigned to do by their superiors. I find that 
absolutely reprehensible. Thanks, that is the end of my 
comments.

    [Statement of Mr. Wagner may be found at end of hearing.]

    [Book review of ``Science and Ecosystem Management in the 
National Parks'' may be found at end of hearing.]

    Mr. Hansen. Thank you. I appreciate the testimony of all of 
you gentlemen. Dr. Keigley, you did not finish your time. What 
are these recommendations that you wanted to give us?

    Mr. Keigley. The first one is to ask the question how 
success should be measured. At the present time we have client 
satisfaction as a principal measure of success for each of our 
performance evaluations. I believe that what this does is that 
it prohibits us from giving the bad news, which may be 
necessary in some cases, to park managers.

    Instead, what I propose is that scientists and managers or 
research administrators be measured on one simple question: 
What were the potential or actual impacts of their science on 
resource management? This would let us cover the good along 
with the bad. The second point is research funding. I believe 
that we need to find a new procedure where we can: A, identify 
cases where there are legitimate opposing points of view, and, 
B, if there are, equitably allocate fiscal resources to 
opposing sides.

    My third point is that scientists should have a formal role 
in preparing resource management plans because the park 
actually does not have the expertise, or lost much of the 
expertise to do that. And, secondly, park preparation may 
restrict the point of view that is presented in the resource 
management plan and I will touch on that in just a moment.
    My fourth point is we need some procedure, a formal 
procedure, for resolving conflicts. I have been involved in a 
conflict for four years and I would rather not be. And if we 
had some procedure that would allow us to mitigate these or 
mediate these early on, we can avoid the kinds of crises that 
we find ourselves in today.
    My final point recommendation deals with a different kind 
of bias and that is that national parks have impacts that 
extend beyond the park borders, and yet the resource management 
plan typically only addresses impacts that occur within the 
park borders. I believe we need to expand this formal document 
to include participation by State fish and game agencies, 
Forest Service, BLM, and private ranchers as well so that they 
can have their input into this formal document and if 
necessary, present different separate points of view, to put it 
all in one place so the public can look at it and evaluate it, 
and I think from that we will have a much more balanced science 
program.
    Mr. Hansen. Do the other three of you have any heartburn 
with Dr. Keigley's suggestion?
    Mr. Wagner. Not at all.
    Mr. Kay. No, sir.
    Mr. Hansen. Dr. Boyce, do you have any comment on that?
    Mr. Boyce. No. I think that there are a number of possible 
models for a way in which science could be administered and 
structured. In the context of Dr. Keigley's last comment 
regarding ecosystem management and the fact that various 
populations cross park boundaries and the influences of park 
management go outside the park; the opposite is true as well 
and I certainly support his view that some sort of ecosystem 
management administration be used to foster interactions among 
these various agencies.
    There are actually some fledgling structures of this sort. 
For example, there is the interagency grizzly bear committee 
for managing grizzly bears in the greater Yellowstone 
ecosystem. There is also the interagency Jackson Hole elk herd 
management that involves representatives from each of the 
agencies and I think these have been very useful and very 
powerful structures for reducing conflicts amongst the various 
agencies and insuring that priorities are balanced amongst the 
various agencies.
    Mr. Hansen. Thank you, sir. The gentleman from American 
Samoa, you are recognized for five minutes.
    Mr. Faleomavaega. Thank you, Mr. Chairman. I certainly 
commend the scientific community from the State of Utah in your 
presence here and in trying to give us a better understanding 
of the serious problems not only with Yellowstone but various 
issues affecting the National Park System.
    Perhaps our scientific communities from the University of 
Wyoming and the University of Montana could also be helpful in 
this regard. A couple of questions to Dr. Kay and Dr. Wagner. 
If you believe there are too many bison and elk in Yellowstone 
Park, how do you propose to reduce the size of the herd in the 
park? I believe the NPS system was to let the wolves do the 
regulating. Is this my understanding in reading your testimony, 
Dr. Kay?
    Mr. Kay. My understanding was that it was not the Park 
Service's intention to have the wolves regulate the bison. In 
fact, they adamantly denied that the wolves will control bison 
numbers. Now as to what you do with this, that is a different 
policy question, which we were not asked to address today.
    And I personally believe, if you want my opinion on this, 
that we need a new park Organic Act because there is a conflict 
between use, public use, and preservation. And I would suggest 
that we look to our northern borders for a model on how we 
might resolve this. Canada has the strongest environmental 
protection act in the world.
    In 1988, the Canadian Parliament passed an amendment to 
their park Organic Act that said ecological integrity will be 
given first priority in all management decisions. Parks Canada 
has been in the process since 1988 of trying to define 
ecological integrity. Now part of the problem I have with the 
request by others on the panel for additional funding to do all 
this monitoring, is monitoring of what, for what?
    Unless you have a model of how the ecosystem is structured 
and functions, and how it was structured and functioned at 
various points in the past, you have no idea what to monitor or 
what the monitoring data means. Now Parks Canada is in the 
process of developing those models. I have submitted reports to 
Parks Canada and they have independently tested my work.
    Mr. Faleomavaega. Dr. Kay, because of my time. I am trying 
to get back to my basic question. If there are too many bison 
and elk in Yellowstone Park, how do you propose to reduce if it 
is overpopulation? If there is overpopulation, how do you 
propose to reduce the----
    Mr. Kay. You would have to eliminate the animals.
    Mr. Faleomavaega. How do you propose----
    Mr. Kay. The Park Service did it in the past. You have to 
understand at one point in the past the Park Service believed 
that Yellowstone was horribly overgrazed and they controlled 
the animals by trapping the bison and they actually shot bison 
in the park.
    Mr. Faleomavaega. My point is do you support killing the 
elk and the bison in the park?
    Mr. Kay. If the objective is to maintain the vegetation in 
the condition that existed prior to the park being established 
then the bison have to be reduced. I have no problem with 
shooting bison in the park, sir.
    Mr. Faleomavaega. OK, Dr. Wagner.
    Mr. Wagner. Again, whether there are too many elk depends 
on the purpose of the park and a number of authors have pointed 
out that the goals and the reasons-for-being of the national 
parks are not clearly enough articulated to know what their 
goals are. Whether or not we should have more bison or elk or 
fewer, or whether these should be controlled are arguments over 
means rather than ends.
    But one way of looking at this, up until 1967 the park held 
the bison numbers at 400 in Yellowstone. Natural regulation 
went into place in 1967 and the herd has simply increased 
steadily, steadily up to the present to where at the beginning 
of this winter there were somewhere in the neighborhood of 
4,000.
    But, again, it is not clear what the goal for managing 
bison should have been. Now if it should have been something on 
the order of what has been suggested, and that is preserving 
the parks in roughly the condition that prevailed prior to 
European contact, then Dr. Kay's research is very convincing 
that large mammal populations were held at very low densities 
in pre-Columbian times, probably by a combination of predation 
and aboriginal hunting. And if that is the goal, then indeed 
there are too many elk and bison in the park.
    Mr. Faleomavaega. Dr. Kay, when you conducted this 
independent research and study of the park, was this in 
cooperation with the National Park Service or was this on your 
own or was this from a foundation?
    Mr. Kay. My research in Yellowstone was part of my 
dissertation research at Utah State University and my research 
in the park was funded by the Wilder Wildlife Foundation, which 
is a private foundation out of Sinton, Texas. But my research 
was certainly conducted under a park permit. The park knew what 
I was doing all the time. I participated in annual research 
meetings and I certainly kept the park staff updated on what I 
was doing.
    Mr. Faleomavaega. And the Park Service cooperated with you 
in your research?
    Mr. Kay. Yes, they let me do the research in the park.
    Mr. Faleomavaega. Dr. Keigley, you claim that you were 
barred from research in Yellowstone two years ago. Could you 
explain how that allegedly happened?
    Mr. Keigley. What happened is that I filled out with my 
supervisor a proposed research direction and this was 
documented in the performance evaluation for 1995 and that is a 
formal agreement between me and my supervisor and the NPS as to 
what I am to do, and I was supposed to be able to study 
conifers on the northern range.
    That request which you have to have is a formal research 
proposal or permit to conduct research within the park. That 
was submitted to the chief of research at the Center for 
Yellowstone Resources. And he refused to put it on the table 
for the resource committee to consider and so as a result it 
never came up for approval and it was agreed between my 
supervisor and I that it probably would not be and so I was 
obviously not permitted to work in Yellowstone, and furthermore 
I am not even permitted to work adjacent to Yellowstone.
    Mr. Faleomavaega. Sir, you are a gentleman with a 
scientific background of more than 25 years in doing this type 
of work which you were just simply iced out simply because of a 
disagreement in your scientific opinion with your supervisors 
or those who were your managers, is this basically what 
happened?
    Mr. Keigley. The disagreement was not with my supervisor. 
The disagreement was between myself and the Yellowstone Center 
for Resources, and, yes, that is true.
    Mr. Faleomavaega. My time is up.
    Mr. Hansen. The gentleman from Montana.
    Mr. Rick Hill. Thank you, Mr. Chairman. Dr. Kay, in your 
view is the brucellosis problem compounded or complicated by 
the overpopulation problem in the park?
    Mr. Kay. It certainly is. When the bison herd in the past, 
as Dr. Wagner mentioned, was held at 400 animals, and the elk 
herd was also held at lower numbers, these animals did not 
leave the park. And if the animals remained in the park, then 
there would not be any conflict with domestic livestock.
    Mr. Rick Hill. Some people are arguing that if we just 
expand the range of the bison that we can solve the problem of 
overpopulation. Could you address that?
    Mr. Kay. Yes, that is not true. Under natural regulation 
management, the bison population will simply increase until it 
again uses the available range. For instance, sir, if you drew 
the boundary halfway down the Paradise Valley, that might 
temporarily solve the bison problem for five or ten years but 
then at some point in time instead of having 1,000 bison come 
out you might have 5,000 that were coming out heading for Great 
Falls.
    Mr. Rick Hill. So the concept of natural regulation is that 
the animals will eventually starve to death and that is how 
they are going to be regulated.
    Mr. Kay. That is right, and they will do that without 
having major impacts on the vegetation. That was the Park 
Service's original definition of ``natural regulation.''
    Mr. Rick Hill. And is that supported by your research?
    Mr. Kay. No, it is not, sir.
    Mr. Rick Hill. Could you explain that?
    Mr. Kay. As I explained in my dissertation, you first have 
to understand what is meant by ``natural regulation.'' In 1971 
the Park Service produced a document by one of its research 
biologists, Doug Houston, where he laid out what the 
definitions of ``natural regulation'' were. And basically those 
were the species I looked at, aspen and the willows.
    That is to say, I measured aspen and willows to test the 
Park Service's ``natural regulation'' hypothesis. Now the Park 
Service has admitted that aspen has declined and willows have 
declined, but they claim the elk were not primarily 
responsible. Instead the decline was due to fire suppression, 
climate change, and a whole host of other factors postulated by 
the Park Service, but not primarily elk.
    Dr. Houston said if the decline in aspen and willows was 
due primarily to elk, then that would disprove ``natural 
regulation.'' It would prove that the Park Service's hypothesis 
was not working. And that is basically what my research showed. 
I not only did that, I reviewed all the first-person historical 
accounts, I looked at all the archaeological data, and I 
basically looked at what you would call long-term ecosystem 
states and processes.
    There never were large numbers of bison in the park, sir. 
For instance, I have analyzed 20 historical journals, first-
person historical accounts, because they are the most reliable. 
Between 1835 and 1876, there were 20 different expeditions in 
Yellowstone. They spent 765 days in the ecosystem on foot or 
horseback. Yet they saw bison three times, none of which were 
within the present confines of Yellowstone Park.
    In addition, they only saw elk 42 times. There are now over 
100,000 elk and reading Dr. Boyce's testimony he had it up to 
120,000 elk in the ecosystem. Yet early explorers only saw elk 
once every 18 days.
    Mr. Rick Hill. One of the arguments out here is whether 
what we are seeing happen now is bison migrating because of 
overgrazing, lack of feed, or are these traditional migration 
routes. What is your view on that? Are these traditional 
migration routes we are seeing?
    Mr. Kay. Well, it depends on who you listen to at what 
point in time. For instance, take the park's bison expert, Dr. 
Meagher. In 1973 she produced a report on the ecology of bison 
and she made predictions on what would happen to the bison 
population under ``natural regulation.'' She had a map in that 
report that showed the historical bison migration routes in 
Yellowstone.
    According to that 1973 Park Service document, there were no 
historical migration routes near West Yellowstone and there 
were none near Gardner, two places where bison are coming out 
of the park today. To the best of my knowledge, the Park 
Service has not uncovered any additional historical data that 
would support their reinterpretation of historical migration 
routes in those particular directions.
    It certainly seems ecologically feasible that if there were 
some bison in the park that they may have migrated out in those 
directions, but there is no evidence in the condition of the 
vegetation in the earliest historical photos, there is no 
evidence in the first-person historical accounts, and there is 
no evidence in archaeological data that there have been large 
numbers of food-limited animals in Yellowstone at any time 
during the last 10,000 years or more.
    Mr. Rick Hill. Dr. Kay, I just want to tell you that I for 
one would welcome the opportunity to visit the park with you 
next summer and I am looking forward to that opportunity. Thank 
you, Mr. Chairman.
    Mr. Hansen. The gentleman from Minnesota.
    Mr. Vento. Thanks, Mr. Chairman. Obviously, Dr. Boyce and 
Dr. Linn, I apologize, I was reading your testimony across and 
I had you in Wisconsin, Dr. Linn, where I should have had Dr. 
Boyce. At least we have another Wisconsin alumni here though in 
Dr. Wagner, at least 30 years ago.
    I am from Minnesota actually and I want to make that clear 
although everyone seems to be associating with the Christian-
Green Bay phenomena. Dr. Keigley, you stated that the park and 
what happened in the park has trans-boundary effects in things 
outside the park. But things outside the park also affect 
things in it, don't they?
    Mr. Keigley. That is correct.
    Mr. Vento. I mean so it is a two-way street. You say 
correct, so it is a two-way street. If they are doing research 
out there maybe they want to join in. I try to play to the 
collaboration aspect rather than the isolation of the Federal 
Government. I do not think anyone has enough money to do all of 
the research that needs to be done here.
    One of the things that is sort of disturbing to all of us 
is that you are suggesting that you are unwilling to 
accommodate a manager. We think that scientists ought to pursue 
the information and get objective data. You do a lot of review 
before you start on a project. You review all the documentation 
and papers. That is the way it works, I guess.
    You must have reviewed all of the papers that Dr. Boyce is 
talking about in his statement. You said that because you did 
not accommodate the manager, that the Biological Resources 
Division had no alternative but to withdraw the scientists from 
the research program. In other words, was there peer review of 
your work?
    Mr. Keigley. My research proposal was peer reviewed at 
Montana State University by two faculty.
    Mr. Vento. Was this part of the described design as 
described as rigorous, excellent and the approach ingenious? 
Those are quotes from the memoranda that I got and the letters. 
Was it reviewed by others within the Biological Resources 
Division within the Department? They must have come to this 
conclusion somehow.
    Mr. Keigley. It was circulated through the Yellowstone 
Center for Resources for quite a while and sent down to Fort 
Collins. I never got any adverse comments back from either the 
Yellowstone Center for Resources or Fort Collins on my research 
design for 1995.
    Mr. Vento. So they peer reviewed. Do you have any evidence 
that backs up your statement that because you are unwilling to 
accommodate the manager that there was no alternative but to 
withdraw you from this?
    Mr. Keigley. I am just describing what happened.
    Mr. Vento. So it could have been a lot of things. It could 
have been an allocation of resources question. Did they have 
more money than they needed up there?
    Mr. Keigley. No, sir. I did nothing that summer and that is 
documented in my----
    Mr. Vento. You did not do anything that summer?
    Mr. Keigley. A scientist works from field season to field 
season and to prepare for a field season to do research means 
that you have to invest some effort in planning before that. 
This came down to about June when Yellowstone refused to give 
me permission to work within the park and then subsequently I 
was denied permission to even work adjacent to the park. And so 
I really did nothing in 1995, no field research.
    Mr. Vento. You did nothing? You did not do any field 
research? Is that what you mean?
    Mr. Keigley. Well, I mean nothing. A scientist does field 
research during the summer. You feel like you are doing 
nothing.
    Mr. Vento. OK. They had something for you to do, I guess. 
They did not send you on vacation, I guess.
    Mr. Keigley. I was not on vacation, no.
    Mr. Vento. Dr. Boyce, your question here. To your 
knowledge, is national parks research peer reviewed?
    Mr. Boyce. The National Park Service----
    Mr. Vento. Research or the research from the Bureau of 
Resource Management or department----
    Mr. Boyce. The National Park Service does not really do 
research at the moment in view of the fact that the BRD was 
off----
    Mr. Vento. Well, that is just on the biological side. 
Actually they have half the scientists still over there. I 
guess they may be doing something. But those you are familiar 
with do not do the biological research is what you are saying, 
but is that research peer reviewed?
    Mr. Boyce. Certainly there has been a large amount of 
research done in the national parks through the National Park 
Service with funds provided through Congress, for example, the 
overgrazing studies, the fire research studies, and most 
recently the wolf recovery efforts, and those studies have 
resulted in a large number of publications that certainly have 
been published in top-flight peer-reviewed periodicals.
    Mr. Vento. Could you explain what it means to have it 
published? Is not something that is published receiving general 
agreement in terms of the scientific community? That is not 
controlled by the Park Service, is it?
    Mr. Boyce. No, not at all. In fact, it means that the 
papers are submitted to other scientists working in the same 
area for review and there has to be critique by peer reviewers 
before a peer-reviewed periodical will publish a paper.
    Mr. Vento. I see Dr. Kay was shaking his head. Have you had 
anything published lately, Dr. Kay? Maybe you have not, I am 
talking about publication, you know.
    Mr. Kay. Basically what peer review is is to get two other 
people to agree with your point of view because that is all 
peer review is.
    Mr. Vento. No, I was talking about publication, I think----
    Mr. Kay. That is what I am saying. What I am saying is that 
the Park Service has been able to censor peer review. In two 
cases that I can prove with written documentation, when I 
submitted manuscripts to scientific journals, they sent those 
manuscripts to the Park Service for peer review, which I think 
is unethical.
    Mr. Vento. So they are controlled by the Park Service, is 
that what you are saying, that the National Science Foundation 
or the----
    Mr. Kay. I am not saying--this was not the National Science 
Foundation. This was two specific scientific journals.
    Mr. Vento. And so these specific scientific journals were 
controlled by the Park Service?
    Mr. Kay. I am not saying they were controlled by the Park 
Service, all I am saying is what they did and what happened to 
me in those particular instances.
    Mr. Vento. You are obviously putting fault with the Park 
Service because someone did not publish your papers.
    Mr. Kay. What I am saying is the peer review process is not 
independent in all cases of review by the Park Service.
    Mr. Vento. So are you talking about a major fundamental 
flaw with the entire scientific process that we have in this 
country?
    Mr. Kay. Yes, I think so.
    Mr. Boyce. But it is the best we have got.
    Mr. Kay. No, it is not. And, in fact, may I comment on 
that?
    Mr. Vento. My time is what it is.
    Mr. Kay. May I comment on that, Mr. Chairman? There is an 
alternative----
    Mr. Hansen. I think we should give you a chance.
    Mr. Kay. This has been tried in the social sciences because 
there are various social hypotheses that are very controversial 
and there have been several papers on the biases of the peer 
review process, in some cases actual corruption. I can provide 
that documentation for the committee.
    So what some journals like ``Current Anthropology'' do once 
they decide there is a potential conflict is that interested 
scientists can write whatever they like on that particular 
subject and then that manuscript is sent out for open peer 
review. Anybody who is interested, can then write a review and 
those reviews are published right in the journal. No more long 
knives in the dark. Then the original authors get to rebut 
their critics and this all is published together so that anyone 
can read both sides of the issue. But unfortunately, science 
journals do not follow this format, and I think if they 
followed that format especially for controversial subjects, 
then at least both sides of an issue would be given a fair 
hearing.
    Mr. Hansen. Thank you.
    Mr. Faleomavaega. Will the gentleman yield?
    Mr. Hansen. How much time do you need?
    Mr. Faleomavaega. Just one sentence. I just want the 
Chairman of the committee to know that the next anthropologist 
I catch coming to my island, I am going to shoot him.
    Mr. Kay. Well, there are anthropologists, sir, and there 
are anthropologists.
    Mr. Hansen. The gentlelady from Idaho, I recognize you for 
five minutes.
    Mrs. Chenoweth. Mr. Chairman, I would like to pursue this 
with Dr. Kay. This is critically important to us. There we are 
a Congress poised to anoint science to throw a lot of money at 
scientific programs and if we see the interruption of the 
process of even publicizing I would like to know more about it. 
And, Dr. Kay, you indicated that you would get the committee 
documents.
    Mr. Kay. If you want that, I have this all in writing.
    Mrs. Chenoweth. I personally would. Mr. Hodapp, I would 
very much appreciate a follow through on that. I think that is 
a critically important piece of testimony for this hearing. And 
I do believe that we can do better than that. We must do better 
than that. We breached the trust if we cannot have open 
scientific discussions and dialog without political 
interruption. Thank you very much.
    Mr. Kay. I agree.
    Mrs. Chenoweth. I want to ask you, Doctor. I am fascinated 
with your testimony, as well as all four of you, but have you 
done much work in Yellowstone on the grizzly bear?
    Mr. Kay. Yes, I have.
    Mrs. Chenoweth. Would you be willing to say that the 
grizzly bear is reaching a population where we may be able to 
delist the grizzly bear from the endangered species?
    Mr. Kay. Unfortunately, Councilwoman, I would not.
    Mrs. Chenoweth. OK.
    Mr. Kay. Because it is very difficult to try to estimate 
what the grizzly bear population is. Also, I have an entirely 
different opinion as far as what is happening with the grizzly 
bear than that held by park and the U.S. Fish and Wildlife 
Service.
    Mrs. Chenoweth. Could you go over that?
    Mr. Kay. Yes, I believe that the elk are having a severe 
negative impact on the bears. The bears are primarily 
vegetarians and basically the elk and the bison are out 
competing the bears for food. This forces the bears outside the 
park where they are then being killed, but they are really 
dying of ``natural regulation'' management.
    For instance, Congresswoman, you know bears eat berries, 
bears love berries. What you might not know is that the bears 
in the Yellowstone ecosystem don't eat berries. Now, the people 
who do the bear research have postulated that this is because 
Yellowstone is naturally poor habitat for berry-producing 
shrubs.
    But, if you read the first-person historical journals, 
there are accounts of Native Americans in the 1860's, excuse 
me, 1869 and 1870, who were collecting choke cherries by the 
bushel basket full just outside Yellowstone Park. And as part 
of our research which is attached as Appendix B, I actually 
measured the berry production inside and outside long-term 
exclosures, these are fenced plots where the ungulates have 
been excluded.
    And at one exclosure, if my memory serves me correctly, 
that is called West-Lamar in Yellowstone National Park, 100 
serviceberry plants outside where the elk graze produced no 
berries. While inside the exclosure, 100 plants produced over 
111,000 berries. Chokecherries per 100 plants outside the 
exclosure none, while inside the exclosure 100 plants produced 
212,000 berries. The elk have also had a severe negative impact 
on other foods bears prefer such as cow parsnip and other 
species.
    Plus riparian areas, riparian areas are critical for 
grizzly bears. When you read the Grizzly Bear Recovery Plan and 
other governments documents, they all note that riparian areas 
are critical for grizzlies. But those areas have been destroyed 
by the elk in Yellowstone National Park.
    Mr. Boyce. Grizzly bears also eat elk and the grizzly bear 
population in the greater Yellowstone ecosystem has never been 
higher according to all current scientific information both 
based upon counts of unduplicated females with cubs of the 
year, as well as the demographic data on grizzly bears in the 
greater Yellowstone ecosystem. I have spent the last three 
years analyzing those data and we have never had a more viable 
population of grizzly bears in the greater Yellowstone 
ecosystem in recorded history.
    Unfortunately, I would agree with Dr. Kay that it is not 
time to delist the bears. We need to insure that the population 
is large enough to persist for long periods of time and 
expanding the range is probably a very important thing to do, 
for example, into the Wind River range of Wyoming.
    Mrs. Chenoweth. Dr. Boyce, I noticed you did not mention 
Idaho and I really appreciate that because I--we're very proud 
of Idaho. And I appreciate your comments. I do want to add, Dr. 
Keigley, you said that you were barred from doing further 
research in Yellowstone. I want to know specifically by whom 
were you barred.
    Mr. Keigley. I think I explained a moment ago that the 
mechanism by which it happened----
    Mrs. Chenoweth. Well, let me ask you this to make it 
easier. Was it the superintendent who barred you?
    Mr. Keigley. Let us say he failed to take steps----
    Mrs. Chenoweth. To issue the permit.
    Mr. Keigley. To cause the permit to be issued.
    Mrs. Chenoweth. And everything else was in place for you to 
do the study that you were mandated to do, right?
    Mr. Keigley. That is correct. I could have done it.
    Mrs. Chenoweth. In other words, the park superintendent has 
total control over who does what research and ultimately who 
publishes what regarding the park, is that what you gentlemen 
are telling me?
    Mr. Keigley. Well, the permit had to be--the proposal had 
to be given to the resource committee. Another individual opted 
not to do that. That person is under the authority of the 
superintendent and it could have been turned around but it was 
not.
    Mrs. Chenoweth. Thank you. And I see the yellow light on, 
Mr. Chairman. I am going to have to leave though and I do just 
want to say, Mr. Chairman, that what I am learning and what I 
am seeing in the media disappoints me so much about how the 
bison are starving in Yellowstone.
    Of course, Idaho borders the park and being from Utah I 
know, Mr. Chairman, you can identify with my concern because 
what would happen if our cattlemen allowed their cattle to 
starve like this. What would the public outcry be if cattle 
were starving and what if a puppy or a dog were starving? This 
just cries against the Americans' human nature. Thank you.
    Mr. Hansen. Thank you. Dr. Wagner and Dr. Kay both alluded 
to what the Yellowstone Park can hold as far as bison or elk 
and there seems to be no question that they are well overgrazed 
and there are too many there. What figure would you come up 
with? I mean that is kind of a tough question, I guess. Give me 
an approximate, would you?
    Mr. Wagner. It is hard for the whole park but the focus has 
been on the northern range which is the big herd that winters 
inside the park. Most of the other major herds move outside the 
park in winter. In the northern range right now there are 
something over 20,000 elk.
    At one point that herd had been taken down to less than 
5,000, possibly as low as somewhere between 3,000 and 4,000. At 
that point in time there was evidence of recovery of the 
vegetation of some of the animals, and at that point in time 
the biologists then in the park believed that the proper number 
of elk from the northern range was on the order of 5,000.
    Now, again, that depends on what the goal of the park is. 
If the goal of the park is to reconstruct or to try to maintain 
the conditions that prevailed at the time of the European 
contact, Dr. Kay's evidence suggests that there were probably 
fewer than 5,000. Dr. Keigley and I currently have a manuscript 
in press where we are projecting something on the order of 
5,000 or fewer elk in the northern range at the time the park 
was formed, and we believe those animals migrated out of the 
park during the winter down to the Yellowstone Valley. So we do 
not even think that they wintered in the park even when they 
were down at those low numbers.
    Mr. Hansen. It amazes me that, let us see, we have about 40 
units that we allow hunting in. I guess that would be just like 
spitting on the flag in the eyes of some folks to allow hunting 
in that area, but I am sure it would be a great hunt. You know, 
Deseret Land and Livestock in my home State of Utah, if you 
want to shoot an elk it costs you $5,000 to go up there and 
shoot one.
    Mr. Wagner. $9,000 for a bull.
    Mr. Kay. $5,000, Congressman, for their management hunts, 
which are the smaller bulls. Their larger bulls are $9,000.
    Mr. Hansen. I just checked four or five years ago and I was 
totally determined I could not afford it.
    Mr. Wagner. Well, this is inflation.
    Mr. Hansen. And they make money on that place and they tell 
me, I do not know if this is right, but they tell me people are 
standing in line to get those permits to go up into that 
Deseret Land and Livestock, to the benefit of the committee, 
which is a huge ranch in northern Utah, privately owned.
    Now if that is the case and the Park Service did the same 
thing that would be quite a shot in the arm for you to get 
$9,000 a bull in that area especially when they do it in the 
fall when there are not too many folks around there. They could 
do the same thing with bison. Obviously, we are overstocked 
with bison in the same area.
    I know some people just stand aghast, especially the animal 
folks and some of the anti-hunters and anti-gun people, but it 
seems to me kind of a reasonable idea. I just threw that out 
because I want to get some criticism from the press. But let me 
just say this. On the wolf, we have put a lot of money in 
trying to put the wolf back in our area.
    I went out and looked at the pens and everything and I am 
not taking on the theory but it just seemed to me that if you 
really wanted to introduce that species that the 10 or 12 or 14 
that are up there, there would have to be a whole lot more than 
that to come up to balance and make the thing really work. This 
is just almost like having a canine area. You have to spoon 
feed each one of them constantly.
    And, Dr. Kay, I understand you had some thoughts on that. 
Kind of give us an opinion how many would have to be 
established in there to make this thing all work out.
    Mr. Kay. Well, I do not know how many we would have to 
establish there to make it all work out, Congressman. What I 
looked at in my publications is whether the wolf recovery goals 
meet the requirements of the Endangered Species Act because, as 
you know, the recovery goals are for 100 wolves in Yellowstone, 
and 100 in Idaho, and 100 in Montana, and then if all three 
areas reach that number at the same time, the wolf would be 
delisted.
    However, I do not think those goals are realistic. I mean, 
if 100 wolves is enough, Congressman, why can't we live with 
just 100 spotted owls. There is a thing called minimum viable 
population size. So in my analysis of the wolf recovery 
program, I suggest that if the government tries to delist at 
these low figures, then they are going to be sued by 
environmentalists and the government is going to lose in court.
    Based on the best available scientific evidence, mainly 
from research in Canada and Alaska, a population of between 
1,500 and 2,000 interbreeding wolves is needed to meet 
requirements of the minimum viable population size under the 
Endangered Species Act.
    And if you recall, grizzly bears were part of a recent 
lawsuit, which I believe was just been settled out of court. In 
that case, environmentalists asked for about 1,600 or 1,800 
grizzlies as one interbreeding population.
    Mr. Hansen. Well, wait a minute, did everybody hear that, 
1,500 to 2,000?
    Mr. Kay. Yes.
    Mr. Hansen. Is the statement you made?
    Mr. Kay. Yes.
    Mr. Boyce. And of course the expectation is that there will 
be linkages with other populations of other wolves further 
north eventually and that as the wolves coming down from Canada 
expand further south that eventually the link between the 
Yellowstone wolves and the Northern Continental Divide wolves 
will be there sufficient to provide genetic exchange that would 
be sufficient to alter those figures so that the number of 
wolves occupying Yellowstone National Park could be 
substantially lower than that figure, of course.
    Mr. Kay. Spotted owls fly around a lot, Congressman, and 
the Judge ruled you had to have 2,180 pairs of spotted owls to 
meet the requirements of the Endangered Species Act.
    Mr. Hansen. Gentlemen, this has been a very lively and 
interesting discussion. We sure appreciate you being here. It 
is very kind of you. We have got 17 minutes for our last panel 
so we will excuse you and thank you so much for being with us.
    Mr. Kay. Thank you very much, sir.
    Mr. Hansen. Mr. Roger Kennedy, Director of the National 
Park Service, Dr. Mark Schaefer, Deputy Assistant Secretary for 
Water and Science, Department of the Interior. Will you 
gentlemen come up? Mr. Kennedy, what a privilege to see you, 
sir.
    Mr. Kennedy. It is always a joy to come before this 
committee, Mr. Chairman.
    Mr. Hansen. Mr. Kennedy has been the outstanding Director 
of the National Park Service, a joy to work with, and a man 
that has been in some really tough positions in the last few 
years. We appreciate you and want you to know that.

STATEMENT OF ROGER G. KENNEDY, DIRECTOR, NATIONAL PARK SERVICE; 
                   ACCOMPANIED BY DR. SOUKUP

    Mr. Kennedy. Thank you very much, Mr. Chairman. Actually I 
do enjoy coming before this committee. It is a smart bunch of 
Congressmen and they ask good questions. I think the best thing 
I can do with the limited time I have got is try to get a few 
facts on the table, just some numbers that may be useful.
    I would rejoice in entering into a policy discussion on 
science but I am incompetent to do that so I am going to turn 
to Dr. Schaefer and to Dr. Soukup and I think Dr. Fenn is 
behind me. These are a lot of folks that are scientists. Let 
me, if I can, just respond to the call of the meeting which 
said we are going to talk about the relationship of previous 
reports on what you ought to do about science in the parks and 
what the recommendations of those were and what has been done 
about it.
    Let me, if I may, at the outset, however, deal with just a 
couple of possible misapprehensions that may be circulating 
around here. The capacity to do science, and particularly we 
are talking about biological sciences here, the National Park 
Service has not been gutted. There are 499 people classified in 
biological series in the NPS.
    There are 367 with advanced degrees in the biological 
sciences are working for the National Park Service. There are 
312 doing work, research in the parks for the National Park 
Service, and there are 215 who are doing research for the 
National Park Service that are not necessarily Park Service 
folks. I am just trying to deal with the question did they take 
all the science out. They did not.
    Second, with respect to inventory and monitoring, the fact 
is that through our applications for this year, we have asked 
for 15.21 million bucks to do this stuff, to do inventory and 
monitoring to know what it is we have got that we are being 
berated for not knowing enough about. We got $8.46. I am 
including $2 million we are asking for this year.
    We have been pretty consistent in asking for the dough to 
do this work and, as is the case always in the Congress and in 
any administration, we have to claw our way through the 
administrative process and then get past you folks to get the 
dough we need. Third, with respect to this marvelous 
multiplication of Park Service budget that we have been hearing 
some again about today and which I occasionally get asked about 
on television, it just is not true. It just is not true.
    Here is a graph which I want to enter into this record, if 
I may, which shows the National Park Service budget in constant 
1983 dollars from 1983 on and anybody can see what it looks 
like. There is no big multiple increase in Park Service 
funding, and in fact if you look at it in constant purchasing 
power dollars from '91 through '97 it is down. If you look at 
it from '83 through '97 it is down. So let us be done with that 
business.
    Now, if I may, let us turn to this question about funding 
support for resource management. Now that breaks into three 
categories. They are law enforcement. Law enforcement, it costs 
us money, 37 million bucks a year to see to it that people do 
not do bad things in the parks to the resources that we are 
charged with protecting. We take care of things.
    A little reference was made earlier to degradation of 
archaeological sites. That is a hugely important subject and I 
can tell you that in the State of Utah and in other western 
States the destruction of the fundamental American heritage 
that arises because there is not adequate law enforcement to 
protect those resources is a national disgrace. It is true in 
the park system, it is true out of the park system. It ought to 
stop. We are losing the American heritage because people are 
ripping it off.
    Second, in the big numbers that you have heard, there are 
80 million bucks for what is called cultural resource 
management and that includes a huge amount of stuff that you do 
not just naturally think about. We have more objects in the 
park system that we take care of, I mean physical museum-type 
objects than there are in the Smithsonian.
    We have 22,000 historic buildings. We've got to take care 
of those places. We take care of the Native American Graves 
Protection and Repatriation Act activities. That is expensive, 
necessary, and absolutely a part of our obligation to this 
country. We are protecting what we have, both culturally and 
naturally.
    Now most of our discussion today properly has been about 
natural resource protection. How are we doing? How are we doing 
in knowing what we are doing, and how are we doing in acting on 
the basis of what we know? I think those are probably the two 
questions that are before us. Now our intention was--the big 
report, the report that everybody says ought to have set the 
pattern for the Park Service, we agree with it, was the 
National Resource Council, the American Academy of Sciences, in 
1992.
    Let us sort of look at it, if we can, in a real hurry what 
they said because we agree with them and we ought to do some 
more things to get on with this and help things. First, there 
ought to be an explicit legislative mandate for research in the 
National Park Service. Sure, there should.
    Now lots of questions about what do you do when you are 
trying to manage a park and you just had a flood? What are you 
going to do you do when you have a park and the road is rubbed 
out or in the Grand Canyon the water line has run out, are you 
going to spend on long-term research at that moment? You are 
not. And somebody has got to make those decisions on the 
ground.
    I am absolutely for a diversified system of management 
responsibility in which superintendents have a lot of 
responsibility. Now it is also true as you heard earlier that 
it is a good darn thing that the government performance and 
whatever it is act, the GPRA act says you better have better 
accountability for those decisions made. Amen. Good thing. But 
for goodness sake, let us not have the Congress set up a lot of 
mini categories that deny the possibility of intelligent 
management of the parks.
    Now it said we need an independent budget for research. And 
guess what? We got something called the Biological Resource 
Division, the U.S. Geological Survey. You are looking at it on 
my left. It and a whole lot of scientists. That is about as 
independent budget for research as you are going to get. An 
increased budget for research, that is what they recommended 
before we got a 30 percent cut.
    An independent research program where all scientists are 
supervised by scientists, you bet, as long as one of the other 
panelists--if he did. By golly, the question is: what are you 
going to do with it, who are you reporting to? I thought Dr. 
Wagner's four points, and I know I am running longer and I will 
try to run this fast, Dr. Wagner's four points made exquisite 
sense.
    He said there is a tension between proximities so you know 
what you are doing on the ground and long distance which means 
that you have got to have a little freedom and somebody has got 
to protect you so that you can get independent work done. Of 
course he is right. Of course he is right.
    And while I am not the initiator of the National Biological 
Service, I am here to tell you that there is a strong prospect 
that as a consequence of its creation, contrary to a whole lot 
of orthodoxy that I hear, there is a stronger possibility that 
there is going to be a generic capacity to do strategic science 
because people who are doing it are scientists and have a 
strong capacity to do technical science on the ground at the 
same time.
    That is a tension, it is a tension anywhere running 
anything. How does the R&D function relate to the production 
function? This is tough. And, of course, finally, there is the 
problem what do you do about Yellowstone, is it overgrazed, 
isn't it overgrazed, what is the appropriate level of 
population? I do just want to enter two more final facts and I 
am done, and thank you for your tolerance on the time.
    There are fewer bison today in Yellowstone National Park 
than there were in 1988. Second, we had a lot of talk about how 
many elk, when was the vignette, when was the pre-Columbian, I 
do not know, and I have tried to get data as far back as I 
could out of these fellows to tell me what is the history of 
the populations here. The fact is nobody really knows.
    I was handed before I came up here because I just thought 
it was interesting a report, 1921, from the Government Printing 
Office that says the following: 30,000 elk, for instance, live 
in the park. I do not know whether that is true. I do not know 
whether somebody was right that in 1492 there were 5,000 elk in 
this park. I do not think he does.
    Mr. Chairman, I would be delighted to try to respond to any 
questions you have got.
    [Statement of Mr. Kennedy may be found at end of hearing.]
    [NPS Budget in 1983 dollars may be found at end of 
hearing.]
    Mr. Hansen. You know, I really see some value in making you 
wait till the last. His testimony wouldn't have been anywhere 
near as good if you had just given your testimony and walked 
out. We got that great response from what was said. We are 
going to do that with all of them, we will make all the 
Administration people listen to other people and then we will 
get some good testimony.
    Mr. Kennedy. I do not know if I would want to wish that on 
my colleagues, Mr. Chairman.
    Mr. Hansen. Dr. Schaefer, do you have some comments you 
wanted to give us or are you a support actor today?

  STATEMENT OF MARK SCHAEFER, DEPUTY ASSISTANT SECRETARY FOR 
         WATER AND SCIENCE, DEPARTMENT OF THE INTERIOR

    Mr. Schaefer. Well, I am partly support. I guess I will 
make some very, very brief comments. I know you have some 
questions, Mr. Chairman. If you do not mind, I will ask that my 
entire testimony be put into the record.
    Mr. Hansen. Without objection.
    Mr. Kennedy. I should have said that too. Will you file my 
formal testimony, please, Mr. Chairman? Thank you, sir.
    Mr. Schaefer. Secretary Babbitt and the Department have 
made outstanding science our highest priority and we are doing 
everything we can to make our programs as efficient and as 
effective as is possible. Consistent with Congressional 
direction we took the National Biological Service, put it into 
the U.S. Geological Survey, and made it the Biological 
Resources Division.
    They are now there with three other divisions and we think 
this multidisciplinary approach that we have available to us 
now to do research will pay off big time in the long run for us 
and we hope that you will give us a chance to show that we can 
make this arrangement work.
    One reason the Secretary built the National Biological 
Service originally was to provide more independence to our 
scientists. They have that now in the Biological Resources 
Division and we think it is going to pay off for us in the long 
run. Besides the multidisciplinary research activities, I 
wanted to point out that we are making a special effort to 
connect these research programs with the needs of managers, 
whether they are in the parks or the refuges, Bureau of Land 
Management--wherever they are.
    We have gone through a very careful process to develop what 
we call a needs assessment activity or needs assessment 
process. It is done on an annual basis. We identify priority 
needs of managers and we go down the line and take the money we 
have available and dedicate it to those high priority needs.
    Since it is done on an annual basis, there is a lot of 
opportunity to make changes over time if the managers feel like 
we have to redirect resources. We are also making a special 
effort to connect our programs to the needs of the States and 
the tribes. We have done pretty good at that in the Geological 
Survey generally over the years and BRD is going to make a 
special effort to meet the needs of people in the States.
    Also, we are making a special effort to try to leverage the 
resources in the nation's universities. People have talked 
about this earlier today. We agree there are excellent minds 
throughout the country and we have to find a way of tapping 
these people. We are trying to find ways of placing more of our 
own scientists in the university setting so that we can 
leverage those resources.
    And, finally, we very much support the scientific and 
technical activities that take place in the park--those near-
term activities that are directed to monitoring and inventory-
type work. We want to see those go forward. We think we have 
got a good, solid program here that we can make work. We would 
like to work with you. If you identify weaknesses, we will take 
them seriously, we will go back and we will try to make it 
better, but I think we have an excellent program in place. 
Thank you.
    [Statement of Mr. Schaefer may be found at end of hearing.]
    Mr. Hansen. Thank you, Dr. Schaefer. The gentleman from 
American Samoa is recognized.
    Mr. Faleomavaega. Thank you, Mr. Chairman. I certainly 
would like to offer my sense of appreciation to the Director of 
the National Park Service for he certainly, I would say, has a 
mark of distinction in the service that he has rendered to our 
country as Director of this very important agency and I also 
sense a real sense of appreciation for your patience in 
allowing the members of our community to testify before you.
    As you know, the protocol that generally we allow the 
highest officials of the Administration to testify first but I 
am sure you gentlemen can get a sense of appreciation of what 
are some of the things that we go through and hopefully that 
you might be able to respond. And I do appreciate your candid 
response, Mr. Kennedy, to some of the allegations and 
statements that have been made earlier by members of the 
scientific community.
    I wanted to ask Dr. Schaefer as well as Mr. Kennedy, for 
fiscal year 1996 and 1997, has the Congress given you basically 
what you have asked for as far as the biological research 
program is concerned with the Department of Interior? Have we 
been responsive or have we just not given you sufficient 
resources to do your work?
    Mr. Schaefer. Well, last year we had a problem. We got a 
$30 million hit in our budget and I mentioned our needs 
assessment process earlier. Those are the priorities that we 
try to meet for the parks and for the refuges, and because of 
that cut, which we vigorously opposed but did not prevail, we 
had to cut off some of our work related to the parks.
    So we would like to work with you to push a little bit 
harder for some additional solid funding. In FY '98 the 
Administration proposes additional money for the Biological 
Resources Division to support science in the parks and other 
public lands.
    Mr. Faleomavaega. So what you are basically saying is if 
you want us to do our work, give us the money to do it with.
    Mr. Schaefer. Yes.
    Mr. Faleomavaega. Mr. Kennedy, I think you probably may 
have heard Dr. Kay's earlier statement that Park Service 
research program is slanted and is a waste of taxpayers' money. 
Can you respond to that?
    Mr. Kennedy. Baloney. Baloney. There are first-rate 
scientists, as the other scientists testified, who do work for 
the National Park Service. This is not a university. We are not 
sitting around doing abstract research. We are doing work on 
the ground that serves the superintendents and the public 
through those superintendents.
    The hard part, and it is a hard part, every one of the 
responsible scientists that testified before you pointed it 
out, the hard part is connecting what you want to learn about 
and what its consequences are to the management of the place. 
We do first-rate science. We have a lot of people doing first-
rate science. We would like to do better science. Is it 
perfect? Not a bit. But that it is no good at all is bunk.
    Mr. Faleomavaega. I would like your precise statement in 
response. Mr. Kennedy, and I think not only in fairness to Mr. 
Keigley but as well as to the Park Service, and I do not want 
to put you in a position if there is any sensitivity involved 
with the employment of Dr. Keigley previously with the National 
Park Service.
    Would you prefer that we submit the question in writing or 
can you respond orally to some of the allegations stated 
earlier by Dr. Keigley?
    Mr. Kennedy. I appreciate your sensitivity and I would 
prefer not to comment on the particular personnel action or an 
action vis-a-vis of a person who does not currently work for 
the National Park Service, works for somebody else, and 
therefore I--in the first place I have tried to naturally 
enough as anybody else who is going to come testify before you 
fellows, I tried to find out what happened here.
    And I have tried to do that and yet at the end of the day I 
am not this man's boss so I am not going to comment on the 
matter.
    Mr. Faleomavaega. Dr. Schaefer, I think Mr. Kennedy may 
have stated earlier, but I think it would be helpful to the 
committee to submit for the record but say it orally, how many 
biological scientists do we currently have with the National 
Park Service or part of the Biological Research Division. Can 
you give us a breakdown? Do we also have political scientists 
that serve with the National Park Service?
    Mr. Kennedy. Yes. We have a social science program as well.
    Mr. Faleomavaega. Do they study the politics and----
    Mr. Kennedy. Well, politics in the sense that we try to 
find out what the folks, our customers, the American people, we 
try scientifically to study what they want us to do and the 
degree to which we are providing the services they want or not. 
That is not political science exactly. That is sociology but it 
is a social science.
    Mr. Faleomavaega. All right.
    Mr. Schaefer. Do you want a response to the first part of 
your question?
    Mr. Faleomavaega. Yes, please.
    Mr. Schaefer. You got to kind of keep it straight because 
there are the Park Service employees that are doing more of the 
short-term-type work that is monitoring and inventoring in 
focus, and then there is the Biological Resources Division that 
is responsible for the longer term research activities.
    But to answer your question, we have about 1,700 full-time 
equivalents dedicated to Biological Research Division work. 
That is about 600 research grade scientists.
    Mr. Faleomavaega. Do you have a breakdown in PhD's, 
Masters?
    Mr. Schaefer. Yes, we will submit that for the record.
    Mr. Faleomavaega. Please.
    [The following was submitted for the record:]

                Biological Resources Division Scientists

    The Biological Resources Division of the U.S. Geological 
Survey has 519 employees in research positions with a 
bachelor's degree or higher level of education. Of the 519 
employees, 66 have at least a bachelor's degree but have not 
obtained a master's degree, 146 have at least a master's degree 
but have not obtained a doctorate degree and some of these 
individuals may have completed some post-graduate education.
    In addition, BRD has 259 employees in science positions 
which are not research grade with at least a master's degree 
and 105 employees have at least a doctorate degree. These 
support positions are critical to the accomplishment of the 
mission of the Biological Resources Division, and include such 
activities as remote sensing, GIS technology, analytical 
chemistry, biological modelling, and statistics.

    Mr. Schaefer. And we have 48 permanent biologists that work 
right in the parks. We have about 50 biologists that work in 
Cooperative Park Study Units presently. These are university 
located activities where Interior researchers work in 
cooperation with universities.
    Mr. Faleomavaega. My time is up, Mr. Chairman. Thank you.
    Mr. Hansen. Thank you. The gentleman from Montana.
    Mr. Rick Hill. Thank you, Mr. Chairman. Mr. Kennedy, can 
you tell us who makes the decision or who made the decision to 
not manage wildlife in Yellowstone Park or to adopt the natural 
regulation process in Yellowstone National Park?
    Mr. Kennedy. 30 years ago.
    Mr. Rick Hill. I was asking who, but you do not know?
    Mr. Kennedy. 30 years ago because that is when that policy 
became the policy of the park. I am not trying to bicker with 
you. I just wanted to underline--obviously it has been there a 
while and the Leopold report which undergirded it has been in 
place for a long time. I think, Congressman, although I am not 
sure of this and I am just offering--I think that there is a 
discussion going on between your delegation maybe at this 
moment and the Secretaries of Agriculture and Interior, I think 
that is this afternoon.
    Mr. Rick Hill. You are correct.
    Mr. Kennedy. I think so, and I think that I probably should 
not walk all over that discussion by saying much more about 
what they are going to be talking about. I hope it is 
responsive. I believe it is responsive to your question but I 
do not want to gum it up by stating something that is not in 
the light of that conversation.
    Mr. Rick Hill. Well, I would just like to kind of clarify 
how the process works just for my own education.
    Mr. Kennedy. Sure.
    Mr. Rick Hill. Who then today makes this decision? Is this 
a decision that is made by the park superintendent, is it made 
by you, is it made by the Secretary? Who makes this decision 
today?
    Mr. Kennedy. Well, there is not a single decision. There is 
a process in every park in which questions arise as to do we 
need exotic species in or do you work to get rid of them. What 
is an exotic species? Brucellosis bacteria is an exotic 
species. It happens. But who decides what ought to be permitted 
to proliferate and what should not. These are lots and lots of 
species in all these places.
    Mr. Rick Hill. But somebody, Mr. Kennedy, had to make this 
decision. Are you telling me that nobody makes this decision?
    Mr. Kennedy. No, not at all. It is a--there are a multitude 
of decisions. There is not a single.
    Mr. Rick Hill. All right, let me be more specific. With 
regard to the question of bison----
    Mr. Kennedy. Yes, sir.
    Mr. Rick Hill. And the decision to not manage the herd, who 
made that decision and who makes that decision today?
    Mr. Kennedy. There is not a decision not to manage that 
herd. There is not such a decision. It is not made by anybody.
    Mr. Rick Hill. Are you saying that there is not a decision 
to manage the herd through what we commonly refer to as a 
natural management?
    Mr. Kennedy. There is in effect management of that herd 
right now in many ways including the parks being opened in the 
winter. That is a management decision about the behavior of 
that herd.
    Mr. Rick Hill. Mr. Kennedy, let me be more specific. With 
regard to the size of the bison herd and the decision to manage 
its size, is there anyone that you can identify for me who has 
made that decision or will make the decision with regard to how 
it will manage to a size or whether it will manage at all the 
size of the herd?
    Mr. Kennedy. OK. The question that you are putting to me, 
and I am not trying to bicker with you, I am just----
    Mr. Rick Hill. I am trying to get you to not evade me. What 
I want to know is there a person----
    Mr. Kennedy. Who makes the decision as to whether there is 
or is not a prescribed number or not.
    Mr. Rick Hill. Or a decision to manage to that number.
    Mr. Kennedy. OK.
    Mr. Rick Hill. Is there a person? I just want to know is 
there a name, is there a position?
    Mr. Kennedy. Oh, sure there is but what I want to be sure 
of is that the answer to your question is responsive in this 
way. If that implies is there a number----
    Mr. Rick Hill. No, I am asking for the name or the title of 
a person.
    Mr. Kennedy. Me. I am the Director of the National Park 
Service.
    Mr. Rick Hill. What do you think about the fact that there 
have been nearly 1,000 bison destroyed?
    Mr. Kennedy. It depends obviously depending who you are 
talking to today, whether you like to shoot them or let them 
starve.
    Mr. Rick Hill. What is your opinion about----
    Mr. Kennedy. I do not like watching animals suffer any more 
than anybody else does. Do I have a scientific determination as 
to what the carrying capacity of Yellowstone National Park is? 
I do not. I will turn to Dr. Soukup for his advice on that.
    Mr. Rick Hill. I was not asking that question but if I 
could proceed. Do you feel any responsibility at all for what 
has occurred there?
    Mr. Kennedy. You bet. And have I been working on this with 
your governor and others for quite a spell? Yes, sir.
    Mr. Rick Hill. OK. Dr. Kay's research, and anybody that has 
visited the park can see that we have seen a substantial change 
in the park in the last 25 or 30 years, the aspen, the grasses 
are changing, the level of grazing has changed substantially. 
Does that trouble you at all?
    Mr. Kennedy. Sure.
    Mr. Rick Hill. Are you aware of that damage to the park? 
Does it trouble you at all?
    Mr. Kennedy. Yes, and yes.
    Mr. Rick Hill. Do you think it is associated with the 
decision to use natural regulation?
    Mr. Kennedy. I do not know that. I do not know that and I 
really do need to defer to the biological scientists who know 
more than I do.
    Mr. Rick Hill. One last question. We have been working, 
trying to work, with the Park Service to get an environmental 
impact statement to deal with this issue of what is the 
carrying capacity. And, frankly, the view of many is that the 
Park Service has delayed purposely to not allow that statement 
to be released.
    Can I have your assurance that you are going to do 
everything within your power to see that the deadline of July 
31 is met to have that environmental impact statement 
available?
    Mr. Kennedy. Yes.
    Mr. Rick Hill. Thank you. Thank you, Mr. Chairman.
    Mr. Hansen. Thank you. The gentlelady from the Virgin 
Islands.
    Ms. Christian-Green. Thank you, Mr. Chairman. I would like 
to take this opportunity to thank you, Mr. Kennedy, on behalf 
of the people of the Virgin Islands for your tenure as Director 
of the Park Service and for your particular interest in our 
concerns and our needs at home.
    Mr. Kennedy. Thank you.
    Ms. Christian-Green. But I want to ask you specifically 
about some of the recommendations that were made earlier by 
NPCA and seem to have been supported by many other witnesses 
this morning. Are you in favor of the recommendation that 
Congress should enact specific legislative mandate for NPS 
research?
    Mr. Kennedy. Yes.
    Ms. Christian-Green. And the independent research arm that 
would establish independent research?
    Mr. Kennedy. I think, ma'am, we talked about what that 
means really and I think we are on our way to getting now that 
done. I think independent but useful is what I am for. 
Independent so it would tell you something you can use.
    Ms. Christian-Green. OK, and the third one that they 
recommended was that Congress should establish a science 
advisory board.
    Mr. Kennedy. As an expiring bureaucrat I am not big on 
advisory boards. I got to tell you I do not know that the 
Administration's position is on advisory board but I will be 
doggone if I can see a whole lot of use for a whole panoply of 
specific advisory boards for archaeology, for history, for 
sociology, for anthropology or for science. A lot of our people 
love that stuff. I just do not. Personal view.
    Ms. Christian-Green. Thank you for your answers.
    Mr. Hansen. Thank you. Mr. Kennedy, is not this still the 
bible for wildlife management?
    Mr. Kennedy. I cannot see what you got there, Mr. Chairman. 
I will say yes if it is. Is it----
    Mr. Hansen. It is the Wildlife Management in the National 
Parks, the Leopold Report.
    Mr. Kennedy. OK. Could I ask Mr. Soukup? Is that the bible 
for wildlife management in the park?
    Mr. Soukup. Yes, sir, it has been pretty much----
    Mr. Hansen. It is still the one--this lines up perfectly 
with what this last group of scientists just said as far as 
Yellowstone and the others. I was just looking at it. It amazed 
me. Do you still use it or is this now one of those like the 
Pentagon, you know.
    We do studies for the Pentagon ad nauseam and there is a 
big huge room in the bottom of the Pentagon where they hold 
Congressional studies and they are never looked at at that 
point. I just wondered if you had a room like that at the Park 
Service.
    Mr. Kennedy. As I said earlier and it probably shocked my 
colleagues and I will be in hot water, I thought Dr. Wagner's 
formulation of four points made pretty good sense.
    Mr. Hansen. Mr. Kennedy, let me just say this. I want to 
tell you how much we appreciate you coming up here. The time 
that you have been Director has been a real privilege. I have 
an appointment at 3:30 and I do not have a Republican here so I 
am going to turn it over to my good friend from American Samoa.
    Mr. Kennedy. Thank you, Mr. Hansen. Thank you very much. I 
appreciate working with you.
    Mr. Faleomavaega. [presiding] In the spirit of 
bipartisanship, Mr. Kennedy and Mr. Chairman, I am more than 
delighted to assist my friends on the majority side at this 
instance as I am sure that this is always the problem with 
committee hearings and commitments and other committees so I 
will continue and ask the gentleman from Massachusetts if he 
has any questions.
    Mr. Delahunt. No, I do not have any questions, Mr. Kennedy, 
but simply a statement of the well wishes to an expiring 
bureaucrat who really does not sound like a bureaucrat, by the 
way.
    Mr. Kennedy. Thank you, sir. It is a pleasure working with 
you.
    Mr. Delahunt. And, you know, during your tenure you have 
clearly shepherded so well the National Seashore park on Cape 
Cod, and we are eternally in your debt for your assistance and 
help in terms of the initiative with the Boston Harbor Islands 
and you have a proud legacy. Thank you very much.
    Mr. Kennedy. Thank you, sir. Thank you very much.
    Mr. Faleomavaega. The gentleman from Minnesota.
    Mr. Vento. Let me give my kudos to the Director. I think 
that he has finally got us trained after four years. I think 
that your statement today in terms of trying to summarize and 
address and anticipate the questions was exactly what we need. 
I do not know, having to sit here all day you do not get 
paychecks.
    I think probably having to do with shorter panels or 
different panels on different days so obviously the goal to get 
done in the timeframe is easily eclipsed. But we do appreciate 
your service of the last four years. It has been a very bumpy 
one but as I said you have done as well as anyone could have in 
terms of trying to keep it together.
    Mr. Kennedy. Thank you, sir.
    Mr. Vento. We are grateful for that.
    Mr. Kennedy. It is my training in the fourth district of 
Minnesota, Mr. Vento.
    Mr. Vento. But a couple of the questions, just briefly, 
that came to mind when you were talking about environmental 
impact statement. The general plan for Yellowstone or any park 
is a general management plan, which requires DIS, doesn't it?
    Mr. Kennedy. Yes.
    Mr. Vento. And so there is a lot of participation by 
everyone in the process and then a specific resource management 
plan for a specific process in the Park Service for the 
implementation of the general----
    Mr. Kennedy. Oh, yeah, this is going to be a hard thing to 
do. All I said was I will do my best. I will, but this is going 
to be a hard thing to get out in time because there are very, 
very, as you may have observed today, strong points of view 
that bear upon this question.
    Mr. Vento. One of the things, Dr. Schaefer, is there any 
projection for individuals in the Biological Resources Division 
when there is a question about the advocacy of their work for 
their proposals? Do they have a basis for if they have a 
proposal to put forth in this particular matter to another 
agency and it is not in fact accepted. There is the suggestion 
of the thought, of the notion, that management is trying to 
influence the science.
    What type of projection, what type of remedy is in place to 
prevent that type of issue so that the science remains 
inviable? Do you have any comment on that?
    Mr. Schaefer. As I said earlier, one reason that the 
Biological Resources Division wwas formed, and the National 
Biological Service prior to when it was formed, was to provide 
more independence for the Department of Interior's scientists. 
In a situation in which a particular scientist feels that they 
have not gotten a fair shake in terms of research direction 
that they would like to go in and one of the Bureau's desires 
to have that research done, what you do is you start with your 
supervisor and you talk with him or her about the nature of the 
problem.
    And then you push it up through the system if you are not 
satisfied with the supervisor's response. But we are absolutely 
committed to independent research. We encourage our scientists 
to publish in the peer review literature. We want competition. 
We want competition for funding and we want competition for 
publication as well. That is why we emphasize peer review.
    We will look into the concerns that Dr. Keigley----
    Mr. Vento. I guess that is a specific case. But there are 
remedies is what you are saying. You are saying that there are 
remedies that are in place. They work.
    Mr. Schaefer. I believe they work but it is my 
understanding that--well, I think I would like to do what 
Director Kennedy has done and not engage in specific testimony 
on this issue.
    Mr. Vento. No, I do not want you to. The other issue is 
there was some suggestion that you are familiar with the 
scientific journals and other publications and the peer review 
process. Do you think it is fundamentally flawed?
    Mr. Schaefer. Absolutely not. We are looked to worldwide 
for the quality of our peer review system in this country. It 
could always be better but it is the very best--
    Mr. Vento. Post-graduate work that are Nobel prizes or----
    Mr. Schaefer. Well, that is a good sign. That is often 
pointed to as one of the reasons that we are so competitive 
internationally.
    Mr. Vento. Director Kennedy, do you have any comments 
generally about this? Do you have a remedy in terms of these 
sorts of problems that might occur where there are differences? 
There is competition in these areas.
    Mr. Kennedy. Yeah, sure, I do. Unfairness exists in the 
world and when it exists it needs to be looked into by Congress 
or by the Administration to be sure that things are done 
fairly. With respect to peer review, of course I believe in it. 
I have written eight books that have been peer reviewed and I 
bought 412 peer-reviewed pieces in the course of 50 years of 
writing.
    I do not mind submitting my stuff for somebody else who 
knows more than I do to read it over and tell me whether it is 
any good or not. That sounds like a pretty good system to me 
and it works in science and it does in history.
    Mr. Vento. So it may not be perfect but it is the best we 
have got.
    Mr. Kennedy. Darn right.
    Mr. Vento. I was really pleased that you, Director Kennedy, 
mentioned the social sciences, the work that is done there. So 
often the decisions we make in the committee with regards to 
increase in park fees and the permitting systems and the whole 
panoply of decisions that are made in public policy are not 
backed up, for instance, by what the effect would be by doing 
something like simply raising a fee will be in terms of park 
visitation. I mean we cannot answer some of those fundamental 
questions.
    Mr. Kennedy. No. We need to know what we are doing.
    Mr. Vento. Pardon?
    Mr. Kennedy. We need to know what we are doing.
    Mr. Vento. We need to know, yeah. And so I think that it is 
not just the biological sciences that may get the attention 
because the issue of bison, I note that some of the speculation 
on the bison issue is that they referred to the interaction, 
for instance, with snowmobiles.
    In fact, they packed down snow. The bison can find a 
pathway out of the park that way. If they were not able to do 
that, they probably failed and nobody noticed because there was 
not as much participation and utilization of the park. I do not 
know that. That is conjecture.
    We would like to get more answers about that. Maybe that is 
an issue that has to be accepted with regards to how we are 
going to use the park in the winter. Certainly I hope it does 
not prevent it or limit it in any way. After all, it is an 
important activity economically and other ways in that area.
    But, in any event, I do very much appreciate your 
testimony. The time has expired. I appreciate Mr. Hansen 
permitting the hearing to go forward with his absence.
    Mr. Faleomavaega. Thank you. Mr. Kennedy, there are a 
couple of issues that I would like to clear up for the record 
because I think there seems to be a lot of misunderstandings 
about the shooting of the bison in Yellowstone National Park. 
And I want to clear this for the record, the National Park 
Service is not the one that is shooting the bison.
    Mr. Kennedy. That is correct, sir.
    Mr. Faleomavaega. All right. Because of your policy of 
natural regulation, when a bison leaves the internal boundaries 
of the territories of the National Park System, that animal, 
whether it is a bison, elk, or bear, what then happens? Is it 
still under the responsibility of the National Park Service?
    Mr. Kennedy. In the instances that most people are thinking 
about which is the northside of Yellowstone, it is the State of 
Montana that has been on the west side of that portion that has 
been shooting the bison.
    Mr. Faleomavaega. Right. And the purpose of this is the 
fear by the State government officials of the State of Montana 
that the bison, when it goes outside of the boundary of the 
Yellowstone Park, might have problems with brucellosis?
    Mr. Kennedy. Yes.
    Mr. Faleomavaega. Now is there any scientific, Dr. 
Schaefer, any scientific study or evidence to verify whether or 
not bison does have brucellosis?
    Mr. Schaefer. There are bison----
    Mr. Faleomavaega. Or transmitted?
    Mr. Schaefer. OK, transmission. There is no documented case 
of transmission of brucellosis from wild, free-ranging bison to 
cattle, no documented case.
    Mr. Faleomavaega. And is it my understanding that the 
National Park Service, as far as you are concerned, there is 
not an overpopulation of bison currently within the Yellowstone 
National Park?
    Mr. Schaefer. No, sir, I do not believe there is an 
overpopulation of bison in the park.
    Mr. Faleomavaega. So for the record what you are saying is 
that this 1,000 bison that were shot were shot not because they 
were starving to death but because of fear that they might have 
brucellosis, is that----
    Mr. Schaefer. Not all 1,000 were shot. Some of those were 
actually sent to slaughter but----
    Mr. Kennedy. They are dead.
    Mr. Schaefer. Yes, we have lost 1,000 bison for dubious 
reasons.
    Mr. Faleomavaega. Dubious reasons, what were those reasons, 
Dr. Schaefer?
    Mr. Schaefer. Well, the belief that there is a genuine high 
risk of transmission of brucellosis from the bison to the 
cattle. The risk simply has not been well documented 
scientifically.
    Mr. Faleomavaega. Not only that, is not brucellosis really 
not an inherent disease that comes out of bison, it is really 
more from cattle, isn't it?
    Mr. Schaefer. Well, in fact, the Yellowstone bison herd was 
actually originally infected by cattle.
    Mr. Faleomavaega. So as far as the National Park Service is 
concerned, there is no scientific evidence whatsoever to show 
that even the fact that this 1,000 bison that were shot, there 
was no evidence, clear evidence, of brucellosis, the presence 
of brucellosis?
    Mr. Schaefer. A significant proportion of the bison in 
Yellowstone are infected and test positive for brucellosis. 
There is no strong scientific evidence of transmission of the 
disease from Yellowstone bison to cattle. There has not been a 
single documented case of transmission of brucellosis from wild 
bison in Yellowstone to cattle.
    Mr. Faleomavaega. Am I correct that the National Park 
Service does keep a very clear tab on the number of bison 
within the Yellowstone National Park system? In other words, 
you regulate it very closely or do you watch it very closely?
    Mr. Kennedy. We observe it and count it as accurately as we 
can. These are wild critters that move around but we do our 
best. We fly over, for instance, and count them.
    Mr. Faleomavaega. OK, now I just want to make sure that we 
are clear for this record on this. Did you have something you 
wanted to add, Dr. Schaefer?
    Mr. Schaefer. No. I was just debating whether or not to say 
something. Someone was pressing Director Kennedy earlier to 
indicate who was controlling herd size.
    Mr. Faleomavaega. Yes, please respond to that.
    Mr. Schaefer. Under natural regulation it is the man 
upstairs that controls herd size.
    Mr. Soukup. Or the woman.
    Mr. Faleomavaega. The man upstairs.
    Mr. Kennedy. After all, under natural circumstances all of 
the combinations of enough food and enough predators and birth 
rates and death rates.
    Mr. Faleomavaega. I understand that some of the members of 
the native American community expressed concern and I was just 
curious if the National Park Service has been in consultation 
with them because some of the families would have loved to have 
not because necessarily they are hungry but I think for 
purposes of their high respect, the cultural aspects of the 
bison. Has the National Park Service closely worked with some 
of these native American families who requested that this be 
done?
    Mr. Kennedy. Yes.
    Mr. Faleomavaega. Are we going to continue to kill the 
bison or is this----
    Mr. Kennedy. We are not killing the bison. Somebody else is 
killing the bison.
    Mr. Faleomavaega. Is it just the bison or does this include 
the elk as well?
    Mr. Kennedy. There is a hunting operation with respect to 
elk in the State of Wyoming. I am nervous about testifying at 
this particular moment today on this subject when I think the 
Secretary of the Interior and the Secretary or Agriculture are 
meeting with the Montana delegation as we speak, and I think I 
probably better subside at this point while these great ones 
make their policy.
    Mr. Faleomavaega. Well, I sincerely hope that they will 
come out with a resolution----
    Mr. Kennedy. I hope so too.
    Mr. Faleomavaega. [continuing]--to this serious problem 
because I am sure that in the sense of the American people it 
just kind of goes against the conscience of every American to 
see that animals are starving; it is very, very against our 
sense of conscience with what we do with animals, but I do 
appreciate your response.
    Mr. Kennedy. Thank you, sir.
    Mr. Delahunt. Mr. Chairman, could I have one question?
    Mr. Faleomavaega. The gentleman from Massachusetts.
    Mr. Delahunt. Yes. Earlier in the day another panel, one of 
our colleagues, I forget whom, made the statement that there is 
a quarantine in one State, I do not know if it was Montana, of 
Montana's cattle. And the inference that I drew--and I just 
think that this needs to be clarified--is that the quarantine 
resulted from brucellosis that was transmitted by bison from 
the park so that is no relationship?
    Mr. Kennedy. No, I do not believe that is what the question 
meant to say.
    Mr. Delahunt. OK, maybe I am misrepresenting.
    Mr. Kennedy. I just want to say one more thing if I may. I 
think this is a very, very tough situation in which there are 
people with legitimately powerfully different views about how 
many bison or elk there should be in this system. There is no 
agreement on this subject. It is not an easy one, nor is it 
easy for there to be a park which is not a zoo next to places 
where people are running cattle. That is a very, very tough set 
of problems for the nation.
    I guess the only thing that I have resented throughout this 
entire afternoon, if I may speak for myself, was any inference 
that this was an easy, slam-dunk decision for any rational, 
decent person to make. It is very tough and we are doing the 
best we can with it. Thank you, sir.
    Mr. Delahunt. Thank you.
    Mr. Vento. Mr. Chairman, I would just point out that these 
constant contacts between wild populations--whether it be 
mountain sheep or in this case buffalo and cattle--I mean very 
often it is the other way, it is from the outside that these 
things are coming in and affecting the park.
    Mr. Kennedy. Yes.
    Mr. Vento. And while the transmission problem, the 
brucellosis from cattle to buffalo or bison are possible or 
maybe the other, maybe, we do not know, but in these instances 
it is possible to keep them off these grounds but they are 
using these grazing allotments right up to the boundary of the 
park and so there is the suggestion that the species or other 
process might possibly be contaminated.
    But the same thing could be said with regard to the elk. 
Although they may share a different range, they also carry 
brucellosis and they are not shooting them. They are going out 
there wandering because they are game species, and so there is 
not perhaps the same ground share and other factors that enter 
into it because also I think some cultural values that affect 
why they are not shot in those instances.
    So it is important to understand. This is a problem in 
terms of population, quite candidly, in all the parks. We have 
a frankly much more acute, I would say, in some of the eastern 
parks like Camp David.
    Mr. Kennedy. Or Gettysburg.
    Mr. Vento. You do not want gunshot around for other 
reasons, you know. There is a population there of whitetail 
deer that look pretty scrawny. Of course, then again it may not 
be a natural species in some areas but I think it is in that 
area frankly. Dr. Schaefer, did you have any comments?
    Mr. Schaefer. I just wanted to mention that we very much 
support additional research to understand the transmission 
issue better. As you pointed out, a significant number of the 
elk are infected with the bacterium that causes brucellosis and 
we need to understand whether there is transmission between elk 
and bison, and whether there is transmission in the reverse 
direction.
    There are other mammals in the ecosystem that can be 
infected as well. It is something that we do not know a lot 
about. The other point is that the key to solving the problem 
may be developing a vaccine that is safe and effective in 
bison. We would like to put more money, time, and effort into 
the development of that particular vaccine.
    Mr. Kennedy. I think the problem is, of course, this brings 
us right back full circle in terms of suggesting that the Park 
Service has to be at the cutting edge. I am sure that that 
would be interesting or the Biological Resources Division will 
be at the cutting edge in terms of doing primary research on 
things like antigen and antibody reactions.
    And I think that Dr. Fuchi at the National Institute of 
Health might have wherever he went to these days in terms of 
dealing with retro viruses and other factors might have 
something to add to this in a qualitative way. So I mean I 
think we are just saying we get the whole issue of science here 
that we would have to advance and it is not as though 
brucellosis has not received a lot of research dollars.
    Across the country we deal with it in fact and so I mean it 
goes without saying. I do not know what the problem is 
incidentally with the Montana beef versus Alabama but if the 
price of beef was a little higher maybe the problem would not 
be so bad, I do not know.
    Mr. Vento. Mr. Chairman, I think the only positive forward 
motion that I can suggest on this particular point is that it 
would be a good thing for the appropriators, I know this is not 
an appropriations hearing, to listen carefully when the 
Department of Agriculture discusses the necessity for precise 
research on the question of vaccines that might work for bison 
as distinguished from vaccines that might work for cattle.
    That is a thing that might actually help if we paid 
attention to that. The Department of Agriculture is the 
appropriate body probably for that subject but it is important.
    Mr. Faleomavaega. I would just like to say that there 
certainly is a sense of unfairness that directing our attention 
to shooting bison for fear of brucellosis and yet the same is 
not done for elk, and I think not only is there a contradiction 
but certainly a very, very serious problem. And then using the 
name of starvation and then accusing the National Park Service 
for being responsible when in fact this is not the case and 
that is what I call irresponsible media coverage of really the 
real story with the bison in Yellowstone.
    Mr. Kennedy, thank you again, and Dr. Schaefer, and members 
of your office. Thank you, the panelists who were here 
previously. I know the Chairman would have stated the same 
thing in expressing his appreciation for your being here this 
afternoon and also the members of the committee. The hearing is 
adjourned.
    [Whereupon, at 3:33 p.m., the Subcommittee was adjourned; 
and the following was submitted for the record:]

Statement of Barry T. Hill, Associate Director, Energy, Resources, and 
    Science Issues, Resources, Community, and Economic Development 
                             Division, GAO

    Mr. Chairman and Members of the Subcommittee:
    We are pleased to be here today to discuss our views on the 
National Park Service's knowledge of the condition of the 
resources that the agency is entrusted to protect within our 
National Park System. As you know, the Park Service is the 
caretaker of many of this nation's most precious natural and 
cultural resources. The agency's mission, as mandated by the 
Congress, is to provide for the public's enjoyment of these 
resources while, at the same time, preserving and protecting 
these great treasures so they will be unimpaired for the 
enjoyment of future generations. The 374 units that now make up 
the National Park System cover over 80 million acres of land 
and include an increasingly diverse mix of sites ranging from 
natural areas such as Yellowstone and Yosemite National Parks 
to urban areas such as Gateway National Recreation Area in 
Brooklyn, New York, to national battlefields, national historic 
sites, national monuments, and national preserves.
    Over the years, in response to a variety of concerns raised 
by this Subcommittee and other congressional committees, we 
have reported on several aspects of resource management within 
the National Park Service. My testimony today is based 
primarily on the findings of three recent reports, \1\ which 
generally focused on what the Park Service knows about the 
condition of the resources entrusted to it.
---------------------------------------------------------------------------
    \1\ National Park Service: Activities Outside Park Borders Have 
Caused Damage to Resources and Will Likely Cause More (GAO/RCED-94-59, 
Jan. 3, 1994), National Parks: Difficult Choices Need to Be Made About 
the Future of the Parks (GAO/RCED-95-238, Aug. 30, 1995), and National 
Park Service: Activities Within Park Borders Have Caused Damage to 
Resources (GAO/RCED-96-202, Aug. 23, 1996).
---------------------------------------------------------------------------
    In brief, Mr. Chairman, our work has shown that although 
the National Park Service acknowledges, and its policies 
emphasize, the importance of managing parks on the basis of 
sound scientific information about resources, today such 
information is seriously deficient. Frequently, baseline 
information about natural and cultural resources is incomplete 
or nonexistent, making it difficult for park managers to have a 
clear knowledge about what condition the resources are in and 
whether the condition of those resources is deteriorating, 
improving, or staying the same. At the same time, many of these 
park resources face significant threats, ranging from air 
pollution, to vandalism, to the development of nearby land. 
However, even when these threats are known, the Park Service 
has limited scientific knowledge about the severity of them and 
their impact on affected resources. These concerns are not new 
to the Park Service, and, in fact, the agency has taken steps 
to improve the situation. However, because of limited funds and 
other competing needs that must be completed, the Park Service 
has made relatively limited progress to correct this deficiency 
of information. There is no doubt that it will cost money to 
make more substantial progress in improving the scientific 
knowledge base about park resources. Dealing with this 
challenge will require the Park Service, the administration, 
and the Congress to make difficult choices involving how parks 
are funded and managed. However, without such an improvement, 
the Park Service will be hindered in its ability to make good 
management decisions aimed at preserving and protecting the 
resources entrusted to it.

 information about park resources is essential for effective management

    The National Park System is one of the most visible symbols 
of who we are as a land and a people. As the manager of this 
system, the National Park Service is caretaker of many of the 
nation's most precious natural and cultural resources, ranging 
from the fragile ecosystems of Arches National Park in Utah to 
the historic structures of Philadelphia's Independence Hall and 
the granite faces of Mount Rushmore in South Dakota.
    Over the past 30 years, more than a dozen major studies of 
the National Park System by independent experts as well as the 
Park Service itself have pointed out the importance of guiding 
resource management through the systematic collection of data-
sound scientific knowledge. The recurring theme in these 
studies has been that to manage parks effectively, managers 
need information that allows for the detection and mitigation 
of threats and damaging changes to resources. Scientific data 
can inform managers, in objective and measurable terms, of the 
current condition and trends of park resources. Furthermore, 
the data allow managers to make resource management decisions 
based on measurable indicators rather than relying on judgment 
or general impressions.
    Managing with scientific data involves both collecting 
baseline data about resources and monitoring their condition 
over time. Park Service policy calls for managing parks on this 
basis, and park officials have told us that without such 
information, damage to key resources may go undetected until it 
is so obvious that correcting the problem is extremely 
expensive--or worse yet, impossible. Without sufficient 
information depicting the condition and trends of park 
resources, the Park Service cannot adequately perform its 
mission of preserving and protecting these resources.

  information on the condition of many park resources is insufficient

    While acknowledging the importance of obtaining information 
on the condition of park resources, the Park Service has made 
only limited progress in developing it. Our reviews have found 
that information about many cultural and natural resources is 
insufficient or absent altogether. This was particularly true 
for park units that feature natural resources, such as Yosemite 
and Glacier National Parks. I would like to talk about a few 
examples of the actual impact of not having information on the 
condition of park resources, as presented in our 1995 reports. 
\2\
---------------------------------------------------------------------------
    \2\ Appendix I lists the 12 park units we visited while conducting 
this review. These units represent a cross section of the units within 
the park system. However, because they are not a randomly drawn sample 
of all park units, they may not be representative of the system as a 
whole.
---------------------------------------------------------------------------

                           cultural resources

    Generally, managers at culturally oriented parks, such as 
Antietam National Battlefield in Maryland or Hopewell Furnace 
National Historic Site in Pennsylvania, have a greater 
knowledge of their resources than managers of parks that 
feature natural resources. Nonetheless, the location and status 
of many cultural resources especially archaeological resources-
were largely unknown. For example, at Hopewell Furnace National 
Historic Site, an 850-acre park that depicts a portion of the 
nation's early industrial development, the Park Service has 
never conducted a complete archaeological survey, though the 
site has been in the park system since 1938. A park official 
said that without comprehensive inventory and monitoring 
information, it is difficult to determine whether the best 
management decisions about resources are being made.
    The situation was the same at large parks established 
primarily for their scenic beauty, which often have cultural 
resources as well. For example, at Shenandoah National Park in 
Virginia, managers reported that the condition of more than 90 
percent of the identified sites with cultural resources was 
unknown. Cultural resources in this park include buildings and 
industrial artifacts that existed prior to the formation of the 
park. In our work, we found that many of these sites and 
structures have already been damaged, and many of the remaining 
structures have deteriorated into the surrounding landscape.
    The tragedy of not having sufficient information about the 
condition and trends of park resources is that when cultural 
resources, like those at Hopewell Furnace and Shenandoah 
National Park, are permanently damaged, they are lost to the 
nation forever. Under these circumstances, the Park Service's 
mission of preserving these resources for the enjoyment of 
future generations is seriously impaired.

                           natural resources

    Compared with the situation for cultural resources, at the 
parks we visited that showcase natural resources, even less was 
known about the condition and trends that are occurring to 
natural resources over time. For example:
    --At California's Yosemite National Park, officials told us 
that virtually nothing was known about the types or numbers of 
species inhabiting the park, including fish, birds, and such 
mammals as badgers, river otters, wolverines, and red foxes.
    --At Montana's Glacier National Park, officials said most 
wildlife-monitoring efforts were limited to four species 
protected under the Endangered Species Act.
    --At Padre Island National Seashore in Texas, officials 
said Hey lacked detailed data about such categories of wildlife 
as reptiles and amphibians as well as mammals such as deer and 
bobcats. Park managers told us that-except for certain 
endangered species, such as sea turtles-they had inadequate 
knowledge about whether the condition of wildlife was 
improving, declining, or staying the same.
    This lack of inventory and monitoring information affects 
not only what is known about park resources, but also the 
ability to assess the effect of management decisions. After 70 
years of stocking nonnative fish in various lakes and waterways 
in Yosemite, for example, park officials realized that more 
harm than good had resulted. Nonnative fish outnumber native 
rainbow trout by a 4-to-1 margin, and the stocking reduced the 
numbers of at least one federally protected species (the 
mountain yellow-legged frog).

        information on threats to park resources is aiso limited

    The Park Service's lack of information on the condition of 
the vast array of resources it must manage becomes even more 
significant when one considers the fact that many known threats 
exist that can adversely affect these resources. Since at least 
1980, the Park Service has begun to identify threats to its 
resources, such as air and water pollution or vandalism, and to 
develop approaches for dealing with them. \3\ However, our 
recent reviews have found that sound scientific information on 
the extent and severity of these threats is limited. Yet 
preventing or mitigating these threats and their impact is at 
the core of the agency's mission to preserve and protect the 
parks' resources.
---------------------------------------------------------------------------
    \3\ State of the Parks - 1980: A Report to the Congress, U.S. 
Department of the Interior, National Park Service (May 1980).
---------------------------------------------------------------------------
    We have conducted two recent reviews of threats to the 
parks, examining external threats in 1994 and internal threats 
in 1996. Threats that originate outside of a park are termed 
external and include such things as off-site pollution, the 
sound of airplanes flying overhead, and the sight of urban 
encroachment. Protecting park resources from the damage 
resulting from external threats is difficult because these 
threats are, by their nature, beyond the direct control of the 
Park Service. Threats that originate within a park are termed 
internal and include such activities as heavy visitation, the 
impact of private inholdings within park grounds, and 
vandalism. In our nationwide survey of park managers, they 
identified more than 600 external threats, and in a narrower 
review at just eight park units, managers identified more than 
100 internal threats. \4\ A dominant theme in both reports was 
that managers did not have adequate information to determine 
the impact of these threats and correctly identify their 
source. For the most part, park managers said they relied on 
judgment, coupled with limited scientific data, to make these 
determinations.
---------------------------------------------------------------------------
    \4\ Appendix II lists the eight park units we studied during this 
review.
---------------------------------------------------------------------------
    For some types of damage, such as the defacement of 
archaeological sites, observation and judgment may provide 
ample information to substantiate the extent of the damage. But 
for many other types of damage, Park Service officials agree 
that observation and judgment are not enough. Scientific 
research will generally provide better evidence about the types 
and severity of damage occurring and any trends in the seventy 
of the threats. Scientific research also generally provides a 
more reliable guide for mitigating threats.
    Two examples will help illustrate this point. In 
California's Redwood National Park, scientific information 
about resource damage is helping mitigation efforts. Scientists 
used research data that had been collected over a period of 
time to determine the extent to which damage occurring to 
trees, fish, and other resources could be attributed to erosion 
from logging and related road-building activities. On the basis 
of this research, the park's management is now in a position to 
begin reducing the threat by advising adjacent landowners on 
better logging and road-building techniques that will reduce 
erosion.
    The second example, from Crater Lake National Park in 
Oregon, shows the disadvantage of not having such information. 
The park did not have access to wildlife biologists or forest 
ecologists to conduct scientific research identifying the 
extent of damage occurring from logging and its related 
activities. For example, damage from logging, as recorded by 
park staff using observation and a comparison of conditions in 
logged and untagged areas, has included the loss of habitat and 
migration corridors for wildlife. However, without scientific 
research, park managers are not in a sound position to 
negotiate with the Forest Service and the logging community to 
reduce the threat.

   enhancing knowledge about resources will involve difficult choices

    The information that I have presented to you today is not 
new to the National Park Service. Park Service managers have 
long acknowledged that to improve management of the National 
Park System, more sound scientific information on the condition 
of resources and threats to those resources is needed. The Park 
Service has taken steps to correct the situation. For example, 
automated systems are in place to track illegal activities such 
as looting, poaching, and vandalism, and an automated system is 
being developed to collect data on deficiencies in preserving, 
collecting, and documenting cultural and natural resource 
museum collections. For the most part, however, relatively 
limited progress has been made in gathering information on the 
condition of resources. When asked why more progress is not 
being made, Park Service officials generally told us that funds 
are limited and competing needs must be addressed.
    Our 1995 study found that funding increases for the Park 
Service have mainly been used to accommodate upgraded 
compensation for park rangers and deal with additional park 
operating requirements, such as safety and environmental 
regulations. In many cases, adequate funds are not made 
available to the parks to cover the cost of complying with 
additional operating requirements, so park managers have to 
divert personnel and/or dollars from other activities such as 
resource management to meet these needs. In addition, we found 
that, to some extent, these funds were used to cope with a 
higher number of park visitors.
    Making more substantial progress in improving the 
scientific knowledge base about resources in the park system 
will cost money. At a time when federal agencies face tight 
budgets, the park system continues to grow as new units are 
added--37 since 1985, and the Park Service faces such pressures 
as higher visitation rates and an estimated $4 billion backlog 
of costs related to just maintaining existing park 
infrastructures such as roads, trails, and visitor facilities. 
Dealing with these challenges calls for the Park Service, the 
administration, and the Congress to make difficult choices 
involving how national parks are funded and managed. Given 
today's tight fiscal climate and the unlikelihood of 
substantially increased federal appropriations, our work has 
shown that the choices for addressing these conditions involve 
(1) increasing the amount of financial resources made available 
to the parks by increasing opportunities for parks to generate 
more revenue, (2) limiting or reducing the number of units in 
the park system, and (3) reducing the level of visitor 
services. Regardless of which, if any, of these choices is 
made, without an improvement in the Park Service's ability to 
collect the scientific data needed to properly inventory park 
resources and monitor their condition over time, the agency 
cannot adequately perform its mission of preserving and 
protecting the resources entrusted to it.
    This concludes my statement, Mr. Chairman. I would be happy 
to respond to any questions you or other Members of the 
Subcommittee may have.
                                ------                                


     Testimony of Paul C. Pritchard, President, National Parks and 
                        Conservation Association

    Introduction:
    Good afternoon Mr. Chairman and members of the 
Subcommittee. My name is Paul C. Pritchard and I am the 
President of the National Parks and Conservation Association 
(NPCA). NPCA is America's only private, nonprofit citizen 
organization dedicated solely to protecting, preserving and 
enhancing the National Park System. An association of 
``Citizens Protecting America's Parks,'' NPCA was founded in 
1919, and today has more than 500,000 members.
    On behalf of our association, I commend the subcommittee 
for holding this hearing today. Effective research and resource 
management are essential to the future of our national parks 
and I am encouraged by the Committee's recognition of this 
important connection. Since its founding in 1919, NPCA has 
advocated understanding and protecting the national parks 
through science? based management. In fact, one of the 
principal goals of our founders was, ``to thoroughly study the 
National Parks and make past as well as future results 
available for public use.''
    I am pleased to offer testimony today on the effectiveness 
of the National Park Service's scientific research program in 
carrying out the agency's resource protection mission. I also 
appreciate the Chairman's invitation to comment on previous 
reviews of that program.
    Twice in the past ten years, NPCA has commissioned 
significant studies of park research. The purpose of these 
studies was to improve park protection through better research 
and resource management. A summary of our recommendations is 
appended to my testimony as Appendix 1 and I would appreciate 
its inclusion in the hearing record.
    I hope that the Appendix will be helpful and I would like 
to take this opportunity to strongly urge the committee to 
draft a bill that will mandate the following:
    1. A comprehensive program of scientific research in the 
parks;
    2. That the scientific basis for all management decisions 
be fully documented;
    3.That every effort be made to utilize the scientific 
talent and wealth of knowledge of our nation's universities and 
that such cooperation be inclusive rather than exclusive;
    4. That no research occur in the parks unless it is 
authorized by the National Park Service;
    5. That all findings be made know to the National Park 
Service and the public and be made available on the World Wide 
Web;
    6. That research priorities be set according to management 
needs, not solely on the basis of each researcher's personal or 
institutional interests; and
    7. That non-profit 501(c)(3) organizations be given 
incentives to provide financial support for research in the 
parks.
    Legislative Authority.
    The necessity for science-based management of the national 
parks is not a new idea. Although there is no specific 
statutory mandate for such research, at least 11 existing laws 
require some kind of research in the parks They are:
    --Lacey Act (1900);
    --Historic Sites Act (1935);
    --Wilderness Act (1964);
    --Concessions Policy Act (1965);
    --National Historic Preservation Act (1966);
    --National Environmental Policy Act (1969);
    --Endangered Species Act (1973);
    --Clean Air Act (1973);
    --National Parks and Recreation Act (1978);
    --Archeological Resources Protection Act (1979);
    --Native American Graves Protection and Repatriation Act 
(1990) \1\
---------------------------------------------------------------------------
    \1\ National Park Service. Usable Knowledge: A Plan for Furthering 
Social Science and the National Parks. 7 February 1996.
---------------------------------------------------------------------------
    Commissions and Reports.
    Over the last 35 years, at least 15 reports or commissions 
have dealt with science in the National Park System. These 
include:
    --The Government Accounting Office's report on NPS visitor 
services (1995);
    --``A Biological Survey for the Nation.'' The National 
Research Council's plan for establishing a National Biological 
Survey (1993);
    --The National Park Service's report entitled ``Science and 
the National Parks II'' (1993);
    --The Ecological Society of America's report on ecological 
science in the parks (1992).
    --The National Research Council's report entitled ``Science 
and the National Parks'' (1992).
    --The National Park Service's ``Vail Agenda'' report 
(1992).
    --The National Park Service's ``Report of a Workshop for a 
National Park Service Ecological Research Program'' (1992).
    --The National Parks and Conservation Association's 
Commission on Research and Resource Management Policy in the 
National Park System (1988).
    --The National Parks and Conservation Association's 
``National Park System Plan: A Blueprint for Tomorrow'' (1988).
    --A. Starker Leopold's and Durward Allen's report entitled 
``A Review and Recommendations Relative to the NPS Science 
Program'' (1977).
    --``National Parks for the Future'' The Conservation 
Foundation's report on problems facing the National Park System 
(1972).
    --The National Research Council's publication entitled ``A 
Report by the Advisory Committee to the National Park Service 
on Research'' (1963).
    --A. Starker Leopold's report entitled ``Wildlife 
Management in the National Parks'' (1963).
    NPCA's National Park System Plan: In 1988, the National 
Parks and Conservation Association released a nine volume plan 
for the national parks. Volume two of this plan, entitled 
``Research in the Parks: An Assessment of Needs,'' was devoted 
entirely to the status of research in the parks and the 
shortcomings of the research program at that time. This plan 
contained 38 recommendations for improving the status of 
research in the parks.
    Our recommendations are still relevant. Among other things, 
we concluded that:
    1. Congress should enact a specific legislative mandate for 
NPS research which clearly defines the role of research in 
resource management and decision making and requires the 
completion of standardized Service-wide inventories of natural 
and cultural resources, and implementation of permanent 
monitoring programs.
    2. The National Park Service should establish an 
independent research arm, distinct from management and 
operations, to assure long-term continuity and objectivity in 
the NPS research program. This arm should integrate natural, 
cultural and social science divisions under an Associate 
Director for Research. Regional Chiefs of Research should 
report directly to the respective division chiefs at WASO. All 
park researchers should report to the respective Regional Chief 
of Research.
    3. Congress should establish a Science Advisory Board of 
demonstrably qualified experts to provide independent, balanced 
and expert assessment of NPS natural, cultural, and social 
science needs and programs. Regional and park-specific adhoc 
science advisory boards should also be established.
    4. The NPS should include in its annual budget request, and 
Congress should appropriate, a separate line item for research 
equivalent to 10% of the total operating budget of the National 
Park Service. Congress should specify that the funds be used to 
establish a servicewide projects fund; increased park and 
regional base funding for research, inventory and monitoring; 
and a contingency fund for emergency needs.
    5. NPS should establish additional Cooperative Park Studies 
Units and cooperative agreements focusing on the social 
sciences, historical and archaeological research. To ensure 
that the best available expertise is obtained, CPSU cooperative 
agreements should require that the CPSU administrator solicit 
proposals from private sector scientists with geographic and 
subject matter expertise in the parks under study.
    6. Each NPS region should be required to prepare an annual 
report, outlining all inhouse, contract, and CPSU research that 
has been completed that year, is still in progress, or is in 
need of initiation.
    7. The NPS should develop and implement a standardized, yet 
flexible, technique for measuring visitation and visitor needs 
in the parks. This should include the establishing of 
``indicator'' parks that would be surveyed periodically to 
provide baseline information, and show comparisons between 
parks. The results of these studies should be disseminated to 
concessioners and the tourism industry.
    8. Funding should be provided to enable the NPS History 
Division to conduct the historic theme studies which are used 
to identify potential additions to the national park system, 
the national historic landmarks system, and the National 
Register of Historic Places. A shipwrecks theme study should be 
conducted and appropriate National Register nominations 
prepared. Where appropriate, national historic landmarks should 
be designated.
    9. The NPS should conduct a survey assessment of the 
historical research function throughout the service; consider a 
more stable funding source for historic resource studies for 
natural and recreational areas as well as administrative 
histories that analyze policy issues; and establish base 
funding for cultural resource studies whose principle purpose 
is to provide data for interpretation.
    1a The NPS should provide additional funds for the 
Submerged Cultural Resources Unit and the Maritime History 
Project so that underwater archaeologists can continue to 
inventory and document shipwrecks before treasure hunters strip 
them of their research potential.
    11. Parks with significant natural resources should develop 
or expand a Geographic Information System, a computerized 
mapping system that organizes data spatially, enabling park 
managers to make timely, effective management decisions.
    12. The development and implementation of a comprehensive 
NPS natural resources inventory and monitoring program should 
be a high priority. The I&M program should be conducted in 
cooperation with adjacent landowners, state and federal 
agencies, non-governmental organizations, and the governments 
of other countries.
    13. The NPS should establish technical research centers for 
each major biome, using existing Cooperative Park Study Units 
if possible. Topic-oriented or biome-oriented centers should be 
multi-organizational to foster cooperation with other agencies 
experiencing similar resource problems, and should be staged 
with interdisciplinary science teams that could travel to 
individual parks to assist with special research problems. The 
centers could also serve as training and continuing education 
centers for researchers, resource management specialists and 
park managers.
    The Gordon Commission In 1989, NPCA funded, in cooperation 
with the National Park Service, the Commission on Research and 
Resource Management Policy in the National Park System, a 
``blue ribbon'' panel whose mission was to assess the roles of 
research and resource management in the future of the national 
parks. Also known as the ``Gordon Commission,'' after its 
chairman, John C. Gordon, Dean of Yale University's School of 
Forestry and Environmental Studies, the Commission made 
numerous recommendations for improving science and management 
in the parks. The Gordon Report contains a series of 
recommendations, including several that NPCA had already made 
in the 1988 System Plan.
    In 1991, the National Park Service followed NPCA's lead by 
requesting that the National Research Council (NRC) of the 
National Academy of Sciences review the status of science-based 
management in the national parks. In 1992, the NRC concurred 
with the Gordon Commission and reported that science-based 
management of the parks was woefully inadequate.
    The NRC made 16 major recommendations for improving park 
research. A recent analysis of the NRC recommendations and 
those made by NPCA in 1988 and 1989 indicates that each of the 
NRC's 16 recommendations was a restatement of a Gordon 
Commission recommendation.
    One recommendation that appeared in all three reports was 
the call for a research mandate for the NPS. In December 1993, 
and again in late 1996, members of the NPS Directorate (now 
National Leadership Council) circulated a draft bill that would 
``provide for a program of research in the units of the 
National Park System,'' \2\ but, no bill was introduced.
---------------------------------------------------------------------------
    \2\ Memorandum from Acting Director, NPS to Deputy Director, 
Legislative and Intergovernmental Affairs through Assistant Secretary 
for Fish and Wildlife and Parks. 14 December 1993.
---------------------------------------------------------------------------
    National Biological Survey: Impact on the National Park 
Service Consistent with the plans set forth in the 1994 report 
entitled ``A Biological Survey for the Nation,'' the National 
Park Service lost many of its researchers during the time the 
research mandate bill was being circulated in draft form. These 
former NPS researchers joined scientists from the Cooperative 
Research Units of the U.S. Fish and Wildlife Service and 
several other federal agencies to form the National Biological 
Survey. \3\ The result, according to a survey of NPS managers 
and former researchers, was the collapse of already inadequate 
science-based management of the national parks.
---------------------------------------------------------------------------
    \3\ For an exhaustive description of the National Biological 
Survey, its structure and purpose, see: A Biological Survey for the 
Nation. National Research Council. National Academy Press. 1993.
---------------------------------------------------------------------------
    The results of a survey conducted in early 1996 by the 
office of the Associate Director for Natural Resource 
Stewardship and Science are recorded in a report entitled 
``Working Relationships Between The National Biological Service 
and the National Park Service: A Survey of Managers and 
Scientists.'' The Service described the survey results as 
``...representing the opinions of selected NPS managers and 
illustrating  the  range  and  diversity  of  view  among  NPS  
partners  within the NBS.'' \4\
---------------------------------------------------------------------------
    \4\ United States. Natural Resource Stewardship and Science 
Directorate, National Park Service. Working Relationships Between The 
National Biological Service and the National Park Service: A Survey 
Managers and Scientists. Washington, D.C. 17 April 1996.
---------------------------------------------------------------------------
    This survey revealed the impact the establishment of the 
NBS had done on NPS research capacity and the application of 
research findings to park resources management. Survey results 
included the following:
    1. Before the transfer of NPS scientists to the NBS, 49% of 
the NPS respondents reported that they had received scientific 
assistance ``regularly;''
    2. Since the transfer of NPS scientists to the NBS, only 
19% of the respondents reported receiving assistance from the 
transferred NPS scientists ``regularly;''
    3. Since the transfer of NPS scientists to the NBS, the 
percentage of respondents ``never'' receiving scientific 
guidance had nearly tripled, from 11% to 32%; and
    4. Respondents were asked whether they received research 
and technical assistance from National Biological Service 
scientists who were not previously with the NPS. 5% reported 
receiving such assistance ``regularly,'' 24% ``occasionally,'' 
and 71% reported none.
    The Park Service drew the following conclusions from the 
survey results:
    1. ``The perceived level of research and technical 
assistance regularly provided by former NPS scientists has 
declined;''
    2. ``The proportion of managers receiving no assistance has 
increased;''
    3. One-fifth of the scientists who were transferred from 
NPS to the National Biological Service were either ``not 
encouraged or actively discouraged'' from assisting NPS 
managers after the transfer;
    4. Over 50% of the scientists who were transferred from NPS 
to the National Biological Service ``felt that their support 
from NPS parks had declined.'' \5\
---------------------------------------------------------------------------
    \5\ Ibid.
---------------------------------------------------------------------------
    This status of research in the parks reached a new low on 
October 2, 1996 when the U.S. Geological Survey (USGS) 
announced the creation of its Biological Resources Division 
(BRD) and the appointment of Dennis B. Fenn, a former National 
Park Service soil scientist, as its first chief biologist. This 
announcement marked the transfer of NBS scientists from the 
National Biological Service (formerly Surly) to the USGS. It 
meant that former park scientists, already far removed from 
park managers by the bureaucracy of the NBS, had become 
employees of the USGS. \6\
---------------------------------------------------------------------------
    \6\ `` `New' U.S. Geological Survey Names First Chief Biologist.'' 
PRNewswire, America on-line News Profiles Service. 2 October 1996.
---------------------------------------------------------------------------
    The BRD claims that it has ``...a strong commitment to 
supporting the scientific needs of the other bureaus within the 
Interior Department,'' according to a USGS press release. 
However, based on the results of the NBS experiment, there is 
no reason to believe that this will be the case.
    This is particularly unfortunate, because, as the DOI 
Science Board wrote in a September 9, 1996, service-wide 
proposal for science-based management,
    ...management of the nation's lands and waters requires 
skillful public service supported by sound science. The 
challenges of the 21st century--and the choices they  will  
shape  for  the  American  people--will  demand  even  more  
skill and science. \7\
---------------------------------------------------------------------------
    \7\ United States. Department of the Interior Science Board. 
Science fore Management in the 21st Century: A Network of Cooperative 
Ecosystem Studies Units. 9 September 1996. pg. 1.
---------------------------------------------------------------------------
    NPCA strongly agrees with this statement.
    Importance of Research-based Resource Management:
    There are many reasons why we must work to improve research 
and resource management in the parks. First of all, until 
Congress funds research and resource management adequately, we 
will continue to deal with the unresolved problems this 
committee has faced in recent years. Until we base management 
decisions on the best possible scientific evidence, we will 
continue to be engaged in arguments based on perception and 
assumption, rather than on fact.
    Another important reason for encouraging science-based 
management is to better protect our parks for the benefit of 
the American people. The National Park Service's Organic Act 
mandate requires the agency to ``...conserve the scenery and 
the natural and historic objects and the wild life therein...'' 
in perpetuity. We cannot achieve that goal without research 
because we cannot protect what we do not understand.
    There are many examples of how a little research, linked to 
competent management, can benefit the parks.
    Some examples:
    1. Enhancing Visitor Experience and Resource Protection. 
After NPCA developed the Visitor Impact Management framework, a 
tool land managers can use to protect park resources from over 
crowding and ensure visitor enjoyment of the parks, the 
National Park Service began implementing a derivation of this 
process as the Visitor Experience and Resource Protection 
program. This is an example of how research can inform managers 
and produce benefits for parks and people.
    2. Protecting Air Quality. The air quality information that 
has been developed through monitoring and experimentation at 
Shenandoah National Park and Great Smokies National Park has 
enabled the National Park Service to show that air pollution 
generated miles away can and does harm plants and trees in the 
parks. This information has allowed citizens to better 
understand how their development decisions and pollution 
control activities affect our national parks.
    4. Protecting Park Ecology. Researchers from the University 
of Washington have conducted studies that are helping the park 
service protect the park's beautiful subalpine meadows.
    5. Utilizing Partners. NPS has a cooperative agreement with 
the Organization of American Historians (OAH), the largest 
American History organization. In November 1995, OAH 
established a National Park Committee. As a result of this 
cooperation, five members of OAH spent three days at Antietam 
reviewing Civil War scholarship and ways it could be integrated 
into the National Park Service's resource management and 
interpretation programs there. \8\
---------------------------------------------------------------------------
    \8\ Pitcaithley, Dwight. Personal Interview. 18 July 1996.
---------------------------------------------------------------------------
    6. Studying Visitor Needs. The Visitor Service's Project 
Database (VSP) provides a record of visitor characteristics and 
needs. It is available to the public and is maintained by the 
NPS Visitor Services Project at the University of Idaho. It 
contains data collected in more than 80 units of the National 
Park System since 1982. The data represent snapshots in 
individual parks and there is no monitoring of these parks over 
time, but the VSP is at least a step in the right direction.
    While these successes are important, they need to be 
multiplied many fold. There is still so much we need to know. 
Until we have an adequate level of research, park resources 
will remain at risk.
    Failures and Shortcomings of NPS Research and Resource 
Management While there have been many successes as a result of 
cooperation between researchers and resource managers, there 
have also been many failures. In many instances, even the most 
basic resource knowledge, in the hands of well-trained 
managers, could have prevented the irreversible loss of park 
resources.
    Some examples:
    1. Everglades. The recent crisis in the Florida Everglades 
has arisen in part because of a lack of basic knowledge about 
the ecosystem of south Florida. Had the Park Service and other 
agencies better understood the dynamics and hydrology of that 
system before its alteration began, we would not need to be 
devoting hundreds of millions of dollars to restoring the 
system.
    2. Cultural Resources in the Southwest. For decades, the 
National Park Service has lacked the information needed to care 
for prehistoric ruins in the southwestern United States. As a 
result of this information gap, the Park Service has damaged 
many irreplaceable structures and ruined others. A recent 
initiative, announced in the FY 98 budget and known as 
``Vanishing Treasures,'' is an attempt to begin research-based 
management to these cultural treasures.
    3. Transportation. The dramatic increases in visitation the 
parks have experienced since the l950s has been met with a 
decades old response: building more roads for single passenger 
vehicles. Access to our parks will be one of the most 
controversial issues in our future if we do not begin to seek 
and apply knowledge to this management challenge. This presents 
an opportunity to correct our course and gain adequate 
knowledge before building new roads, or monorails, or funding 
unknown transportation strategies.
    4. Water in Death Valley. During a recent visit to Death 
Valley, I learned that development of lands adjacent to the 
park could dramatically drop the area's water table and dry up 
already rare springs. But park managers aren't sure how 
development will affect the park's few oases, because the basic 
research on the area's hydrology has not been done. If 
landowners and park lovers are at odds over the allocation of 
water in the area, there is little we can do to resolve 
conflict until we have baseline data regarding the region's 
hydrology.
    5. Global Climate Change. An additional and equally 
daunting challenge facing our parks is global warming. A 
recent, informal review conducted by NPCA has shown that 49 of 
our 54 national parks could lose their most significant 
features to global climate change. This much we think we know, 
but we have taken little action to counter this threat. This 
breakdown between knowledge and action is an additional threat 
to the parks.
    6. Yellowstone National Park's Buffalo Management. A final, 
but especially timely, example of how current research, 
science, and information are inadequate to manage park 
resources is the case of the buffalo herd in Yellowstone 
National Park. This winter, over 1,000 American buffalo have 
been slaughtered in and around Yellowstone. This amounts to 
one-third of the park's buffalo population.
    Park personnel have participated in the slaughter under the 
guise of ``disease prevention.'' Federal and state bureaucrats 
have claimed that because the buffalo may be infected with 
brucellosis, they must not be allowed to commingle with 
domestic cattle. Nor must they be allowed to use their historic 
wintering grounds, on public or private lands, because they 
allegedly pose a threat to domestic cattle.
    But the trouble is, there is no scientific evidence that 
documents the transmission of brucellosis from buffalo to 
domestic cattle in the wild. None.
    One-third of Yellowstone National Park's buffalo have been 
sacrificed because the National Park Service, the U.S. 
Department of Agriculture, and the state of Montana refuse to 
base management on facts. This lack of facts can only lead us 
into conflict. This is unacceptable and it must not continue.
    No one wants to put domestic cattle at risk. My family has 
cow-calf and dairy operations. I come from a cattle farming 
family.
    I implore the members of the committee to steer us out of 
these troubled waters of management by supposition and innuendo 
and toward a more reasonable management informed by research 
results.
    Conclusion.
    In closing, I offer a few general recommendations for 
improving park protection through research based resource 
management.
    1. Before investing $5 billion or more in capital 
improvements for the parks, Congress should invest in 
intellectual capital for the parks--the scientists and the 
resource managers--that will make sure that every one of those 
dollars is wisely spent. Adequate research will help us avoid 
conflict and ensure that we ``...conserve the scenery and the 
natural and historic objects and the wild life...'' in 
perpetuity.
    2. Park research should depend upon reliable links to the 
academic community through programs such as the Department of 
Interior Science Board's proposed ``Cooperative Ecosystem 
Studies Units.''
                                ------                                


Appendix 1: Summary of Recommendations, National Parks and Conservation 
        Association: 1988, 1989, National Research Council: 1992

     testimony of paul c. pritchard, president, national parks and 
                        conservation association

    In 1991, the National Park Service responded to the 
research-related recommendations the National Parks and 
Conservation Association (NPCA) made in its 1988 National Park 
System Plan as follows:
    In general terms, the Service supports much of the thrust 
of this volume as it advocates more research funding and 
personnel, better inventory and monitoring programs, enhanced 
professional standards and capabilities, etc. However, the 
Service maintains that it has the full authority to do whatever 
research is needed and disagrees that there is a need for 
additional legislative authority for research, though some 
legislative clarifications be helpful.
    Regarding the structure of the science/research programs of 
the National Park Service, since investigation and formulation 
of the NPCA recommendations on park research, the Service has 
entered into an agreement with the National Academy of Sciences 
and they are now conducting a comprehensive review of the NPS 
science programs. Thus, pending the outcome of that review, the 
Service will not comment on NPCA's recommendations regarding 
the structure of the science programs. \1\
---------------------------------------------------------------------------
    \1\ `` `NPS Review Comments on the National Parks and Conservation 
Association's National Park System Plan--Investing in Park Futures - 
The National Park System: A Blueprint for Tomorrow.'' Memorandum from 
Acting NPS Director to Directorate, Field Directorate, WASO Division 
and Office Chiefs. 18 April 1991.
---------------------------------------------------------------------------
    In 1992, National Academy Press published the results of 
this ``comprehensive review of the NPS science'' programs as a 
book entitled ``Science and the National Parks.'' NAS planned 
to conduct a Service-wide peer review of research but ``soon 
determined that the crucial problems in the NPS research 
program are not at the level of individual projects. Instead, 
they are more fundamental, rooted in the culture of the NPS and 
in the structure and support it gives to research. Thus, the 
committee concluded that the real need was for an assessment 
more broadly focused on the research program and its place 
within the agency (emphasis added).'' \2\
---------------------------------------------------------------------------
    \2\ National Resource Council Science and the National Parks. 
Washington: National Academy Press, 1992, pg. 9.
---------------------------------------------------------------------------
    This report was a restatement, four years after the fact, 
of NPCA's assessments of NPS science in the 1988 National Park 
System Plan and the Gordon Report. The National Academy of 
Sciences included the following laundry list of recommendations 
for improving the NPS science program:
    1. To eliminate once and for all any ambiguity in the 
scientific responsibilities of the Park Service, legislation 
should be enacted to establish the explicit authority, mission 
and objectives of the national park science program.
    Status: No Action.
    As shown below, NPCA already had made this recommendation 
in the 1988 National Park System Plan and again in its 1989 
report entitled National Parks: From Vignettes to a Global View 
(The Gordon Report).
    ``Congress should enact a specific legislative mandate for 
NPS research which clearly defines the role of research in 
resource management and decision making and requires the 
completion of standardized Servicewide inventories of natural 
and cultural resources, and implementation of permanent 
monitoring programs.'' \3\
---------------------------------------------------------------------------
    \3\ The National Park System Plan Volume Two: Research in the 
Parks. Washington: National Parks and Conservation Association, 1988, 
pp. 107-111.
---------------------------------------------------------------------------
    On at least two occasions, the Park Service has drafted 
such legislation, most recently at the request of Sen. Jeffords 
in 1996, but no bill has been introduced.
    2. The National Park Service should establish a strong, 
coherent research program, including elements to characterize 
and gain understanding of park resources and to aid in the 
development of effective management practices.
    Status: Some Improvement.
    As shown below, NPCA already had made this recommendation 
in the 1988 National Park System Plan.
    ``Park managers should be selected on the basis of their 
knowledge of resource management practices, their ability to 
manage and use science programs, and their ability to apply 
that knowledge when formulating budget requests. Managers 
should be held accountable, through performance standards, for 
utilizing applicable research findings in decision making.
    1Researchers should be held accountable, through 
performance standards and contract stipulations. for working 
closely with management and presentation of research results in 
formats useful to managers, including executive summaries with 
management alternatives and implications. Contracts should 
provide for follow up to assist with the application of 
management recommendations. Incentives and rewards should be 
provided. \4\
---------------------------------------------------------------------------
    \4\ Ibid.
---------------------------------------------------------------------------
    NPS has recognized this need and clearly stated its 
commitment to the professionalization of the rangers assigned 
to research and resource management duties. According to a 1995 
NPS report, ``the ranger of the future will be required to have 
academic training in the cultural or natural resource fields.'' 
\5\ This move toward professionalization is also evident in the 
``Careers'' program, NPS Restructuring, and the new NPS 
training program entitled ``Employee Training and Development 
Strategy.''
---------------------------------------------------------------------------
    \5\ United States. National Park Service Natural Resources 
Strategic Plan Team II. The Natural Resource Management Challenge: The 
NR-NL4P Report Washington: NPS, 3 March 1995.
---------------------------------------------------------------------------
    3. To provide a scientific basis for protecting and 
managing the resources entrusted to it, the Park Service should 
establish and expand where it already exists, a basic resource 
information system, and it should establish inventories and 
monitoring in designate park units.
    Status: Some Improvement.
    NPCA had made this recommendation in the 1988 National Park 
System Plan.
    ``Congress should enact a specific legislative mandate for 
NPS research which clearly defines the role of research in 
resource management and decision making and requires the 
completion of standardized Servicewide inventories of natural 
and cultural resources, and implementation of permanent 
monitoring programs. \6\
---------------------------------------------------------------------------
    \6\ Ibid.
---------------------------------------------------------------------------
    ``Parks with significant natural resources should develop 
or expand a Geographic Information System, a computerized 
mapping system that organizes data spatially, enabling park 
managers to make timely, effective management 
decisions.``Congress should specify that...funds be used to 
establish...increased park and regional base funding for 
research, inventory and monitoring....
    ``The NPS should provide for effective data management by 
increasing the quality and use of the COMMON data base, 
including developing a standardized, systemwide inventory 
methodology for the ecological modules. Cultural resource data 
bases, particularly the Cultural Sites Inventory, and the List 
of Classified Structures should be fully implemented. Funding 
should be provided to complete the descriptive cataloging of 
artifacts in the Service's museum collections.
    ``The development and implementation of a comprehensive NPS 
natural resources inventory and monitoring program should be a 
high priority. The I&M program should be conducted in 
cooperation with adjacent landowners, state and federal 
agencies,  non-governmental  organizations,  and  the  
governments  of other countries.'' \7\
---------------------------------------------------------------------------
    \7\ Ibid.
---------------------------------------------------------------------------
    COMMON no longer exists, but several new databases have 
been established since 1988 and others have expanded. NPS 
maintains the List of Classified Structures (LCS) database, the 
Automated National Catalog System (ANCS), the Cultural 
Landscapes Initiative (CLI) database, the Cultural Sites 
Inventory (CSI), the National Catalog of Museum Objects (NCMO), 
and the Inventory Condition Assessment Program (ICAP). These 
are described below and in the Cultural Resources Database 
Appendix. CSI, CLI, and ICAP are in the development stages.
    4. This [basic resource information] should be obtained and 
stored in ways that are comparable between park units, thereby 
facilitating access, exchange, integration, and analysis 
throughout the park system and with other interested research 
institutions.
    Status: No Action Taken.
    As shown below, NPCA already had made this recommendation 
in the 1988 National Park System Plan.
    ``Congress should enact a specific legislative mandate for 
NPS research which clearly defines the role of research in 
resource management and decision making and requires the 
completion of standardized Servicewide inventories of natural 
and cultural resources, and implementation of permanent 
monitoring programs.'' \8\
---------------------------------------------------------------------------
    \8\ Ibid.
---------------------------------------------------------------------------
    Congress has not enacted such legislation. NPS has 
refrained from seeking such legislation. In several fiscal 
years, Congress deleted requested funds for the NPS Inventory & 
Monitoring program to free up funds for unrequested 
construction. \9\
---------------------------------------------------------------------------
    \9\ Dennis, John. Personal Interview. 8 May 1996.
---------------------------------------------------------------------------
    5. The NPS should support and develop intensive long-term, 
ecosystem-level research projects patterned after (and possibly 
integrated with) the National Science Foundation's Long-Term 
Ecological Research Program and related activities of other 
Federal agencies.
    Status: Action taken. but situation has worsened.
    NPCA had made an essentially identical recommendation in 
the 1988 National Park System Plan.
    The NPS should establish technical research centers for 
each major biome, using existing Cooperative Park Study Units 
if possible. Topic-oriented or biome-oriented centers  should  
be  multiorganizational  to  foster  cooperation  with  other 
agencies....  \10\
---------------------------------------------------------------------------
    \10\ Ibid.
---------------------------------------------------------------------------
    NPCA repeated this recommendation in the 1989 ``Gordon 
Report'' and the Natural Research Council repeated it in the 
1992 ``Science and the National Parks.'' The Gordon Commission 
also made many detailed recommendations regarding ecosystem-
level research. But NPS lost most of its scientists to the 
National Biological Service (NBS) which was established by the 
Clinton Administration. Rather than creating an ``independent 
research arm,'' whose function was to establish continuity and 
objectivity in NPS research, the NBS has done great damage to 
NPS efforts to integrate science and management.
    According to a report entitled Working Relationships 
Between The National Biological Service and the National Park 
Service: A Survey of Managers and Scientists, the NBS has 
robbed the Park Service of scientific guidance. The National 
Park Service calls the survey results ``...useful as 
representing the opinions of selected NPS managers and 
illustrating the range and diversity of view among NPS partners 
within the NBS.'' \11\
---------------------------------------------------------------------------
    \11\United States. Natural Resource Stewardship and Science 
Directorate, National Park Service. Working Relationships Between The 
National Biological Service and the National Park Service: A Survey of 
Managers and Scientists. Washington, D.C. 17 April 1996.
---------------------------------------------------------------------------
    Survey results include the following:
    --Before the transfer of NPS scientists to the NBS, 49 % of 
the respondents received scientific assistance ``regularly.''
    --Since the transfer of NPS scientists to the NBS, only 19% 
of the respondents report receiving assistance from the 
transferred NPS scientists ``regularly.''
    --Since the transfer of NPS scientists to the NBS, the % of 
respondents ``never'' receiving scientific guidance nearly 
tripled, from 11% to 32%.
    --Respondents were asked whether they received research and 
technical assistance from National Biological Service 
scientists who were not previously with the NPS. 5% reported 
receiving such assistance ``regularly,'' 24% ``occasionally,'' 
and 71% reported none.
    The Park Service drew the following conclusions from the 
survey results:
    --``The perceived level of research and technical 
assistance regularly provided by former NPS scientists has 
declined.''
    --``The proportion of managers receiving no assistance has 
increased.''
    --One-fifth of the scientists who were transferred from NPS 
to the National Biological Service were either ``not encouraged 
or actively discouraged'' from assisting NPS managers after the 
transfer.
    --Over 50% of the scientists who were transferred from NPS 
to the National Biological Service ``felt that their support 
from NPS parks had declined.'' \12\
---------------------------------------------------------------------------
    \12\ Ibid.
---------------------------------------------------------------------------
    The National Park Service has stated that it needs research 
to be connected in some way with management to ensure that the 
research remains focused on the application needs. The creation 
of NBS removed NPS research from the direct influence of park 
management, but also made the research less relevant to 
management needs. The ADNRSS (Associate Director, Natural 
Resource Stewardship and Science) has responsibility for 
natural and social science concerns and works closely with the 
Associate Director for Cultural Resource Stewardship and 
Partnership regarding cultural research. Regional chiefs of 
research are gone. Park researchers are gone. \13\
---------------------------------------------------------------------------
    \13\ Dennis, John. Personal Interview. 8 May 1996.
---------------------------------------------------------------------------
    When the National Biological Service was created, 
``...access for park managers to clear and broad avenues of 
science support...declined and/or [became] more difficult,'' 
according to a recent NPS report.  \14\
---------------------------------------------------------------------------
    \14\ United States. National Park Service Natural Resource 
Stewardship and Science Office of Research. A Conceptual Proposal For 
Restructuring the CPSU Network. Washington, D.C. 7 May 1996.
---------------------------------------------------------------------------
    6. The ways resources are used and appreciated by people 
should be documented.
    Status, Some Improvement
    As shown below, NPCA already had made several much more 
substantive recommendations which called for improved 
documentation of visitor use of parks and of visitor impacts on 
park resources.
    The NPS should develop and implement a standardized, yet 
flexible. technique for measuring visitation and visitor needs 
in the parks. This should include the establishing of 
``indicator'' parks that would be surveyed periodically to 
provide baseline information, and show comparisons between 
parks. The results of these studies should be disseminated to 
concessioners and the tourism industry.
    The development of a comprehensive social science program 
within the NPS should be a high priority. Social science should 
be integrated with natural and cultural research to facilitate 
multidisciplinary problem solving and to provide a better 
understanding of the relationship between visitors and 
resources as well as the interrelationships of the park and its 
region. A Regional Social Scientist position should be 
established in each NPS region. \15\
---------------------------------------------------------------------------
    \15\ Ibid.
---------------------------------------------------------------------------
    The Visitor Service's Project Database (VSP) provides a 
record of visitor characteristics and needs. It is available to 
the public and is maintained by the NPS Visitor Services 
Project at the University of Idaho CPSU. It contains data 
collected in more than 80 units of the National Park System 
since 1982. The data represent snapshots in individual parks, 
but there is no monitoring of these parks over time.
    On February 7, 1996 NPS released a plan, entitled Usable 
Knowledge: A Plan for Furthering Social Science and the 
National Parks, which describes a ``cost-effective plan for 
improving the social science capability of the National Park 
Service.'' In it, NPS recognizes that social science is a 
necessary element of a successful Service and that as of early 
1996, ``the NPS has a minimal infrastructure for conducting 
social science.'' The Plan includes 11 ``key recommendations 
for improving social science in the national parks'' along with 
an implementation plan and a budget for FY 96-FY 99.
    7. National Park Service researchers should have more input 
into the development of resource management plans. Effective 
interaction between research results and resource management 
plans cannot take place without both a strong science program 
and a strong resource management program.
    Status: No Action Taken.
    NPCA made this same recommendation in the 1988 National 
Park System Plan.
    ``Researchers and resource management specialists should 
participate on multi-disciplinary review teams to provide peer 
review of the technical quality of resource management plans.
    ``Resource management specialists should serve as a key 
liaison between researchers, managers and other park staff to 
facilitate the integration of research results into all park 
operations.
    ``To facilitate the integration of research into other park 
functions, researchers should hold briefings and seminars on 
current park research and provide periodic updates of 
references and reading lists. Presentations should highlight 
the interdependence of all staff functions in resource 
protection.
    ``Managers should be held accountable, through performance 
standards. for utilizing applicable research findings in 
decision making.'' \16\
---------------------------------------------------------------------------
    \16\ Ibid.
---------------------------------------------------------------------------
    8. The National Park Service should also establish and 
encourage a strong ``parks for science'' program that addresses 
major scientific research questions, particularly within those 
parks that encompass large undisturbed natural areas and 
wilderness. This effort should include NPS scientists and other 
scientists in independent and cooperative activities.
    Status: No Action Taken.
    NPCA had already described a need for more wilderness-
oriented research in the 1988 National Park System Plan. \17\
---------------------------------------------------------------------------
    \17\ Ibid.
---------------------------------------------------------------------------
    ``In National Park Service areas with proposed, recommended 
and/or designated wilderness, the Service should monitor 
backcountry use and impacts, and regulate visitation so as to 
preserve backcountry resources and wilderness values such as 
solitude.'' \18\
---------------------------------------------------------------------------
    \18\ The National Park System Plan Volume One: To Preserve 
Unimpaired. Washington: National Parks and Conservation Association, 
1988, pp. 183c-e.
---------------------------------------------------------------------------
    9. The National Park Service should revise its 
organizational structure to elevate and give substantial 
organizational and budgetary autonomy to the science program, 
which should include both the planning of research and the 
resources required to conduct a comprehensive program of 
natural and social science research.
    Status: No Action Taken.
    As shown below, NPCA already had made this recommendation 
in the 1988 National Park System Plan.  \19\
---------------------------------------------------------------------------
    \19\ The National Park System Plan Volume Two: Research in the 
Parks. Washington: National Parks and Conservation Association, 1988, 
pp. 107-111. 20 Ibid.
---------------------------------------------------------------------------
    The NPS should include in its annual budget request, and 
Congress should appropriate, a separate line item for research 
equivalent to ten percent of the total operating budget of the 
National Park Service. Congress should specify that the funds 
be used to establish a Servicewide projects fund; increased 
park and regional base funding for research, inventory and 
monitoring; and a contingency fund for emergency needs. \20\
---------------------------------------------------------------------------
    \20\ Ibid.
---------------------------------------------------------------------------
    The National Park Service should establish an independent 
research arm, distinct from management and operations to assure 
long-term continuity and objectivity in the NPS research 
program. This arm should integrate natural, cultural and social 
science divisions under an Associate Director for Research. 
Regional Chiefs of Research should report directly to the 
respective division chiefs at WASO. All park researchers should 
report to the respective Regional Chief of Research. \21\
---------------------------------------------------------------------------
    \21\ Ibid.
---------------------------------------------------------------------------
    10. The science program should be led by a person with a 
commitment to its objectives and a thorough understanding of 
the scientific process and research procedures.
    Status: No Action Taken.
    NPCA had called for the creation of an Associate Director 
for Research position and for managers to be held so some 
standard of scientific literacy in the 1988 National Park 
System Plan. \22\
---------------------------------------------------------------------------
    \22\ Ibid.
---------------------------------------------------------------------------
    The National Park Service should establish an independent 
research arm, distinct from management and operations to assure 
long-term continuity and objectivity in the NPS research 
program. This arm should integrate natural. cultural and social 
science divisions under an Associate Director for Research. 
Regional Chiefs of Research should report directly to the 
respective division chiefs at WASO. All park researchers should 
report to the respective Regional Chief of Research. \23\
---------------------------------------------------------------------------
    \23\ Ibid.
---------------------------------------------------------------------------
    ``Park managers should be selected on the basis of their 
knowledge of resource management practices, their ability to 
manage and use science programs, and their ability to apply 
that knowledge when formulating budget requests. Managers 
should be held accountable. through performance standards. for 
utilizing applicable research findings in decision making.'' 
\24\
---------------------------------------------------------------------------
    \24\ Ibid.
---------------------------------------------------------------------------
    11. The National Park Service science program should 
receive its funds through an explicit, separate (line-item) 
budget.
    Status: No Action Taken.
    As shown below, NPCA made this recommendation in the 1988 
National Park System Plan. \25\
---------------------------------------------------------------------------
    \25\ Ibid.
---------------------------------------------------------------------------
    ``The NPS should include in its annual budget request, and 
Congress should appropriate, a separate line item for research 
equivalent to ten percent of the total operating budget of the 
National Park Service. Congress should specify that the funds 
be used to establish a Servicewide projects fund; increased 
park and regional base funding for research, inventory and 
monitoring; and a contingency fund for emergency needs.'' \26\
---------------------------------------------------------------------------
    \26\ Ibid.
---------------------------------------------------------------------------
    12. A strategic increase in funding is needed, especially 
to create and support the needed long-term inventories and the 
monitoring of park resources.
    Status. No Action Taken.
    As shown above, NPCA made this recommendation in the 1988 
National Park System Plan. \27\
---------------------------------------------------------------------------
    \27\ Ibid.
---------------------------------------------------------------------------
    13. To provide leadership and direction, the NPS should 
elevate and reinvigorate the position of chief scientist, who 
must be a person of high stature in the scientific community 
and have as his or her sole responsibilities advocacy for and 
administration of the science program. The chief scientist 
would work from the Washington office and report to the 
Director of the NPS, provide technical direction to the science 
and resource management staff at the regions and in the parks, 
and foster interactions with the other research agencies and 
nongovernment organizations.
    Status: No Action Taken.
    NPCA had called for the creation of an Associate Director 
for Research and Regional Research Chiefs in the 1988 National 
Park System Plan. \28\
---------------------------------------------------------------------------
    \28\ Ibid.
---------------------------------------------------------------------------
    The National Park Service should establish an independent 
research arm, distinct from management and operations to assure 
long-term continuity and objectivity in the NPS research 
program. This arm should integrate natural. cultural and social 
science divisions under an Associate Director for Research. 
Regional Chiefs of Research should report directly to the 
respective division chiefs at WASO. All park researchers should 
report to the respective Regional Chief of Research.29
    14. In addition, the chief scientist should establish a 
credible program of peer review for NPS science, reaching from 
the development of research plans through publication of 
results. \29\
---------------------------------------------------------------------------
    \29\ Ibid.
---------------------------------------------------------------------------
    Status: No Action Taken.
    As shown below, NPCA had made this recommendation in the 
1988 National Park System Plan. \30\
---------------------------------------------------------------------------
    \30\ Ibid.
---------------------------------------------------------------------------
    The NPS should encourage and support more active 
publication in peer-reviewed, scientific and scholarly journals 
by NPS researchers. \31\
---------------------------------------------------------------------------
    \31\ Ibid.
---------------------------------------------------------------------------
    15. The Park Service, in cooperation with other agencies, 
should establish a competitive grants program to encourage more 
external scientists to conduct research in the national parks.

    Status: No Action Taken.
    NPCA had made a nearly identical recommendation in the 1988 
National Park System Plan, by focusing on improvements of the 
existing Cooperative Park Study Units. \32\
---------------------------------------------------------------------------
    \32\ Ibid.

    ``NPS should establish additional Cooperative Park Studies 
Units and cooperative agreements focusing on the social 
sciences, historical and archaeological research. To ensure 
that the best available expertise is obtained, CPSU cooperative 
agreements should require that the CPSU administrator solicit 
proposals from private sector scientists with geographic and 
subject matter expertise in the parks under study.''
    16. The Park Service must give the science program 
immediate and aggressive attention.

    Status: No Action Taken.
    This was the intent of NPCA's 1988 recommendations.
                                ------                                


    Testimony of Dr. David Policansky, Associate Director, Board on 
    Environmental Studies and Toxicology, National Research Council

    Chairman Hansen, and Members of the Subcommittee: I am 
David Policansky, associate director of the National Research 
Council's Board on Environmental Studies and Toxicology (BEST). 
The National Research Council (NRC) is the operating arm of the 
National Academies of Sciences and Engineering and the 
Institute of Medicine. I am pleased to testify before you today 
on the findings of the National Research Council report, 
Science and the National Parks, published in 1992. Copies of 
the report have been made available to the subcommittee's 
staff. In my capacity as a member of the staff of BEST, I was 
involved in the project from its inception to its conclusion, 
working with a distinguished committee of experts and other NRC 
staff. My testimony today, being based on the NRC report, deals 
with NPS and its research as they were in the early 1990s. That 
was before the establishment of the NBS, after which most of 
the NPS research capability was moved into NBS, now the 
Biological Resources Division of the USGS.
    In 1990, James M. Ridenour, then director of the National 
Park Service (NPS), stated his intention to strengthen the 
research program and the role of science in park management, 
and he asked the NRC for assistance. In response, the NRC's 
Board on Environmental Studies and Toxicology convened the 
Committee on Improving the Science and Technology Programs of 
the National Park Service, which prepared the report.
    The NRC committee found that many reviews over many years 
had been prepared of NPS science. In 1963, one of them, also by 
a committee of the NRC, said Research by the National Park 
Service has lacked continuity, coordination, and depth. It has 
been marked by expediency rather than long-term considerations. 
Other reports found that NPS science lacked funding, staffing, 
and influence. Another review of NPS concluded in 1989 that NPS 
needed a new vision, based on sound research and on the 
principles of ecosystem management, to meet the environmental 
challenges of the 21st century.
    At the time of its review, the NRC committee reported that 
in NPS's view, the main objective of its science program was to 
provide information in support of park planning, development, 
management, and visitor education and enjoyment. The 
disciplines needed in the research programs, determined by 
NPS's responsibilities, ran the gamut of the biological, 
geophysical and social sciences. NPS itself, in its 1980 Report 
to Congress, estimated that 75% of the 4,34S threats to the 
parks were inadequately documented by research. Indeed, the NRC 
committee did not find any significant part of NPS's research 
program that should be eliminated and found much to admire and 
praise. But a more coherent vision and longer-term commitment 
was needed.
    The organization of NPS in 1992 considered research as part 
of resource management. As a result, scientific research did 
not have its own budget. In addition, most research was planned 
and conducted by the 10 regional offices, so in effect there 
were 10 separate science programs in the NPS, ``each different 
in form, function, and effectiveness.'' NPS's research staff 
was smaller than those in most other land-management agencies, 
about 2-3% of its staff. By comparison, the U.S. Fish and 
Wildlife Service then had about 8-10% of its staff in research.
    The NRC committee concluded that the lack of a dearly 
defined science program hampered research planning, tracking of 
expenditures, and accountability for results. The lack of 
formal structure and clear NPS leadership also made assessing 
the program difficult and it often was not possible to separate 
resource management from law enforcement and various other 
activities of park rangers. The committee concluded that the 
NPS science program was unnecessarily fragmented and lacked ``a 
coherent sense of direction, purpose, and utility. As the 
trustee for irreplaceable samples of the nation's natural and 
cultural heritage, the NPS should be among the most forward 
looking and progressive resource management agencies in the 
federal government, and research should be an essential element 
in its mandate.''
    The NRC committee spent much time deliberating on 
appropriate recommendations. One long-standing question was 
controversial: whether the leadership of NPS's science program 
should be centralized or decentralized. The committee came down 
on the side of more centralization, because the decentralized 
approach is often inefficient and because many scientific 
challenges have a broader scope than individual parks or even 
NPS regions.
    Many of the committee's findings echoed those of earlier 
studies, in particular its finding that problems in NPS's 
research programs were not problems of individual research 
projects, but instead were more fundamental and had their base 
in NPS's culture and the support it gave to research. Thus, the 
important matter was the research program itself and its place 
in the NPS. It conclude that additional funding alone would not 
solve the problem, and ``called instead for a fundamental 
metamorphosis that would stress the importance of science in 
the park system and guarantee long-term financial, 
administrative, and intellectual support. It recommended three 
key elements of this new structure.
    --An explicit legislative mandate for an NPS research 
mission is needed. The committee made this recommendation to 
``eliminate for once and for all any ambiguity in the 
scientific responsibilities of the Park Service.'' The report 
provided many examples of the importance of such research; one 
example concerned NPS holdings in and near Prince William 
Sound, Alaska. Because there was relatively little information 
on the distribution and abundance of many animal and plant 
species in the region, assessing the effects of the Exxon 
Valdez oil spill in 1989 was very difficult. Similar 
difficulties have arisen in other, less-celebrated instances 
throughout NPS holdings. In addition, the national parks, 
because of their relative lack of human disturbances and long-
term protection, provide excellent opportunities for scientific 
research. Thus the committee recommended an approach that 
included what it called ``science for the parks and the parks 
for science,'' i.e. an approach that uses science to benefit 
NPS and the parks as well as using the parks as scientific 
research areas and laboratories.
    --The science program should have separate funding and 
reporting autonomy. NPS should elevate and give substantial 
budgetary autonomy to its science program. This should include 
both research planning and the resources needed to conduct a 
comprehensive program of natural and social science research. 
The program should be led by a person committed to its 
objectives and who understands the processes and procedures of 
scientific research. The science program should receive funds 
through an explicit, separate budget. Some increase in funding 
was recommended, especially to create and support needed long-
term inventories and monitoring of park resources.
    --The credibility and quality control of the science 
program need enhancement. To achieve this, the committee 
recommended that NPS elevate and reinvigorate the position of 
chief scientist. The incumbent should be a scientist of high 
stature in the scientific community and the sole responsibility 
of the position should be the administration and leadership of 
the science program. The committee also recommended that the 
NPS, in cooperation with other agencies, establish a 
competitive grants program to encourage more external (i.e., 
non-NPS) scientists to do research in national parks. Finally, 
the committee recommended that the NPS establish a ``high-level 
scientific advisor board to provide long-term guidance in 
planning, evaluating, and setting policy for the science 
program.
    Mr. Chairman and Members of the Subcommittee, the parks are 
national treasures. As the NRC report pointed out, the 
pressures on the parks are increasing rapidly, and events since 
1992 have borne out the truth of that statement. It is 
important to protect these treasures by developing and 
maintaining a strong science program. And, as the NRC committee 
also emphasized, it would be a waste of a unique resource not 
to use the parks--with the proper safeguards--to help 
understand and address the scientific challenges faced 
throughout the biosphere.
    On behalf of the National Research Council, I thank you for 
your attention and would be pleased to take questions.
                                ------                                


  Statement of Robert M. Linn, Executive Director, The George Wright 
                                Society

    The Importance of Research in the National Parks.
    In the late 1920s, George Wright, the man whose name our 
Society carries, created and personally funded the National 
Park Service Office of Wildlife Biology. In the early 1930s the 
National Park Service assumed financial support of this 
office--about 30 biologists were hired, and some landmark 
research took place, resulting in a series of seminal 
publications outlining management actions needing 
implementation in the parks, the ``Fauna of the National Parks 
of the United States'' series. More importantly, park managers 
were beginning to be able to acquire sound information about 
park resources, enabling them to make better-informed 
management decisions and form better, more accurate 
interpretive programs. Wright was the motive force behind these 
efforts. Unfortunately, after his death in an auto accident in 
1936, momentum for science within NPS waned. By 1940 most of 
the fledgling NPS science program had been transferred to the 
Bureau of Biological Survey (now the US Fish and Wildlife 
Service).
    With the advent of World War II science in the parks 
languished. Beginning in the 1960s, and continuing with slowly 
increasing momentum, and with many ups-and-downs, in the 1970s 
through the 1990s, the National Park Service worked to rebuild 
its scientific capacity. These efforts were spurred by at least 
12 reports produced internally and externally, including the 
most recent review by the National Academy of Sciences, Science 
and the National Parks, published in 1992. These reports have 
unanimously recommended a stronger role for science in park 
management through strengthening NPS's internal scientific 
capacity. In 1977--twenty years ago--a report on the NPS 
science program by the eminent scientists A. Starker Leopold 
and Durward L. Allen stated:
    ``The National Park Service has reached a time in its 
history, and in the history of the nation, when science and 
research should be given a much greater and clearly recognized 
responsibility in policy-making, planning, and operation. Seat-
of-the-pants guesses in resource preservation and management 
are open to challenge and do not stand up well in court or in 
the forum of public opinion.''
    Values intrinsic in the park lands far exceed that of 
tourism and having a fun vacation. Park lands include the vast 
array of cultural and social histories of this nation and the 
natural heritage of our planet. They are one of the greatest 
hands-on educational tools we have. One thing we need in this 
nation is a greater sense of who we are and how life support 
systems in our biosphere work--a broadening of scope toward 
understanding and appreciation of life.
    During the 1950s through the 1970s, research by Drs. 
Richard Hartesvelt, H. Thomas Harvey, Howard S. Shellhammer and 
Ronald Stecker of San Jose State University, and Dr. Bruce M. 
Kilgore of the National Park Service, proved that naturally-
occurring fire was responsible and necessary for the continued 
existence of the Giant Sequoias of the Sierra Nevada. Without 
fire occurrence, White Fir and other species would succeed the 
Sequoia and could become a source of crown fires, forest floor 
litter would become an impediment to the germination of Sequoia 
seed, and the eventual disappearance of the Giant Sequoia would 
occur.
    At Carlsbad Caverns National Park, it became evident that 
formations in the caverns were becoming discolored and that 
pools of water, which harbored unique cave life forms, were 
drying up. It was discovered that a large parking lot, paved 
with asphalt, had been built above the caverns, thus preventing 
water from percolating naturally into the caverns and the water 
that did percolate through carried the discolorization from the 
asphalt. Also, the visitor center in this hot? summer area was 
being cooled by drawing the cool air from the caverns below as 
an inexpensive cooling devise, and the elevator shafts into the 
caverns were actually acting as giant chimneys, evacuating air 
from the caverns, thus drying and heating the cavern air. This 
has since been corrected, but only because research into causes 
of the problems was carried out during the 1950s through 1960s 
and 1970s.
    There are many more examples of research projects that have 
helped to save and/or understand valuable national park area 
values--Atlantic coast barrier island dynamics, Isle 
Royalewolf-moose ecology, the Bighorn Sheep of Death Valley and 
other western areas, the Bison of Yellowstone, and on and on. 
The problem is that there are so many other problems needing 
attention.
    One thing is certain: the national parks need more reliable 
scientific research capability if these priceless heritage 
lands are to be managed properly in perpetuity. The National 
Academy of Sciences report, Science and the National Parks, in 
its ``Recommendations,'' says it very pointedly:
    ``In conducting this study of science in the national 
parks, the National Research Council's Committee on Improving 
the Science and Technology Programs of the National Park 
Service originally set out to evaluate the scope and 
organization of current NPS natural and social science by 
performing a peer review of NPS research activities. However, 
the committee soon determined that the crucial problems in the 
NPS research program are not at the level of individual 
projects. Instead, they are more fundamental, rooted in the 
culture of the NPS and in the structure and support it gives to 
the research. Thus, the committee concluded that the real need 
was for an assessment more broadly focused on the research 
program and its place within the agency.
    ``The call for change made in this report is not new. But 
given the lack of response to so many previous calls for 
change, how can the present report succeed in inspiring action? 
The members of the committee believe that increased funding or 
incremental changes alone will not suffice, and they call 
instead for a fundamental metamorphosis. It is time to move 
toward a new structure--indeed, toward a new culture--that 
stresses science in the national park system and guarantees 
long-term financial, intellectual, and administrative support. 
There are three key elements:
    ``There must be an explicit legislative mandate for a 
research mission of the National Park Service.
    ``Separate funding and reporting autonomy should be 
assigned to the science program.
    ``There must be efforts to enhance the credibility and 
quality control of the science program. This will require a 
chief scientist of appropriate stature to provide leadership, 
cooperation with external researchers, and the formation of an 
external science advisory board to provide continuing 
independent oversight.''
    The National Park Service has come a long way since this 
report in the ``metamorphosis'' that the report calls for. Now 
what is needed is congressional support for at least the 
following objectives:
    (1) Providing resource managers with high quality science, 
technical assistance and education;
    (2) Ensuring that research and technical assistance is 
delivered in a timely fashion and relevant to resource 
managers' needs;
    (3) Ensuring the independence and objectivity of research;
    (4) Creating effective partnerships between the National 
Park Service and other Department of the Interior bureaus;
    (5) Taking full advantage of university resources while 
benefiting faculty and students;
    (6) Encouraging professional development of National Park 
Service employees; and
    (7) Managing federal science resources efficiently.
    I sincerely recommend:
    (1) An explicit legislative mandate for the National Park 
Service to perform (or obtain) necessary research to carry out 
its organic act mandate of preservation in perpetuity;
    (2) Supplying the National Park Service with sufficient 
funds to carry out, or contract for, required research.
    (3) Supporting the USGS Biological Resources Division in 
its important mission of strategic research, and cooperative 
activities with the National Park Service.
                                ------                                


Testimony of Dr. Mark S. Boyce, Vallier Chair of Ecology and Wisconsin 
     Distinguished Professor, University of Wisconsin-Stevens Point

    Mr. Chairman and members of the Subcommittee, I am honored 
to have the opportunity to present my thoughts on the 
importance of science in shaping management decisions in our 
national parks. My name is Mark S. Boyce. I hold the position 
of Vallier Chair of Ecology and Wisconsin Distinguished 
Professor in the College of Natural Resources at the University 
of Wisconsin-Stevens Point in the largest undergraduate 
wildlife program in the United States. I am currently editor-
in-chief for the Journal of Wildlife Management which is The 
Wildlife Society's research periodical. During 1989-1993 I was 
Director of the University of Wyoming-National Park Service 
Research Center where I was responsible for managing a peer-
reviewed competitive research contracts program for the 
National Park Service.
    I have published about 150 scientific papers and six books 
including Ecosystem Management: Applications for Sustainable 
Forest and Wildlife Resources (1997, Yale University Press), 
The Greater Yellowstone Ecosystem: Redefining America's 
Wilderness Heritage (1991, Yale University Press), and The 
Jackson Elk Herd: Intensive Wildlife Management in North 
America (1989, Cambridge University Press). I have conducted 
research in the Greater Yellowstone Ecosystem (GYE) since 1977 
when I began studies on elk populations. My subsequent studies 
in the GYE have involved bison, grizzly bears, and wolf 
recovery.
    I wish to speak in favor of a renewed science initiative 
for our national parks. I believe that scientifically gained 
knowledge is fundamental to sound management in our parks, and 
I believe that the scientific research conducted in our parks 
has greatly benefited their management. Science is the basis 
for ecosystem management, a new discipline of applied ecology 
that attempts a comprehensive approach to natural resource 
management. Ecosystems are exceedingly complex and we do not 
know how to manage ecosystems well. National parks afford a key 
link in the development of sound ecosystem management by 
serving as ecological baselines, i.e., controls. Only with such 
baseline areas can we have a basis for evaluating environmental 
change in other areas.
    Controversy continues over the link that should exist 
between science and management.
    On one extreme, sound scientific information might not be 
obtained when all researchers are in the Park Superintendent's 
hip pocket, i.e., at the disposal of management for solving 
management problems. At the other extreme, a research team that 
is not linked to management is likely to pursue basic research 
that may not meet the resource management needs for the parks. 
One approach to resolve such potential conflicts is to fund 
contracts or grants on park-identified needs to university 
scientists, e.g., as facilitated by the Cooperative Park 
Studies Unit (CPSU) system. Or even better, NPS could support 
research funding that is awarded competitively to university 
scientists using a process of peer review such as that used by 
the National Science Foundation. Such a competitive peer-review 
process ensures that the quality of science is of utmost 
priority while also permitting rigorous review of funding 
levels.
    I do not wish my comments in support of increased science 
in the NPS to be misconstrued as a criticism of the Biological 
Resources Division (BRD) of the US Geological Survey. I believe 
that the BRD hosts many competent scientists, and with the 
recent announcement that BRD will not charge overhead to parent 
Interior agencies, including the NPS, there are opportunities 
to enhance research in our national parks through BRD. The 
initial formation of the BRD (formerly NBS) seemed like an 
excellent way to reduce redundant efforts among branches of the 
Department of Interior, especially involving technology such as 
geographic information systems (GIS). Unfortunately, however, 
BRD has not seen sufficient funding from Congress to achieve 
the science needs for the parent organizations.
    The role of science in park management is perhaps best 
illustrated with the extensive investigations that preceded the 
return of wolves to Yellowstone. Indeed, I wish to commend 
Congress and especially several current and former members of 
this Committee for their support of wolf recovery in 
Yellowstone. Restoring wolves to the Greater Yellowstone 
Ecosystem (GYE3 has given us a full complement of native fauna 
and offered us a fantastic opportunity to document how a 
complete faunal assemblage can function. One of the purported 
benefits of wolf reintroduction will be the reduction of 
ungulate numbers, but despite the return of this keystone 
predator some scientists continue to argue that artificial 
control of ungulate populations is necessary (untenable given 
current knowledge). I hope that the same vision that 
reestablished the wolf into Yellowstone will also ensure that 
sufficient monitoring work is funded to fully document the 
consequences of wolf recovery. Further, I trust that the same 
vision will ensure protection of the large mammal communities 
in Yellowstone from recent challenges largely emerging from 
agricultural interests.
    I see no reason that protection of Yellowstone cannot be 
compatible with ranching operations outside the park. And I 
believe that the results of scientific research conducted 
during the past decade give us considerable insight into how to 
accomplish compatible juxtaposition of agriculture and 
ecological baseline preserves. Indeed, developing sound 
ecosystem science requires that we maintain areas such as 
Yellowstone with minimal human intervention to be able to 
evaluate the consequences of human activities in adjacent areas 
where lands are managed to meet human needs.
    The successes of grizzly bear management in the GYE offer 
another example of the benefits to park management from 
research. Demographic research by the Interagency Grizzly Bear 
Study Team identified mortality ``sinks'' where excessive bear 
mortality occurred. This led to the closure of a campground at 
Fishing Bridge and transfer of sheep grazing allotments to 
nonconflict areas on the Targhee National Forest in Idaho and 
Wyoming. Together with strict management guidelines developed 
by the Interagency Grizzly Bear Committee, estimates of grizzly 
bear abundance are currently higher than ever before recorded 
in the GYE.
    During the past five years a large number of ecological 
studies conducted in Yellowstone National Park have been 
published in peer-reviewed journals. Research in Yellowstone 
was stimulated by the Congressionally mandated grazing studies 
beginning in the mid-1980s, resulting in several publications 
that questioned the traditional wisdom that Yellowstone's 
northern range was ``overgrazed.'' Before the grazing studies 
were completed, an additional Congressional appropriation was 
made for fire research subsequent to the 1988 fires in 
Yellowstone, and most recently in the series of studies funded 
in anticipation of wolf recovery. These studies have greatly 
increased our understanding of ecological processes in the 
Yellowstone ecosystem. A majority of the peer-reviewed research 
publications were conducted by university-based scientists and 
graduate students.
    Part of the reason for my participation in this 
Subcommittee hearing is concern over the anticipated testimony 
from Frederick Wagner, Charles Kay, and Richard Keigley, all of 
whom have been exceedingly critical of NPS management in 
Yellowstone. Their position is a minority opinion based on the 
fact that the bulk of peer-reviewed scientific literature in 
contrary to their claims. The NPS has supported a number of 
dedicated scientists whom I believe have helped the Park 
Superintendent to make reasoned management decisions. I am also 
concerned by the alarmist positions that imply a need to cull 
ungulates within Yellowstone National Park because I believe 
that this would be a serious mistake.
    This is not to imply that controversy does not exist among 
scientists about management policies for Yellowstone, but I do 
not believe that Wagner, Kay, and Keigley provide a balanced 
perspective on the role that science should take in 
establishing resource management policy in Yellowstone National 
Park. Shortly after Jerry Franklin became President of the 
Ecological Society of America a couple of years ago I asked him 
to consider organizing a professional society evaluation of 
science and management in Yellowstone. Franklin declined my 
suggestion recognizing that the issue was controversial among 
ecologists and he feared that the society would not reach a 
consensus. However, I am confident that ecologists would 
overwhelmingly support the need to maintain national parks as 
ecological baseline preserves allowing natural ecological 
processes to run their course.
    I support the current NPS approach to management of our 
national parks which I have termed ecological-process 
management. This involves allowing ecological processes of 
nutrient cycling, plant succession, fire, flooding, 
decomposition, competition, predation, herbivory, symbiosis, 
dispersal, births and deaths to function with minimal 
intervention by humans. Maintaining the integrity of ecological 
processes does not imply that landscapes should match 
preconceived notions, nor does it imply reconstruction of some 
past condition. Current NPS management policy is often termed 
natural regulation management but I believe that natural 
regulation engenders semantic confusion that obscures the true 
intent of NPS management policy.
    The source of greatest controversy over this management 
policy is management of bison and elk on Yellowstone's northern 
range. During the 1960s the best available expert opinion 
suggested that culling of elk and bison was necessary to 
maintain herd sizes at levels consistent with proper range-
stocking levels for cattle. Economic criteria for establishing 
stocking levels for cattle had little to do with the population 
dynamics emerging as a consequence of plant-herbivore 
interactions. Herd sizes have increased substantially in recent 
years leading agriculture interests to call for the need to 
reduce herds. The motivation for these proposed culling 
programs are (1) perception that ungulates are ``damaging'' the 
vegetation, (2) concern by livestock growers over the risk of 
transmission of brucellosis to cattle from bison or elk, and 
(3) Charles Kay's hypothesis that native Americans were 
incredibly effective at killing wild ungulates so that they had 
little influence on vegetation prior to European settlement.
    Each of these attempts to justify culling of elk within the 
boundaries of Yellowstone National Park is unjustified. The 
first perception that ungulates ``damage'' the vegetation is 
inconsistent with empirical data emerging from the northern 
range ``overgrazing'' investigations. Grasses and fortes are 
largely dormant underground at the time that ungulates are on 
the winter range, so each spring we see lush regrowth of 
herbaceous vegetation. Certain woody plants have indeed seen 
heavy browsing, especially aspen and willow. But palynological 
evidence (from pollen in mud cores from the bottoms of lakes) 
interpreted by Dr. Whitlock from the University of Oregon 
indicates that no major changes in vegetation composition have 
occurred in recent years. Large numbers of ungulates will 
undoubtedly influence vegetation, as they have for hundreds and 
thousands of years. Dr. Whitlock's interpretation of her data 
is that ungulates probably have shaped vegetation communities 
in Yellowstone in the past as they do today. Range conditions 
may not be those that we would desire if we were managing 
livestock in Yellowstone, but such a frame of reference is 
irrelevant to management of a national park.
    Brucellosis is a bacterial disease introduced to ungulates 
in Yellowstone from domestic livestock. The USDA's APHIS has an 
aggressive program attempting to eradicate the disease from the 
United States by 1998. But their target is completely 
unreasonable given the widespread occurrence of the disease 
among elk and bison in the Greater Yellowstone. Completely 
effective vaccines do not exist, and it is the professional 
opinion of epidemiologists that with current technology we 
cannot eradicate the disease without draconian measures such as 
total depopulation of bison and elk from the GYE, i.e., 
systematic slaughter of 120,000 elk and 1,900 bison. The issue 
is easily resolved by effective risk management. Transmission 
of the disease is unlikely to occur except during spring and 
early summer. Managing livestock to minimize contact with 
wildlife during this crucial period, and vaccinating cattle can 
ensure an exceedingly low probability of transmission of the 
disease. The problems are not with bison and elk management but 
rather the preposterous Uniform Methods and Rules of the USDA 
APHIS.
    The third issue of native American overkill is an 
unsubstantiated hypothesis of Charles Kay in an attempt to 
justify culling of bison and elk in the Park. Even if his 
implausible hypothesis could be substantiated, it has no 
relevance to how we should manage ungulates in Yellowstone 
National Park. Understanding the history of exploitation of 
natural resources by humans is interesting, but it has no 
bearing on how we should manage resources in the future. Just 
because previous generations of humans decimated wildlife 
populations and altered natural ecosystems does not provide 
justification for doing so today. Humans are relatively recent 
in North America and time has been short enough that 
convolution between humans and faunal elements is highly 
unlikely. Instead, by minimizing human influence we most 
closely approximate the ecological processes that would have 
occurred in the absence of human influence. Human exploitation 
of natural resources is without racial context, and I believe 
that there is value in maintaining ecological baselines with 
minimal human interference whether the humans are native 
American or of more recent immigrant ancestry.
    Choosing some arbitrary time in the past to target for 
ungulate management unjustified. In recent years ecologists 
universally have come to accept the principle that ecological 
processes are dynamic. Natural disturbance regimes, such as 
wildfire, floods, and severe winters, are fundamental to the 
function of places like Yellowstone. Just because a particular 
vegetation structure was documented in 1870 when early 
explorations were conducted in Yellowstone does not imply that 
this should constitute a target for how the vegetation should 
look today.
    Protection and preservation of nature are what national 
parks are all about. We hunt elk in every western state 
virtually everywhere that they occur. There are few places in 
the United States where we can allow a population of large 
ungulates like elk to achieve a balance or fluctuate with their 
food resources and predators. Some range and wildlife managers 
believe that we must intervene, and somehow Nature will not get 
it right. Some believe that we will lose our justification for 
hunting if we should discover that it is not necessary to cull 
wildlife herds. I believe that these views are outdated and 
contrary to what we have learned about population ecology. I 
have spent my entire career studying wildlife populations 
attempting to understand what determines their abundance and 
distribution. We do not need to intervene to ensure a healthy 
ecosystem. Yellowstone National Park is not on the verge of 
ecological collapse. Indeed, to quote F. V. Hayden (1871), 
``Yellowstone is the greatest scientific laboratory that nature 
furnishes on the face of the globe.''
    To an ecologist, national parks are much more than 
recreation areas and places of scenic splendor, although we 
enjoy our parks for those values. But for a scientist, national 
parks serve an exceedingly important function as ecological 
baselines against which we can compare ecological processes 
operating in human-dominated landscapes. In addition, there is 
inherent interest in learning what the long-term dynamics of 
vegetation, ungulates, wolves and grizzly bears will be in 
Yellowstone. With wolf recovery, we now have reconstructed all 
faunal elements and have an outstanding opportunity to document 
the dynamics of this large mammal community. Interfering would 
destroy one of the grandest scale ecological experiments 
(albeit unduplicated) in history. We stand to gain nothing by 
culling ungulate populations in Yellowstone, but we would lose 
a great deal.
    Thank you Mr. Chairman and members of the committee for the 
opportunity to share my views on science in the National Park 
Service. Good science is paramount to ensuring sound management 
in our national parks. But the opposite is true as well--how 
our parks are managed influences the ecologists' ability to do 
good science. Scientists need parks as controls that will form 
the basis for understanding what we do with the rest of the 
world. We should encourage the NPS to continue with its policy 
of managing to minimize the influence of humans on ecological 
process and function. I will be pleased to answer any 
questions.

                                ------                                


     Statement Richard Keigley, Biological Resource Division, USGS

    My name is Richard Keigley. I am an ecologist employed by 
the Biological Resource Division of the USGS. I have been 
subpoenaed to appear before this subcommittee and do not 
represent the Department of Interior.
    From March 1991 to June 1996 I was duty stationed in 
Yellowstone National Park. Prior to my assignment to NBS in 
October 1993, I had a 22 year career in the NPS.
    If science is to be successfully applied to controversial 
issues, we must acknowledge where problems exist and correct 
them if possible. I will briefly describe a problem. I will 
then describe five ways in which I believe the research program 
could be improved. Those five ways involve: (1) the measurement 
of success, (2) the allocation of fiscal resources, (3) the 
link between science and management, (4) conflict resolution, 
and (5) relationships with park neighbors.
    In 1991 I was assigned to investigate the effect of elk on 
riparian ecosystems in Yellowstone's northern elk winter range. 
In 1995 I was barred from conducting research in Yellowstone. 
In my opinion, I was removed because I was finding scientific 
evidence that did not support Yellowstone's resource management 
policies. My removal means that one point of view will be 
absent from Yellowstone's research program. This kind of bias 
can jeopardize the search for scientific truth.
    How can the present research program be improved? One 
possible means of improvement would be a change in the way 
success is measured. At the present time, ``client 
satisfaction'' is an important measure of success. In some 
cases, this standard may inhibit BRD from providing objective 
science.
    It is only natural that a park manager might prefer one 
research outcome over another. But a credible science program 
will provide the ``bad news'' when appropriate. Many managers 
can accept a less-preferred research outcome with good grace 
and remain a satisfied client. But some will not. In this case, 
if a scientist is unwilling to accommodate the manager, BRD has 
no alternative but to withdraw the scientist from the research 
program, otherwise, client satisfaction will not be attained. 
To protect the integrity of science, the standard of client 
satisfaction should be reconsidered. I believe there are 
alternative ways of assessing service to the client agencies.
    My second point deals with how fiscal resources are 
allocated to individual scientists. We have seen from previous 
testimony that scientific research can become highly polarized. 
If those scientific ideas are allowed to compete on a level 
playing field, one point of view should come to dominate over 
other points of view. But if the allocation of fiscal resources 
is skewed to some point of view, the validity of an opposing 
point of view may not emerge, even though it more closely 
corresponds with scientific truth. BRD should develop a new 
procedure to: (a) identify cases where polarization exists, and 
(b) if it does, equitably allocate fiscal resources to opposing 
points of view.
    BRD's service to the parks could also be improved by 
strengthening the link between science and management. The 
management of each park is guided by its Resource Management 
Plan. These plans describe resource issues, identify 
recommended management alternatives, and identify and 
prioritize research needs. The Resource Management Plan is a 
critical link between science and management.
    At the present time, the responsibility for preparing 
Resource Management Plans lies with park management. The degree 
of input by BRD is a matter of park discretion. In cases of 
controversy, there will be a temptation to slant the 
preparation or interpretation of Resource Management Plan 
project statements. BRD must then live with this situation.
    I believe BRD's research effectiveness could be improved by 
establishing a formal partnership in Resource Management Plan 
preparation and interpretation. Scientists would then have a 
mandated role in describing resource issues, identifying needed 
research, and prioritizing research implementation. This 
partnership is too important to be left to chance.
    BRD's research program could be improved by establishing 
procedures for resolving unhealthy conflict. We should 
recognize that conflict plays an integral role in the search 
for scientific truth. Truth emerges when ideas are allowed to 
compete on a level playing field.
    But we also know that conflict can take directions that 
inhibit productivity. I believe it would be to the Department 
of Interior's advantage to develop formal procedures to resolve 
conflicts among scientists and between scientists and managers.
    We are all aware of current conflicts between the state of 
Montana and Yellowstone National Park. To a large degree those 
conflicts arise due to different resource management 
objectives. The reconciliation of these kinds of conflict is 
not a proper role for scientists.
    But conflicts have also arisen over matters of science. For 
example, what is an appropriate size for Yellowstone's northern 
elk herd? Yellowstone claims that the elk herd is at a proper 
size and that there is no evidence of range deterioration 
within the park. As a result, the visitor to Yellowstone 
believes they see a vignette of primitive America. They 
especially enjoy the easy viewing of elk.
    From some park neighbors' perspective the situation is 
different. Elk migrate out of Yellowstone during the winter. 
Private ranchers complain that their ranges deteriorate because 
of excessive elk use. State and USFS lands are also impacted. 
The ability to regulate the size of the northern herd when it 
is outside of Yellowstone is politically limited by the 
perceptions held by the American public. For that reason, 
Yellowstone's neighbors have a vested interest in the BRD 
science that is conducted in service to Yellowstone.
    Yellowstone's Resource Management Plan limits its 
discussion of ungulate impacts to those that occur within the 
Park borders. In recognition that NPS issues extend beyond the 
park's borders, Resource Management Plans should incorporate 
those perspectives when describing resource issues. 
Representatives from the State and private entities should be 
involved in the development of the plan. BRD could coordinate 
the identification and prioritizing of research needs. A 
National Park can have an immense impact on its neighbors. 
Those neighbors should have a formal way to express their 
concerns.
    I summarize my recommendations. The attainment of client 
satisfaction does not necessarily translate to the attainment 
of good science. BRD should investigate alternative methods of 
measuring success. In cases where scientific opinion is 
strongly polarized, there should a balanced allocation of 
fiscal resources directed at the research problem. A formal 
procedure should be developed to accomplish this objective. 
Resource Management Plans are the critical link between science 
and management. Their development should involve a formal 
partnership between BRD and NPS. DOI should develop a formal 
procedure to mediate unhealthy conflicts among scientists and 
between scientists and managers. Finally, a park's Resource 
Management Plan should address the impacts that park management 
may have on its neighbors.

                                ------                                


Statement of Frederic H. Wagner, Ecology Center and College of Natural 
                    Resources, Utah State University

    I am Frederic H. Wagner, Professor in the Department of 
Fisheries and Wildlife, Associate Dean of the College of 
Natural Resources, and Director of the Ecology Center, a 7-
department, lateral program that coordinates research and 
graduate education in the science of ecology, all in Utah State 
University.
    Before moving to Utah, I was a research biologist with the 
Wisconsin Department of Natural Resources. I have been at Utah 
State University over 30 years and have been professionally 
involved in a number of western-U.S., public-policy issues 
including a 5-year study of national parks. You may know of a 
book which I and 7 colleagues wrote entitled Wildlife Policies 
in U.S. National Parks, published in 1995 (Wagner et al. 1995). 
Two chapters in the book deal with science in the national 
parks and the National Park Service. Much of my research and 
writing in the past 10-15 years has been on the role of 
research in natural-resources management, the role of science 
in policy formation, and science ethics.
    I will address four main issues in this testimony. First, 
science is, in my opinion, essential to effective management 
and protection of park resources, and to informed setting of 
policies that prescribe management and protection. Second, 
while there has been some good research in some areas of the 
agency, the Park Service has not overall had a strong tradition 
or commitment to the use of science in its operations. Third, 
because of this inadequate commitment, the quality of science 
and its use in policy have been spotty. In some cases it has 
been positive. But in others it has resulted in management 
decisions that have been detrimental to park resources. Fourth, 
I will comment on the pros and cons of different administrative 
arrangements for research in the National Park Service.

  science is essential to effective resource management and protection

    I am sure the persons on this Committee are well aware that 
natural-resources systems are extremely complex, involving 
intricate relationships between water, soils, atmosphere, 
vegetation, animals, and climate. Appropriate decisions on 
effective management and protection depend on an understanding 
of that complexity that can only be provided by competent 
research.
    A recent book by W.L. Halvorson and G.E. Davis (1996) 
describes the wide range of resource problems in a number of 
parks that could only be solved after years of research had 
provided a knowledge base on which to carry out effective 
management. Sophisticated air-quality studies showed that 
particulate emissions from the Navajo Power Plant in Page, 
Arizona were the main cause of the visibility problem in Grand 
Canyon. Vegetation research showed that periodic, low-intensity 
prescribed burns, like those set by Native Americans, rather 
than complete elimination of fire, is the proper management 
procedure to perpetuate the giant trees in Sequoia National 
Park. Studies on underground hydrology showed that sewage and 
toxic-waste pollution could be carried many miles underground 
to affect the water quality of surface streams in Ozark 
National Scenic Riverways and subsurface streams in Mammoth 
Cave National Park in Kentucky. And long-term research on the 
effects of angling on cutthroat trout in Yellowstone Lake 
showed that heavy fishing removal not only reduced the fish 
stocks, but also affected populations of osprey, white 
pelicans, and grizzly bears which feed on the fish. I am 
attaching my recent review of this book, now in press, to this 
statement.
    Now while I believe that research is indispensable to 
rational policy setting and effective resource management, 
science does not, in my view, set policy or prescribe 
management goals. I consider these to be social and political 
processes the purpose of which is to satisfy societal values. I 
maintain that research in management agencies is a service to 
policy setting, and to the design and evaluation of management 
programs. It provides a knowledge base for informed policy 
setting and effective management. It enlightens these 
processes.

    the national park service has not had a strong science tradition

    Following passage of the Park Service Organic Act in 1916, 
the agency has been heavily involved in carrying out its dual 
mission: protecting the resources ``unimpaired for the 
enjoyment of future generations'' and managing the flow of 
tourists who come to see these natural wonders. In the early 
decades of NPS history, simple protection was sufficient 
management of the resources, and the organization was largely 
staffed with landscape architects and ranger personnel who were 
well suited to carry out the dual mission.
    But within a few decades, as the American population grew 
and developed economically, park resources began to be impacted 
from the outside by air and water pollution; by invasion of 
non-native plants and animals; and by encroachment of urban, 
industrial, and land-use expansion. And impacts grew on the 
inside by heavy tourist use, and by distortion of plant and 
animal communities from their pristine conditions. A 1986 
survey of NPS employees (Anon. 1986) produced reports of 101 
categories of threats to park resources. And academic 
researchers have published on the many external threats to 
parks (cf. Coggins 1987, Freemuth 1991).
    It thus became evident to many observers that mere 
preservation was not sufficient management to protect the 
resources, that active management was necessary in many cases, 
and that a strong research program to provide a factual basis 
for effective management was needed. Recommendations to this 
effect began appearing in the 1 930s, and have continued up to 
the present.
    But with no tradition of science as an integral part of the 
agency's operations, or a significant cadre of employees with 
strong science training who had moved into the higher, 
influential administrative positions, the response to these 
recommendations has been weak at best. A 1992 National Research 
Council study (Risser et al. 1992) commented that there had 
been ``a dozen reviews'' of science in NPS since the early 
1960s. All urged an expanded research program to provide a base 
of scientific information essential for capable management. But 
in the words of the NRC review, the response has been 
Abysmal.''
    In 1991-92, the research outlay was only 2 percent of the 
NPS budget. In 1993, when research in several Interior agencies 
was combined into the new National Biological Survey, the 
number of scientists transferred from the Fish and Wildlife 
Service was about 9 times the number from NPS even though both 
agencies manage roughly the same total area of land.
    As one author pointed out (Haskell 1993), the limited 
research that had developed by the time it was moved to NBS was 
initiated at the grass roots, and not authorized from the top 
as a matter of policy. There had been no coherent research arm, 
separate budgetary line, or high-level research administrator.

the weak science commitment has produced spotty research and management 
                               decisions

    The weak commitment to research and lack of formal policy 
made it difficult to produce consistently high-quality 
research. With no central policy and administration, research 
on natural resources was administered under Natural Resource 
Management with which it competed for funds. The section on 
Science and Research in the chapter on Natural Resource 
Management in the NPS 1988 Management Policies is only four 
sentences long. At the field level, research was administered 
out of the regional offices in some regions, by park 
superintendents in others. Without central direction, 
procedures, and standards for ensuring research quality, 
persons involved in research varied from highly qualified 
scientists to individuals with lesser credentials.
    As a result of this lack of coherence, research quality 
varied. The 12 case studies discussed in the Halvorson and 
Davis book are examples of good science that has contributed to 
effective management programs which protect the resources. 
Research at the Beard Research Center in Everglades provided an 
excellent knowledge base with which to address the daunting 
management problems of that park.
    But research on the ecology of elk in Yellowstone produced 
faulty conclusions that were the basis of the ill-conceived, 
natural-regulation management policy to which Dr. Kay has 
referred. This policy is generating over populations of deer in 
eastern parks and elk in the West that are ravaging the other 
resources in those parks. And in my opinion, you can place the 
Yellowstone bison problem that we are reading so much about in 
the press these days squarely at the feet of the natural-
regulation management policy. Bad science produces bad 
management.
    The weak mandate for science in NPS also makes it possible 
for some administrators to ignore it or act belligerently 
toward it when it is inconvenient, or to use it selectively to 
support policy positions. If research is to serve policy and 
management effectively, it must be free of coercion to seek 
truth regardless of where the chips may fall. It must have that 
freedom even if at times it produces results that are contrary 
to policy or indicates changes that are less comfortable than 
maintaining the status quo.
    Administrators must then decide whether to change 
directions, or stay the course. If they apply pressures on 
researchers to produce biased science that supports present 
policy, or if they select only those findings that support 
current positions and ignore contrary evidence, it basically 
destroys the values and credibility of science.
    While I don't suggest that such misuse of science has been 
the norm in NPS, there have been instances of it. Yellowstone 
and the natural-regulation policy has again been a case in 
point. That policy was greeted with skepticism in the wildlife 
profession from its inception in 1967. The skepticism was 
ignored by Park officials just as they have refused to 
recognize contrary evidence from recent research. And Park 
researchers who generated contrary evidence were threatened 
with their jobs, transferred elsewhere, or denied access to the 
Park. Dr. Keigley, who has testified today with admirable 
professional restraint, is one example.
    So What is the Best Administrative Structure for Research 
in NPS
    Since research in resource-management agencies is a service 
to policy setting, and to the design and evaluation of 
management programs, the question arises as to what 
administrative alignment with management allows it to serve 
most effectively. Several considerations bear on the answer, 
and these are a function of the personal and administrative 
distance between research and management:
    1. Research must be relevant to management needs. Since 
research is a service to management, its practitioners must be 
close enough to management to understand the management 
problems and insure that their investigations are relevant to 
the solution of those problems. This argues for relative 
administrative proximity between scientists and managers.
    2. Research must have the managers' trust. If managers are 
to accept research results and adapt their programs according 
to what is indicated by the latest findings, research must have 
the managers' trust. This is earned by the managers' 
recognition that the researchers understand the management 
problems, and are committed to helping solve them. This is 
another consideration arguing for personal and administrative 
proximity of research to management. If researchers are not 
known personally to managers, and/or they are situated at 
considerable administrative distance, it is much easier to 
ignore research recommendations.
    3. Research must be free of political. policy. and 
bureaucratic pressures to seek objective truth without fear of 
administrative, personnel, and budgetary reprisal. There are 
instances where this has occurred in NPS, Dr. Keigley's example 
being one case in point. This consideration argues for 
administrative distance between management and research. 
Research should not be administered by the people who are 
making and - administering policy.
    Thus, there are arguments both for keeping research and 
management close together, and for distancing them. The 
question then arises as to what is the best compromise, and 
more specifically what is the best arrangement for NPS. I 
believe this is a major purpose of these hearings.
    When we began writing our book on wildlife policies in 
national parks, we were prepared to recommend putting NPS 
research in its own, newly created division, with separate 
budget and administrative lines, and its own associate 
director. This was the structure in the Fish and Wildlife 
Service, and is the current situation in the U.S.D.A. Forest 
Service. But in October 1993 before we had finished our book 
and as everyone here knows, NPS research was moved into the new 
National Biological Survey and eventually into the Biological 
Resources Division of U.S.G.S.
    Icertainly do not think it should go back to its previous 
structure in NPS with the lack of a formal policy directing the 
use of research in management programs, and the disparate 
administrative status under which research operated. If it were 
restored to the agency, it should be in a discrete research arm 
with its own budget, administrative line, and administrator, 
and independent of park operations. And it should be expanded 
to provide a more adequate service to the parks than it did 
prior to 1993.
    Its present position in U.S.G.S. now gives it the 
administrative distance it needs to allow it to seek objective 
truth without policy or bureaucratic pressures. Perhaps it 
should be left where it is for a while to give it a chance to 
work. It has been a political football for nearly 4 years, and 
to uproot it and reposition it once again would just prolong 
the agony with the violence that does to the organization's 
morale and productivity. It has just recruited a new director 
who is moving to establish procedures and relationships.
    I do think that if park research remains in the Biological 
Resources Division of U.S.G.S., there is a real need to develop 
formal liaison with the Park Service to insure relevance of the 
research to park needs. I also think there needs to be 
provision at top administrative levels in NPS to direct park 
administrators to consider and adopt research results in their 
management efforts.
    And I agree that park superintendents should have a major 
say in what research is carried out in the parks. But I think 
there should be provision at the top for directing research 
that superintendents might not want out of concern for results 
that would challenge policy, but would clearly be relevant to 
enhancing the understanding of management and policy problems. 
There need to be safeguards against park superintendents 
refusing access to federal scientists proposing to do research 
relevant to park management problems, but for whatever reason 
inconvenient for the superintendents. The parks, after all, are 
public property.
    Thank you very much for the invitation to present this 
information, and for your attention.
    Publications Cited:
    Anon. 1988. Natural resources assessment and action 
program. U.S. National Park Service, Office of Natural 
Resources, Washington: IV + 70 pp.
    Coggins, G.C. 1987. Protecting the wildlife resources of 
national parks from external threats. Land and Water Law Review 
22: 1-27.
    Freemuth, J.C. 1991. Islands Under Siege: National Parks 
and the Politics of External Threats. University Press of 
Kansas, Lawrence: XIV + 186 p.
    Halvorson, W.L. and G.E. Davis. 1996. Science and Ecosystem 
Management in the National Parks. University of Arizona Press, 
Tucson: XII + 364 pp.
    Haskell, D.A. 1993. Is the U.S. National Park Service ready 
for science? The George Wright Forum 10 99-104.
    Risser, P.G., A.M. Bartuska, J.W. Bright, R.J. Contor, J.F. 
Franklin, T.A. Heberlein, J.C. Hendee, I.L. McHarg, D.T. 
Patten, R.O. Peterson, R.H. Wauer, and P.S. White. 1992. 
Science and the national parks. National Academy Press, 
Washington: XIV + 122 pp.
    . Wagner, F. H. , R. Foresta, R. B. Gill, D. R. McCullough, 
M.R. Pelton, W. F. Porter, H. Salwasser, with consultation by 
J.L. Sax. 1995. Wildlife Policies in the U.S. National Parks. 
Island Press, Washington: X + 242 pp.

                                ------                                


Statement of Charles E. Kay, Institute of Political Economy, Utah State 
                               University

    I would first like to thank the Chairman and the Committee 
for inviting me to testify here today. I have a B.S. in 
Wildlife Biology and a M.S. in Environmental Studies both from 
the University of Montana, and a Ph.D. in Wildlife Ecology from 
Utah State University. I am presently an Adjunct Assistant 
Professor in the Department of Political Science and a Senior 
Environmental Scholar at that University's Institute of 
Political Economy. I am the only independent, independently 
funded scientist to have conducted a detailed evaluation of 
Yellowstone National Park's Natural regulation'' management 
program. Not only have I conducted scientific research on the 
elk overgrazing question, but I have also studied wolf 
recovery, grizzly bear management, the bison problem, and other 
key issues in that ecosystem. I have also traveled widely 
throughout the West and am familiar with similar resource 
management problems in other national parks. Moreover, I have 
conducted extensive research on long-term ecosystem states and 
processes in the southern Canadian Rockies for Parks Canada. 
This included work in Banff, Yoho, and Kootenay National Parks.
    My research in Yellowstone and Canada has been widely 
published in books and scientific journals and I have submitted 
copies of those papers to the committee's staff. In addition, 
GAO is presently investigating the Yellowstone situation and I 
have submitted copies of my research to that agency as well. 
Moreover, I have volunteered to take GAO on a field tour of my 
study sites in Yellowstone next summer.
    As you know, Yellowstone is presently managed under what is 
termed ``natural regulation.'' This, though, is more than 
simply letting nature take its course for it entails a specific 
view of how nature operates. According to the Park Service, 
predation is an assisting but nonessential adjunct to the 
regulation of elk and bison populations. Instead, ungulates are 
limited by their available forage supply--termed resource or 
food-limited. In other words, the Park Service contends that 
ungulate populations will self regulate without overgrazing the 
range. This means that if wolves are present, they will only 
kill animals slated by nature to die from other causes and 
thus, would not lower the elk population. In the debate over 
wolf recovery, the Park Service has adamantly denied that 
wolves are needed to control elk or bison numbers in 
Yellowstone Park. Instead, under Natural regulation,'' elk and 
bison die from starvation, and according to the Park Service, 
thousands of animals starving to death is natural.
    Now, the Park Service is fond of saying that it has 3 
million dollars worth of research which supports ``natural 
regulation.'' Unfortunately, most of those studies have not 
directly tested ``natural regulation'' and have largely been a 
waste of taxpayer's money. Furthermore, the Park Service has 
refused to fund research that may prove ``natural regulation'' 
wrong and they have generally awarded contracts only to people 
who produce results that support agency management. In the rare 
circumstance where a contractor has produced a report critical 
of park management, he has never received additional funding 
and his credibility has been attacked by the agency. In the 
equally rare circumstance where Park Service employees have 
dared challenge established agency dogma, they have been 
reassigned, force transferred, or suffered disciplinary action. 
The next witness, Dr. Richard Keigley, can address these points 
in detail since he has been the subject of internal agency 
harassment.
    There is also the question of how the Park Service has 
awarded contracts to non-agency, supposedly independent 
biologists. Information on who applied for these contracts and 
how they were awarded is supposed to be available to the 
public. But when an associate and I filed a Freedom of 
Information Act (FOIA) request on three specific contracts, we 
were told the information was not available for public review, 
because the agency had given that money to the University of 
Wyoming and then the University, not the agency, technically 
awarded those contracts. And as we were told by a University 
Vice-President, the University does not have to comply with 
FOIA requests. This raises the question of why the Park Service 
chose to follow a procedure that hid the awarding of these 
research contracts from public review. At least two of the 
biologists who received those contracts have been repeatedly 
funded by the Park Service, and have since produced a series of 
reports favorable to the agency. In my opinion, this certainly 
does not qualify as an independent test of ``natural 
regulation'' management.
    The Park Service's data supporting Natural regulation'' is 
suspect because it cannot be replicated. A case in point is 
aspen, which has declined by more than 95% since Yellowstone 
Park was established. The Park Service has attributed that 
decline to the lack of lightning-caused fires which the agency 
claims are necessary to regenerate aspen--fire kills the old 
trees but then the aspen clone's roots send up a profusion of 
suckers, a process termed root suckering (aspen clones have not 
regenerated from seed for several thousand years due to the 
species' demanding seed bed requirements).
    According to the Park Service, Yellowstone's aspen would 
successfully regenerate-defined as producing new stems greater 
that 6 feet tall--if those stands were bumed. In fact, agency 
scientists have claimed for twenty years that their data proves 
burned aspen will regenerate in the park despite repeated elk 
browsing. They claimed to be stating a proven fact, not a 
hypothesis.
    An independent test of the Park Service's claims was 
provided when Yellowstone's 1988 wildfires burned approximately 
one-third of the aspen on the park's northern range. After the 
fires, I established 765 permanent plots in burned aspen 
stands. Despite initial aspen sucker densities of over 50,000 
stems per acre, I found that elk and other ungulates repeatedly 
browsed all those stems to within inches of the ground and 
prevented height growth. In fact, several clones have now been 
completely killed-out by repeated browsing. How then, could it 
be a ``proven fact'' for nearly twenty years that, if burned, 
Yellowstone's aspen would successfully regenerate despite 
abnormally high elk numbers? Clearly, there was something wrong 
with the agency's earlier ``data.'' As it turns out, burning 
plus grazing are the worst things that can happen to the park's 
aspen.
    The Park Service has not responded by rejecting ``natural 
regulations even though it is now clear an underlying part of 
that hypothesis has been falsified. Instead, the agency has 
proposed a new hypothesis. They now claim that aspen was 
historically rare in the park so the decline of aspen is 
evidence that ``natural regulation'' is returning the park to 
its natural state.
    Iand my co-workers tested this new hypothesis last summer. 
We used the same procedures the Park Service reported it had 
used to collect samples from aspen clones and we collected our 
samples in the same areas used by the agency. We then sent our 
samples to an independent laboratory for analysis in a blind 
test. That is, the laboratory did not know where the samples 
had been collected or the hypothesis being tested. Thus, this 
was a truly scientific test of the Park Service's new 
hypothesis. We were unable to confirm the Park Service's new 
hypothesis. In fact, our data produced results entirely 
different from those obtained by the agency. Simply put, we 
could not replicate the data reported by the agency even though 
we used the same methods and techniques in the same study 
areas.
    In science, if the same experiment or test is repeated, all 
the various data sets must support the same conclusion or the 
hypothesis must be discarded. Our data suggest that the Park 
Service's new hypothesis is, at best, suspect and does not 
absolve Natural management of aspen's continued decline in the 
park.
    The Park Service has also systematically attempted to 
suppress the publication of research that does not conform to 
the agency's ``natural regulation'' management of the park. 
After the U.S. Forest Service and other public agencies spent 
several hundred thousand dollars on a moose study inside and 
outside Yellowstone Park, the publication of that research was 
blocked. The official explanation is that the Forest Service 
does not have sufficient funds to publish the final report, but 
I suspect the real reason is that work does not support Natural 
regulations management--please see Attachment B for details.
    After I published an article critical of park management, 
representatives of the Department of Interior repeatedly called 
the University and asked them to fire me. They also repeatedly 
called Parks Canada, for whom I was conducting ecological 
research at the time, and asked them to fire me. Both refused. 
Then they called my Department Chairman and informed him that 
my research was endangering the lives of their people in the 
field because, and this is an exact quote, based on what I had 
written ``those neo-Nazis in Montana were going to start 
shooting government officials.'' My ``crime'' Mr. Chairman, was 
to have published an independent analysis of wolf recovery in 
the park and other areas of the northern Rockies.
    Having admitted to spending at least 3 million dollars of 
taxpayer's money on research in Yellowstone, you would think 
that the Park Service would have a detailed study plan of how 
all that work was designed to formally test ``natural 
regulation'' management. That, though, turns out not to be the 
case. In 1989, for instance, the Department of Interior's 
Inspector General conducted an audit of natural resource 
research in Yellowstone and three other national parks. The 
Inspector General found that ``Yellowstone National Park did 
not have study plans for 23 of 41 research studies performed by 
its research staff. In addition, the study plans that existed 
for the other 18 research studies were generally deficient with 
respect to content.'' As the Inspector General pointed out, 
study plans are needed to ensure that research is conducted 
efficiently.. The only time the Park Service has told the 
public exactly what is meant by Natural regulation,'' and laid 
out a detailed plan for its study, was 1971, and the agency 
subsequently never followed its own study plan. Instead, I am 
the only scientist who has systematically tested ``natural 
regulation'' management.
    Alston Chase has called ``natural regulation'' a scientific 
fraud and from my own detailed measurement of vegetation in 
Yellowstone Park, I can say that I have found no evidence to 
support the ``natural regulation'' paradigm. Instead, all my 
data indicate that Natural regulation'' must be rejected as a 
valid scientific explanation of the natural world.
    As you know, riparian management has recently been a hot 
political topic in the West, with environmentalists blaming 
ranchers for overgrazing these critical habitats. So, as an 
example of what ``natural regulation'' means on the ground, let 
us look at the condition and trend of willow communities on 
Yellowstone's northern range--please see Attachment A for 
additional details and references. Now if Natural regulation'' 
management represents the epitome of land management, as 
claimed by the Park Service and various environmental groups, 
then surely Yellowstone's riparian areas should be in excellent 
condition.
    To test this part of the ``natural regulation'' paradigm, I 
(a) measured willows inside and outside the park; (b) measured 
willows inside and outside long-term ungulate-proof fenced 
plots, called enclosures, on Yellowstone's northern range; (c) 
measured willow seed production inside and outside park 
enclosures; and (d) compiled repeat-photographs to measure 
long-term vegetation change.
    Based on 44 repeat photosets of riparian areas on the 
northern range, tall willows have declined by more than 95% 
since Yellowstone Park was established in 1872. In 28 repeat 
photosets outside the park, tall willows had not declined, but, 
if anything, had increased. That these differences are due to 
excessive browsing by Yellowstone's burgeoning ``naturally 
regulated'' elk population, not other environmental factors as 
postulated by the Park Service, is shown at the park's 
enclosures.
    On permanent plots outside enclosures, willows averaged 
only 13 inches tall, had only 14% canopy cover, and produced no 
seeds. In contrast, protected willows averaged nearly 9 feet 
tall, had 95% canopy cover, and produced over 300,000 seeds per 
square meter of female canopy cover--in willows there are 
separate male and female plants. Not only are Yellowstone's 
willow communities severely overgrazed, but they are among the 
most overgrazed in the entire West. This has had a devastating 
effect on riparian songbirds and other animals.
    Beaver, for instance, were once common in the park but that 
species is now ecologically extinct on the northern range 
because overgrazing by an unnaturally large elk population has 
eliminated the aspen, willows, and cottonwoods beaver need for 
food and dam building materials. Without beaver in the system, 
park streams have down cut, which has lowered water tables and 
destroyed more riparian vegetation. Beaver is also a critical 
keystone species whose loss has seriously reduced park 
biodiversity.
    The roots of willows, aspen, and cottonwoods are also 
critical in maintaining streambank stability, and as elk have 
eliminated these woody species, this has produced major 
hydrologic changes. Dr. David Rosgen, one of North America's 
leading hydrologists, for instance, reported 100 times more 
bank erosion on Yellowstone's denuded streams than on the same 
willow-lined streams outside the park.
    Last summer, I took Dr. William Platts, one of the West's 
leading riparian experts, and Dr. Robert Beschta, a hydrologist 
at Oregon State University on a three? day field tour of sites 
inside and outside Yellowstone Park. What they saw shocked 
them. After looking at one stream that had blown out and eroded 
down to Pleistocene gravels, something that has not happened in 
12,000 years--all because the elk had destroyed the woody 
vegetation that once protected the stream banks, these experts 
declared that if you gave them a billion dollars they could not 
put the system back together again. This then is the type of 
resource damage that has occurred under ``natural regulation'' 
management. I submit that not only must ``natural regulation'' 
be rejected, but that what has happened in Yellowstone is a 
clear violation of the park's Organic Act, the Endangered 
Species Act (see Attachment B), and other federal legislation.
    The Park Service, however, has responded by producing a 
series of research studies that blame these problems on factors 
other than Natural regulation'' management. However, bad 
science leads to bad policy, and if you do not follow proper 
scientific procedures, or don't measure the correct variables, 
or don't have a large enough sample size, what you invariably 
get is junk science.
    Elk-induced soil erosion has long been a concern in 
Yellowstone, but the agency claims recent research has proven 
that the park's burgeoning ungulate populations have not caused 
accelerated soil erosion. A careful review of the Park 
Service's data, however, shows that not to be true.
    In their work, the Park Service used a simulated rainfall 
machine to measure soil erosion inside and outside 
Yellowstone's long-term grasslands enclosures. The rainfall 
simulator was set at the rate of one inch per hour and was run 
for 15 minutes on a 26X26 inch square plot. This automatically 
biased the study, though, because it is standard scientific 
practice to use a rate of 2.5 inches per hour for 15 minutes. A 
lower simulated rainfall rate automatically guarantees less 
soil erosion.
    The Park Service then measured soil erosion on five outside 
plots and five inside plots per enclosure and found that there 
was more erosion on outside plots, which have a long history of 
heavy elk use, than on inside plots, but reported that 
difference was not statistically significant. Yellowstone's 
superintendent then publicly proclaimed the agency's research 
had proven there was no accelerated erosion in the park. That, 
though, is incorrect, as the Park Service grossly 
misrepresented the results of their research.
    To statistically compare the average amount of soil eroded 
from inside versus outside plots, the samples' variances are 
used. If those variances are high, as they invariable are in 
soil work, and sample size is low, like say only five samples, 
then God himself could not generate statistical significance. 
So while it is true that statistically the agency's data showed 
no increased soil erosion on grazed plots at each enclosure, 
that does not mean elk have not caused widespread soil erosion 
in the ecosystem.
    This is what mathematicians call a Type 11 error--
concluding that there is no significant difference, when in 
fact there is. To correct for this problem, the Park Service 
should have measured more plots inside and outside each 
enclosure, but it did not--I suspect because those data would 
have embarrassed the agency. However, if you combine that 
study's original data inside and outside all the enclosures 
that were measured, which effectively increases sample size, 
then the agency's data shows significantly more soil erosion 
from heavily grazed sites. When it rains, I have watched mud 
flow off Yellowstone's hillsides and it is not uncommon to find 
exposed tree roots in the park.
    The Park Service, however, continues to deny that 
Yellowstone is overgrazed, or that if it is, ``natural 
regulation'' is to blame. The agency, though, has not been 
receptive to independent review of its ``natural regulation'' 
program. In the early 1990s, the Society for Range Management, 
the Ecological Society of America, the American Fisheries 
Society, and the Wildlife Society asked the Park Service for 
approval to conduct an independent review of the Yellowstone 
situation, but they failed to obtain permission. More recently, 
a group of preeminent ecologists informed the Secretary of 
Interior that they would be willing to sews, without pay, on a 
panel to review the entire Yellowstone matter, but the 
Secretary declined.
    Now if the Park Service has nothing to hide, and actually 
has the research to support its claims regarding ``natural 
regulation,'' why then have they not welcomed an independent 
review of Yellowstone's management? If, on the other hand, as I 
have argued, ``natural regulation'' is the greatest threat to 
Yellowstone Park, then it is easy to see why the agency 
attempts to prevent Congress and the American public from 
knowing the truth. In my opinion ``natural regulation'' is also 
a failed environmental philosophy, which explains why 
environmental groups such as the Greater Yellowstone Coalition 
have largely ignored the resource damage that has occurred in 
the park (please see Attachment A for details).
    Moreover, this problem is not confined to Yellowstone but 
is endemic throughout our National Parks System. Dr. Carl Hess, 
for instance, has documented how ``naturally regulated'' elk 
have overgrazed Colorado's Rocky Mountain National Park, while 
Dr. William Bradley documented the negative impacts abnormally 
large elk populations are having on subalpine meadows in 
Washington's Mount Rainier National Park. Similarly, 
``naturally regulated'' elk populations have had a dramatic 
impact on understory species composition and tree regeneration 
in Washington's Olympia National Park. While in New Mexico's 
Bandolier National Monument, elk-induced soil erosion is 
threatening that park's archaeological resources.
    The simple truth is that ungulate populations will not 
internally self-regulate before those animal's have had a 
serious impact on the vegetation. Now, wildlife biologists 
often cite Africa's Serengeti as an example of how North 
America must have looked before it was despoiled by Europeans. 
The Park Service, in fact, has not only claimed that 
Yellowstone National Park is the last remnant of North 
America's Serengeti, but the agency has actively recruited 
Serengeti scientists to support ``natural regulation'' 
management. Today's Serengeti, however, is not a natural 
ecosystem, nor is it a vignette of Wilderness'' Africa. 
Instead, the Serengeti is a romantic, European, racist view of 
how ``primitive'' Africa should have looked, for one of the 
first things that Europeans did when they created Serengeti and 
other African national parks was to forcefully remove all the 
indigenous peoples. For various reasons, colonial governments 
did not want black Africans in their white national parks.
    Now, there have been hominoid predators in Africa for at 
least 3.5 million years, and our species, Homo sapiens, evolved 
in Africa 100,000+ years ago. Thus, I submit that there is 
nothing more unnatural than an African ecosystem without 
hominoid predators and the Serengeti, therefore, is not a 
``natural'' ecosystem nor is it an example of how North America 
teemed with wildlife before the arrival of Columbus.
    In all the ecological studies that have been done on the 
Serengeti, native people have generally not even been 
mentioned, or if they have, it has invariably been as 
``poachers,'' in the pejorative sense. Based on recent 
modeling, it has been suggested that Serengeti's wildlife 
populations will collapse if present levels of ``poaching'' 
increase by as little as 10%. While others may view this as 
``poaching,'' I suggest that this is a case of native people, 
who are simply exercising their aboriginal rights.
    As I have documented elsewhere, elk and bison never 
historically overgrazed Yellowstone or other National Parks 
because native hunting kept ungulate numbers low. That is to 
say, hunting by Native Americans actually promoted 
biodiversity. Giving Yellowstone's bison additional areas to 
roam outside the park, for instance, will never solve the bison 
problem. For under ``natural regulation,'' bison numbers will 
simply increase until the starving animals again move beyond 
whatever boundary has been set.
    Thus, I respectfully offer the following recommendation for 
Congress' consideration:
    (1) Congress should mandate an independent park science 
program. This is the same conclusion that has been reached by 
every panel that has ever reviewed Park Management. Since the 
Park Service has never followed any of those recommendations, I 
submit that Congress must legislate the needed changes, for the 
agency has repeatedly demonstrated its refusal to comply with 
anything less. Because of the politics in Yellowstone, I also 
suggest that Congress appoint an independent panel of eminent 
scientists to set priorities for park research and to review/
approve competitive research proposals for funding, similar to 
what the Bureau of Land Management did with wild horse and 
burro research.
    (2) In addition, I suggest that Congress appoint an 
independent commission to review ``natural regulation'' 
management and park science in Yellowstone. What I am asking is 
for a fair impartial hearing of the available evidence, which 
after all is the American way. If we cannot straighten out 
Yellowstone, Mr. Chairman, there is little hope for the rest of 
our national parks.
    (3) Furthermore, I would suggest that if you want 
independent scientists to critically evaluate various aspects 
of park management then Congress must establish a mechanism to 
directly fund that research. This need not come from new 
appropriations but from a reapportionment of existing funds. 
Money, after all, may be the root of all evil, but it is also 
the root of all science. Without adequate funding there will be 
no independent evaluation of park management.
    (4) And finally, I invite you Mr. Chairman and others on 
your committee to personally tour Yellowstone with me this 
coming summer. At least one U.S. Senator has already asked me 
to accompany him on a fact finding tour of the park's northern 
range. It is quite an educational experience to be standing on 
a site and to be handed a photograph of how that area looked 
back in 1871. I wager, Mr. Chairman, that you will never view 
park management in the same light again.
    We simply need an impartial review of the available 
evidence. For Mr. Chairman, if we can not agree on the science, 
then we surely can never reach agreement on how our National 
Parks should be managed to insure that they will be unimpaired 
for future generations of Americans.
    Quite honestly, Mr. Chairman, based on what I know about 
``natural regulation'' management, if I wanted to protect an 
area, the last thing I would do would be to make it a national 
park, and the next to last thing I would do would be to turn it 
into a wilderness area. I believe that our natural resources 
should be protected and America's heritage presented, but that 
management should be based on the best available science, not 
on romantic, often religious, views of nature.
    Thank you for your time and consideration.

                                ------                                


    Statement by Roger G. Kennedy, Director, National Park Service, 
                       Department of the Interior

    Mr. Chairman and members of the Subcommittee, I appreciate 
the opportunity to present this testimony, and we appreciate 
the attention you are paying to the role of research and 
resource management in the National Park Service by convening 
this hearing.
    The National Park Service was established to manage some of 
the nation's most impressive and important natural and cultural 
features. The ``Organic Act'' of 1916 directs the National Park 
Service to conserve the scenery, and natural and historic 
objects and wild life, of National Parks for future 
generations. In 1916 the task was largely one of protecting 
spectacular examples of isolated scenery and wildlife from 
poaching, lumbering and mining. The accompanying task was to 
provide access to these resources for enjoyment in a way that 
left them unimpaired for all future generations of Americans.
    When Congress provided this dual mission in the NPS Organic 
Act of 1916, no one could know then exactly what these tasks 
would entail in the years to come. Today the 374 units of the 
park system that cover 83 million-acres are often set in 
economically developing regions. Many are subject to the 
impacts of urban and suburban encroachment, which affects 
watersheds, airsheds, viewsheds, and plant and animal pathways. 
In this modern landscape most parks are like islands.
    The 275 million visits from the public to parks each year 
also impact park resources. To meet the challenge of managing 
visitation and other impacts, a strong scientific effort is 
needed to understand the best ways to protect the resources.
    Congress has recognized the fragility of our nation's 
natural resources by enacting over the past 30 years such 
important legislation as The National Environmental Policy Act, 
The Clean Air Act, The Clean Water Act, and The Endangered 
Species Act. These acts help protect the nation's resources, 
including those of the national parks. The implementation of 
these acts requires a high degree of technical expertise, 
analysis, and documentation from public land management 
agencies. To do the job right we need to provide the public 
with an excellent science program.
    Our understanding of ecology has progressed a great deal 
since 1916. We have learned how complex are the important 
relationships within natural systems and we have learned about 
the points of vulnerability that require the most vigilance and 
care. We agree that it is fundamentally important to bring our 
understanding of natural systems into the management of our 
National Parks, objectively and professionally. The public is 
entitled to a science program that will provide it with useful 
and accurate information about park resources.
    Sound factual information, the essence of science, must be 
the foundation for any prudent land management decision. 
Because NPS must make many controversial decisions--by 
definition decisions that do not please everyone--the science 
that underpins those decisions will be constantly in question. 
Decisions based on science have been, are, and will be 
controversial both within and outside the Service. All 
scientists do not agree on everything. It is essential for 
Congress and the NPS to have an ongoing dialogue about our 
successes and our failures in living up to the expectations of 
the American public.
    Over the years many individuals and a number of outside 
review panels have proposed policies for the NPS science 
program. The origin of the NPS science program is usually 
traced to the 1930's and George Wright. Wright identified the 
need for inventorying the system's resources and for making 
science a necessary basis for good stewardship of its wildlife. 
Wright started the program with his own money for the first two 
years and died in a car accident in 1936. After a period of 
Civilian Conservation Corps funding the entire effort dwindled 
to 3 scientists by the end of World War II. The program 
sputtered until the 1960's and the issuance of two reports: the 
Leopold Report (1963) on wildlife management and the Robbins 
Report (1963) on research in the National Parks. These reports 
were issued as a result of controversy over the NPS culling of 
the elk herd in the northern range of Yellowstone NP. These 
reports spurred the creation in 1967 of the Office of Natural 
Science Studies and a period of slow growth of both research 
and resource management programs through the early 1990's.
    Under many administrations some progress was made, but not 
enough. Parks now have Resource Management Plans with lists of 
research and resource management projects in stated priorities 
that are needed to understand and address resource threats. We 
have completed Natural and Cultural Resources Assessments that 
are essentially servicewide resource management work-load 
analyses. These data bases can be used to report on our 
problems and needs within a park, regional, or servicewide 
perspective. We have a strong Natural Resource Inventory and 
Monitoring program that is efficient and effective in providing 
the basic information that identifies what we manage and in 
developing methodology to tell how they are faring. 
Inventorying and monitoring is not flashy science nor 
inexpensive, but it is important.
    Our science training program is getting better. In the last 
two decades we have created the professional resource manager 
position and developed a Natural Resource Management trainee 
program that provided 1-2 years of training for 145 new park 
resource managers. Recently the basic park resource manager 
position was re-evaluated in order to enhance the 
professionalism and career opportunities of these valuable 
resource stewards .
    Our Natural Resource Management Program also seeks private 
sponsorship for resource management projects ($2 million in the 
last two years) and we have just announced 4 National Park 
Science/Canon Legacy Scholarships for dissertations on science 
topics specific to national park issues.
    The effort to better our science program is not limited to 
our natural resources program. Last year the Service adopted a 
Social Science Plan in order to better understand all aspects 
of park visitation, economics, and visitor expectations and 
satisfaction. The new visiting Chief Social Scientist reports 
to our Associate Director, Natural Resource Stewardship and 
Science. Dr. Machlis, a professor at the University of Idaho, 
will serve a 3-year term. He will then be replaced by another 
academic leader in social science.
    We have established a record of major scientific 
contribution in areas such as the role of fire in natural 
ecosystems, coastal barrier island dynamics, and the influence 
of exotic species in natural systems. There are many examples 
of NPS science determining issues important to park 
preservation: air quality impacts at Grand Canyon, the 
restoration of water quality and quantity in the Everglades, 
the management of off-road vehicles at Cape Cod and Fire Island 
National Seashores, and the removal of exotic species such as 
burros at several Southwestern parks, to name a few.
    Lets tall: about reports from governmental and private 
sources that show the need for greater scientific underpinning 
of the management of park resources and visitor services. It's 
a matter of priorities. The press of increased visitation to 
parks and our corresponding focus on visitor services competes 
for limited resources. The cost of new construction of 
facilities as well as the corresponding maintenance necessary 
for large infrastructure often leads Superintendents to divert 
resources away from science, toward other pressing needs. At 
the park level we often have ``brushfires'' of the moment; as a 
result we neglect investment in science until a crisis 
develops. Good science cannot be a ``brushfire'' activity.
    Science has never been an explicit mission of the National 
Park Service, although various reviews have recommended that 
research become an integral mandate for park management. In 
1993, the Secretary of the Interior created the National 
Biological Survey (NBS), in part to consolidate all Interior 
research programs into one research agency, and in part to 
answer some of the criticism that had been directed at the NPS 
science program. One of these criticisms was that the research 
of scientists was managed by park superintendents. The creation 
of NBS solved this problem as it resulted in the transfer--not 
the eradication--of roughly $20 million and 168 researchers and 
technicians, or roughly 1.6% of the NPS operational budget to 
NBS. Resource management programs (roughly 6-8% of the 
operational budget) remained with NPS, as did our resource 
managers--those who apply science to park programs and make 
recommendations to management.
    NBS, now the Biological Resources Division (13RD) of the US 
Geological Survey (USGS), is pledged to continue both research 
and extension services in direct support of national parks. In 
concert with the three other programmatic divisions (geology, 
water, mapping), the USGS has a broad range of scientific 
resources which can be brought to bear on NPS issues. USGS/BAD 
has already established an Ombudsman Panel to help address NPS 
concerns. In addition, we have an agreement with USGS/BAD to 
share funding for technicians, and an annual needs assessment 
process has been set up to determine how USGS/BAD can best 
service NPS's needs.
    Nevertheless, NPS science needs to go far beyond the 
available government? conducted research. To provide a larger 
program of applied science for its managers, NPS has worked 
with USGS/BAD to initiate a national network of 16 university-
based units, called Cooperative Ecosystem Studies Units 
(CESU's), which build on the former NPS Cooperative Park 
Studies Units and augment the Cooperative Research Units. USGS/
BAD research scientists at cooperating universities will 
shortly be joined by a NPS senior scientist who will serve not 
as a practicing researcher but as a broker, contracting 
officer's representative, and liaison, to find the best source 
of technical support for park management in a wide array of 
disciplines (from archaeology to education, to communications, 
to zoology). This individual will also serve as a bridge 
between park management, USGS/BAD, and university scientists. 
When suitable units do not exist, competitive awards will be 
used to jointly establish new CESUs. Other land-management and 
science-related agencies will join these units. By joining 
together in our regional research efforts we believe that 
federal agencies will, over time, work more efficiently by 
jointly planning and providing information relevant to their 
needs.
    We are confident that these steps will provide a science 
program that meets our needs. They will also solve many of the 
problems found by reviews of the NPS science program.
    Over the years, the NPS has adopted increasingly science-
driven policies toward management of the most significant 
biological components of national park ecosystems. NPS 
Management Policies (1988) calls for maintaining ``natural 
environments evolving through natural processes minimally 
influenced by human actions.'' This means managing for native 
(generally, pre-European contact) ecosystem components and 
functions ``evolving'' through time. While the policy tends 
away from both the earlier mistake of predator control and the 
problems associated with the culling of prey species, NPS 
policy allows for management intervention to correct for 
disturbing human influences. Because of the pervasiveness of 
human influences in today's world, few true cases of natural 
process regulation (or as some see it ``hands off '') 
management are practical.
    This policy appears most controversial for the management 
of large mammals, especially predators and ungulates, as these 
species can have very significant impacts beyond park 
boundaries. These mammals can proliferate or decline rapidly 
depending on the changing ecosystem conditions. Their fate 
stirs very strong emotions among the various publics. Because 
of the controversy of any management action--either controlling 
animal herd numbers as at Gettysburg National Military Park 
currently, or in maintaining free-roaming herds of elk and 
bison as at Yellowstone, cooperative efforts with state and 
other federal agencies are common, and full public involvement 
(via the NEPA process) is the rule.
    There is a lot of disagreement among researchers about 
whether Yellowstone's northern range is overgrazed. My 
colleagues are prepared to participate in the debate as 
scientists. Some, like Professor Sam McNaughton of Syracuse 
University, who recently reviewed Wildlife Policies in the US 
National Parks by Dr. Fred Wagner and others, say it isn't. 
Indeed there are many scientists who believe that the elk herd 
and the habitat are healthy and productive--despite high 
numbers of elk resulting from nearly a decade of mild winters. 
We would be happy to provide you with copies of their work.
    In addition, we recently completed a report on a 5-year 
research program on conditions in the northern range. The 
findings presented in these peer-reviewed articles suggest that 
the issue is not the disaster that our critics would contend. 
We welcome a rigorous and continuous review of these articles 
and would be happy to provide you with a copy of this report.
    We believe that current debate is warranted and healthy, 
and we have moved to bring new perspectives into the science 
issues. Last August we hosted a session at the Ecological 
Society of America on this issue, inviting a new generation of 
ecologists to consider the appropriate approach to managing 
this incredible biological resource. In March we will present 
this issue at the 62nd North American Wildlife and Natural 
Resource Conference of the Wildlife Management Institute.
    In September of this year we are inviting both sides of the 
debate to present their cases to the judgment of their peers at 
the annual meeting of the Wildlife Society. We believe that 
this effort will lead to a scientific consensus on the probable 
outcomes of the alternatives available for the management of 
the Northern range.
    Beyond science, what many are actively questioning in the 
elk and bison issues at Yellowstone NP (including the 
Brucellosis issue) is the park's interpretation and 
implementation of the natural process regulation policy. We 
believe our mission, our policies, and our values reflect the 
overall expressed interests of the American public. In fact, 
the public strongly supported our management policies for 
Yellowstone when we put the policies out for public comment in 
1988. We will continue to seek public guidance in the 
application of these policies and values in Yellowstone 
National Park. In cooperation with other state and federal 
agencies, we are committed to completing a Draft long-term 
Bison Management Plan Environmental Impact Statement this 
summer.
    We also understand the need to be in the forefront of 
utilizing the best science for the basis of our management 
decisions in what we believe to be the world's best system of 
natural and cultural parks in the world. We are confident that 
we are taking steps to make this a reality.
    I appreciate your close interest and support to reach this 
goal. I will be happy to respond to your questions.

                                ------                                


 Testimony of Dr. Mark Schaefer, Deputy Assistant Secretary for Water 
              and Science, U.S. Department of the Interior

    Science and Resource Management in the National Park 
System.
    Mr. Chairman and members of the Subcommittee, I appreciate 
the opportunity to join Director Roger Kennedy to present 
testimony on science and resource management in the National 
Park System. For the past year I have assisted Secretary 
Babbitt with scientific issues at the Department of the 
Interior, including science and the National Parks. I am 
accompanied by Dr. Denny Penn, Chief Biologist of the new 
Biological Resources Division of the U.S. Geological Survey 
(USGS).
    Consistent with congressional direction, the Secretary 
transferred the National Biological Service to the USGS on 
October 1, 1996. The Biological Resources Division became the 
fourth USGS division, joining the Geologic, Mapping, and Water 
Resources Divisions already in existence. This arrangement 
places most of the physical and biological research activities 
of the Department of the Interior within one organization, an 
arrangement that will be advantageous in addressing a broad 
range of scientific needs of the department, including those of 
the National Park Service.
    Ensuring the Highest Quality Science.
    The Department of the Interior is committed to ensuring 
that the highest quality science underpins resource management 
decisions. Over the last four years the Secretary has made the 
pursuit of this goal one of his highest departmental 
priorities. I would like to point to just a few of the 
initiatives directed toward this goal:
    (1) Independence of research programs. Research should be 
conducted in a way that ensures its objectivity and 
independence from influence by those who have a stake in the 
outcome of a research effort. Therefore, the Secretary moved 
the Department's biological research activities out of the 
bureaus that have resource management and regulatory 
responsibilities. At the same time he established stronger 
linkages to the bureaus to ensure that the research needs of 
managers are identified and met.
    (2) Multidisciplinary research activities. By consolidating 
Department of the Interior research programs in the U.S. 
Geological Survey, the physical and biological sciences are 
housed within the same institution. This fosters the kind of 
multidisciplinary studies that are key to addressing resource 
management questions. It also allows biological scientists to 
benefit from the advanced mapping and geographic information 
systems technologies available at USGS.
    The considerable scientific strength of all USGS divisions 
will move ecosystem science forward in the National Parks and 
elsewhere. For example, the High-Priority Digital Base Data 
Program, which USGS initiated in 1994, helps support park and 
ecosystem management by providing digital map products required 
for habitat assessment, archaeological site monitoring, and 
fire management.
    (3) Connecting research programs to the needs of resource 
managers and others. Through a needs assessment program 
conducted by the USGS Biological Resources Division the 
research needs of managers are identified and prioritized on an 
annual basis. Available funding is then matched to these needs. 
In addition, the Department of the Interior Science Board, 
chaired by the Secretary, brings senior department managers and 
scientists together on a regular basis to discuss needs, 
capabilities, and priorities as they relate to the department's 
mission responsibilities.
    (4) Connecting research programs to the needs of states and 
tribes. The department is continually working to strengthen the 
connection between USGS research and the needs of states and 
tribes. The USGS already cooperates with approximately 1100 
state and local governments in all 50 states and Puerto Rico. 
In addition, the Biological Resources Division has conducted an 
extensive survey of the needs of state natural resources 
managers. More than 250 senior agency leaders in 50 states, 
including fish and game, parks, natural resources, and related 
agencies, were interviewed. The results, which are now in the 
analysis and report-writing stage, will be used by USGS to 
guide future activities.
    To strengthen ties with the states and tribes, we are 
considering the establishment of informal regional Natural 
Resources Science Forums. These Forums would be designed to 
facilitate communication and coordination of research needs 
among land and resource managers. The Forums would also foster 
additional collaborative programs with state, tribal, 
university, nongovernmental, and industry scientists.
    (5) Taking advantage of talent in the nation's universities 
and leveraging limited funds through research collaborations. 
We are working to broaden and strengthen the Department's 
existing Cooperative Park Study Unit (CPSU) program. Under the 
new name of Cooperative Ecosystem Study Units (CESUs), the 
program will work to include scientists from other Department 
of the Interior bureaus and perhaps other federal agencies and 
collocate them in a university setting. The program will 
undertake cooperative research activities pertaining to the 
parks as well as other public lands. The CESU program is 
designed to build on and interconnect existing federal and 
university research activities. CESUs will undertake 
multidisciplinary studies, foster information and technology 
transfer, and aid in the training of university and government 
scientists. This arrangement will allow selected government 
scientists to rotate in and out of a university setting, a 
cycle that supports career advancement. Collaboration with the 
Water Resource Institutes, often located at the same 
universities will also facilitate multidisciplinary study.
    (6) Ensuring viable technical support activities. The Park 
Service maintains scientific and technical, but largely non-
research, staff to assist park superintendents in meeting near- 
and long-term need scientific needs. This includes inventory 
and monitoring activities to assess the status and trends of 
natural resources. These activities need to continue to receive 
financial support and to grow when budget priorities allow.
    Science for the Parks.
    The National Park Service is charged with protecting the 
nation's natural and cultural treasures. Among these treasures 
is Yellowstone National Park, the nation's first National Park, 
established by the 42nd Congress on March 1, 1872--125 years 
ago this Saturday. Since that time the system has grown to 
include more than 375 sites nationwide. It is interesting to 
note that Yellowstone was established as a direct result of the 
scientific expeditions led by geologist Ferdinand Hayden who 
reported on the great physical and biological diversity of this 
area.
    Another geologist, John Wesley Powell surveyed vast areas 
of the arid West, including a famous expedition down the 
Colorado River. Powell's observations led to the establishment 
of Grand Canyon National Park. I mention these historical facts 
to underscore the close connection between science--and more 
specifically USGS--and the National Parks. John Wesley Powell 
was the second Director of the USGS. Exploration and science 
are behind the establishment of most of the nation's national 
parks.
    Today, most of the United States has been explored, and the 
role of science is less one of discovering new natural assets 
and more one of providing the basis for effective stewardship 
of our Nation's lands and resources. As the populations of 
areas surrounding the parks grow, pressure on these resources 
increases, and controversy about ways to protect the parks 
arise. Science provides an objective foundation for sound 
natural resources management. The ``new'' USGS is dedicated to 
providing this objective foundation.
    A wealth of studies have provided insights as to how 
science can and should contribute to the management of the 
parks. Two key reports in the early 1960s, Wildlife Management 
and the National Parks (the ``Leopold report'') and A Report by 
the Advisory Committee to the National Park Service on Research 
(the ``Robbing report''), pointed to the importance of strong 
scientific programs in aiding in the management of the Parks. 
The Robbins report underscored the ``distinctions between 
research and administrative decision-making.'' More recently, 
the National Research Council report Science and the National 
Parks, published in 1992, calls for greater ``organizational 
and budgetary autonomy'' of its science program, and makes a 
number of other recommendations for advancing park programs. We 
believe the creation of a new Biological Resources Division 
within the USGS will facilitate stronger, more independent 
research programs in support of park resources management.
    Future Challenges.
    The Secretary has made strong, objective research programs 
in support of effective resource management a top priority. 
With increased visitation within the national parks and 
increasing population surrounding them, maintaining the 
ecological integrity of these systems will be a particular 
challenge. At the same time, continuing constraints on federal 
funding will require the search for innovative approaches to 
ensure adequate support for key research activities. We are 
committed to working with you Mr. Chairman and members of the 
subcommittee to advance the department's scientific programs 
generally and National Park Service programs specifically.

                                ------                                

[GRAPHIC] [TIFF OMITTED] T9698.001

[GRAPHIC] [TIFF OMITTED] T9698.002

[GRAPHIC] [TIFF OMITTED] T9698.003

[GRAPHIC] [TIFF OMITTED] T9698.004

[GRAPHIC] [TIFF OMITTED] T9698.005

[GRAPHIC] [TIFF OMITTED] T9698.006

[GRAPHIC] [TIFF OMITTED] T9698.007

[GRAPHIC] [TIFF OMITTED] T9698.008

[GRAPHIC] [TIFF OMITTED] T9698.009

[GRAPHIC] [TIFF OMITTED] T9698.010

[GRAPHIC] [TIFF OMITTED] T9698.011

[GRAPHIC] [TIFF OMITTED] T9698.012

[GRAPHIC] [TIFF OMITTED] T9698.013

[GRAPHIC] [TIFF OMITTED] T9698.014

[GRAPHIC] [TIFF OMITTED] T9698.015

[GRAPHIC] [TIFF OMITTED] T9698.016

[GRAPHIC] [TIFF OMITTED] T9698.017

[GRAPHIC] [TIFF OMITTED] T9698.018

[GRAPHIC] [TIFF OMITTED] T9698.019

[GRAPHIC] [TIFF OMITTED] T9698.020

[GRAPHIC] [TIFF OMITTED] T9698.021

[GRAPHIC] [TIFF OMITTED] T9698.022

[GRAPHIC] [TIFF OMITTED] T9698.023

[GRAPHIC] [TIFF OMITTED] T9698.024

[GRAPHIC] [TIFF OMITTED] T9698.025

[GRAPHIC] [TIFF OMITTED] T9698.026

[GRAPHIC] [TIFF OMITTED] T9698.027

[GRAPHIC] [TIFF OMITTED] T9698.028

[GRAPHIC] [TIFF OMITTED] T9698.029

[GRAPHIC] [TIFF OMITTED] T9698.030

[GRAPHIC] [TIFF OMITTED] T9698.031

[GRAPHIC] [TIFF OMITTED] T9698.032

[GRAPHIC] [TIFF OMITTED] T9698.033

[GRAPHIC] [TIFF OMITTED] T9698.034

[GRAPHIC] [TIFF OMITTED] T9698.035

[GRAPHIC] [TIFF OMITTED] T9698.036

[GRAPHIC] [TIFF OMITTED] T9698.037

[GRAPHIC] [TIFF OMITTED] T9698.038

                                  <all>
</pre></body></html>
